<html>
<title> - ELECTION REFORM</title>
<body><pre>[Senate Hearing 107-1153]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1153
 
                            ELECTION REFORM

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 7, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                    U.S. GOVERNMENT PRINTING OFFICE
88-291                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  MAX CLELAND, Georgia
GEORGE ALLEN, Virginia               BARBARA BOXER, California
                                     JOHN EDWARDS, North Carolina
                                     JEAN CARNAHAN, Missouri
                  Mark Buse, Republican Staff Director
            Martha P. Allbright, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 7, 2001....................................     1
Statement of Senator Allen.......................................    70
Statement of Senator Boxer.......................................    67
    Prepared statement...........................................    67
Statement of Senator Burns.......................................     3
    Prepared statement of Senator Carnahan.......................    62
Statement of Senator Cleland.....................................     4
    Prepared statement...........................................     5
Statement of Senator Ensign......................................    72
Statement of Senator Hollings....................................     2
    Prepared statement...........................................     2
Statement of Senator Kerry.......................................    12
    Prepared statement...........................................    12
Statement of Senator McCain......................................     1
Statement of Senator Smith.......................................    65
Statement of Senator Wyden.......................................     3

                               Witnesses

Bollinger, John C., Deputy Executive Director, Paralyzed Veterans 
  of America.....................................................    74
    Prepared statement...........................................    76
Bradbury, Hon. Bill, Secretary of State, State of Oregon.........    28
    Prepared statement...........................................    29
Conyers, Hon. John C., U.S. Representative from Michigan.........    13
    Prepared statement...........................................    14
Cox, Hon. Cathy, Secretary of State, State of Georgia............    32
    Prepared Statement...........................................    34
Dodd, Hon. Christopher J., U.S. Senator From Connecticut.........     7
    Prepared statement...........................................    10
Henderson, Wade, Executive Director, Leadership Conference on 
  Civil Rights...................................................    78
    Prepared statement...........................................    81
Hutchinson, Hon. Asa, U.S. Representative from Arkansas..........    25
    Prepared statement...........................................    27
Meek, Hon. Carrie P., U.S. Representative from Florida...........    18
    Prepared statement...........................................    23
O'Gara, Mary Jane, Board Member, AARP............................    85
    Prepared statement...........................................    87
Schumer, Hon. Charles E., U.S. Senator from New York.............    15
Thornburgh, Hon. Ron, Secretary of State, State of Kansas........    53
    Prepared statement...........................................    55
Yzaguirre, Raul, President, National Council of La Raza..........    89
    Prepared statement...........................................    91

                                Appendix

Response to Written Questions Submitted by Hon. John McCain to:
    John Bollinger...............................................   105
    Bill Bradbury................................................    99
    Cathy Cox....................................................   102
    Mary Jane O'Gara.............................................   106
    Ron Thornburgh...............................................   100
    Raul Yzaguirre...............................................   107


                            ELECTION REFORM

                              ----------                              


                        WEDNESDAY, MARCH 7, 2001

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning, As we begin to unravel the 
consequences of the closest and most contested election in our 
Nation's history, we need to keep in mind that our primary goal 
should be restoring voters' confidence in the electoral 
process. We can accomplish that goal only if we carefully and 
thoroughly determine the lessons from this past November, and 
ensure that every vote cast in this country is counted and 
recorded as accurately as possible.
    On February 15, Senator Hollings and I introduced the 
American Voting Standards and Technology Act to address the 
overwhelming number of precincts who reported serious flaws in 
their local voting system. The shortcomings of our election 
system are an unfortunate embarrassment to our democracy. Our 
bill, S. 368, was written to directly confront the root cause 
of these voting controversies, the actual voting machines, and 
how they operate.
    In the 2000 election, pre-scored punch card ballots were 
used by one in three voters. These archaic votomatic machines, 
engineered in the 1960's, continue to be employed throughout 
the country, yet their ability to accurately record votes is 
questionable. Even more egregious are the prescored ballot 
cards that continue to be used even after the National 
Institutes of Standards and Technology, NIST, recommended their 
elimination in 1988.
    Compounding the problems of prescored punch cards, numerous 
studies reveal that throughout the country ballots cast by 
African Americans were nullified at a much higher rate than 
those of Caucasians. Our witnesses will offer similarly 
disturbing statistics regarding the disenfranchisement of many 
segments of our population, particularly Hispanic Americans, 
elderly Americans, and Americans with disabilities.
    How can we encourage young Americans to vote if they 
believe their vote may not be counted? We must modernize our 
voting machinery and improve our voting process without 
barraging states and local governments with excessive rules and 
regulations.
    Senator Hollings and I do not profess to have all of the 
solutions to solving this issue. We do, however, believe that 
the states' voices need to be heard, as do the voices of many 
civil rights groups who represent disenfranchised Americans. 
Surely the 2000 election was not the first time in our Nation's 
history when large segments of our population were 
systematically shut out of the electoral process. We hope to 
learn more today from the experiences of these interest groups. 
I look forward to hearing from the witnesses.
    Senator Hollings.

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Thank you, Mr. Chairman, for this 
hearing. I welcome the distinguished witnesses. I will file my 
full statement and just summarize by saying that back in 1978 
the old Bureau of Standards found that the punch card systems, 
the prescored punch cards like those used in Palm Beach were 
flawed, faulty. That was almost 25 years ago. The study was 
updated in 1988, and I think we need another updating. We also 
need to see what we can do to help, working with the other 
interested committees.
    I take it the Rules Committee will be looking at the times 
of voting and registration and so forth, but within the 
technology sector I hope we can develop a standard here that 
the states can all follow and fall in line and expedite the 
cleaning up of these elections.
    So, I thank the distinguished Chairman and the witnesses. 
Thank you, sir.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina

    Democracy--which provides that the power of government ultimately 
rests with the people--unquestionably is the best form of government 
that we know today. We, as Americans, pride ourselves on being the 
world's number one adherents of this great principle. Indeed, it was 
our enormous dedication to the creed of Democracy that led to the fight 
for this nation's independence; to the establishment of our revered 
constitution; to the right to vote without regard to property 
qualification; to the right to vote without regard to race; and to the 
right to vote without regard to gender. In other words, it is the 
principle of democracy that has held our nation in tact for over two 
centuries.
    Nevertheless, for democracy to work effectively, not only must 
citizens have the right to vote, the system must be constructed so that 
their votes count. Unfortunately, this is not always the case. As this 
past election revealed, there are regrettably human and mechanical 
flaws in our voting systems. Last November and December stories of 
overvotes, undervotes, and hanging chads flooded the media. Many voters 
complained that confusing butterfly ballots led them to make unintended 
choices, while others claimed they were denied the opportunity to vote 
by being left off of the registration rolls or through intimidation.
    Although many were stunned by these revelations, unfortunately, 
these problems are not new. The fact is that we've had difficulties 
using punch cards and other machine-readable ballots for more than 30 
years. As the record shows, federal officials were made aware of these 
issues as early as 1978, by a National Bureau of Standards study, 
Science & Technology: Effective Use of Computing Technology in Vote-
Tallying. That study--and another in 1988--found difficulties in vote-
tallying stemming from management failures, technology failures, and 
human operational failures. The 1978 report noted major difficulties in 
several key metropolitan areas. One of the vital recommendations was 
the elimination of the pre-scored punch card, similar to the kind used 
in Palm Beach County's Votomatic machines.
     Even though the 2000 presidential election leveled unprecedented 
attention on Florida's problems, as I'm sure we will hear today, 
Florida is not alone with respect to the prevalence of voting system 
flaws. Today's witnesses will outline many of the same difficulties 
evidenced in Florida. However, they will also highlight problems unique 
to their states or constituents. The final picture that emerges will 
undoubtedly be complex, requiring a multi-faceted solution.
    Senator McCain and I have put forward one part of that solution--
the American Voting Standards and Technology Act. This legislation 
would direct the National Institute of Standards and Technology, 
``NIST'' to: (1) facilitate the development of voluntary standards 
governing the performance of voting systems; (2) conduct a study of 
factors impacting voter participation by individuals and groups; and 
(3) implement a program making grants available to states and local 
governments to aid in the updating of voting equipment and to conduct 
voter educational programs.
    Other Senators have their own bills which offer reforms such as 
uniform poll closing times, same day registration, overseas military 
voting reforms, and reaffirmation of the Voting Rights Act, among 
others. Undoubtedly, this hearing is the first of many hearings that 
the Senate will hold on this matter. Election reform is a complex 
problem. Senator McCain and I realize that our American Voting 
Standards and Technology Act is only one piece of the pie. In that 
regard, we look forward to working with other Senators who are 
examining other aspects of the electoral system.
    In conclusion, I feel that I would be remiss if I did not say that 
though we should move expeditiously on the issue of election reform, we 
do not need to rush. In the coming weeks, the Senate is poised for a 
debate on campaign finance reform. The Chairman has his proposal; I 
have my Constitutional Amendment. We have already held numerous 
hearings, meetings, and discussions on campaign finance reform. So, 
let's keep our eyes on the prize and proceed with both efforts: 
campaign finance reform immediately, and election reform as soon as 
possible.
    As noted, the right to vote is the most fundamental right bestowed 
upon Americans by the U.S. Constitution. Sadly, there are millions of 
Americans who lost faith in the guarantee and exercise of this 
fundamental right due to the circumstances of the last election. 
Senator McCain and I do not claim to know how to restore the American 
people's faith in our voting systems. However, we do believe that 
setting basic performance standards, helping election officials acquire 
systems which meet those standards, and helping voters use those 
systems will go a long way in ensuring more consistency and reliability 
in our voting systems.
    As I stated earlier, Democracy is the best form of government we 
are familiar with today. However, we must work continuously to make it 
work effectively. Indeed we must always strive to make our democracy 
better. Unfortunately, I think maybe we have rested on our laurels, and 
each of us is now hearing from our constituents that they are not happy 
about it. I look forward to hearing from each of our witnesses on how 
we can make our system better.

    The Chairman. Thank you, Senator Hollings. Senator Burns, 
do you have a brief comment?

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. I have a brief comment. Thank you for 
holding this hearing. I am already on another bill sponsored by 
the principal cosponsor, by Senator McConnell. I am intent on 
listening to the witnesses this morning. I guess one thing I 
would look for in any part of this legislation is that unfunded 
mandates, because counties pay for elections, and I being an 
old county commissioner, elections cost a lot of money, and so 
I am just going to be very, very particular about imposing 
anything by the federal government on counties that--and 
especially counties who have had a history of having no 
problems, so thank you, Mr. Chairman.
    The Chairman. Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman. I am in strong 
support of what you and Senator Hollings want to do. I think it 
is very constructive, and I support it. I would make only two 
comments this morning. The first is that this year more than 30 
million Americans are going to file their taxes online, and 
millions more are monitoring their retirement benefits online.
    This Committee put together the electronic signatures bill, 
and I would just hope that we do not give up on the idea of 
online voting in this country. I hope that at a minimum we 
would continue to experiment at the local level with different 
kinds of approaches to ensure that there is no fraud. We know 
that there is a digital divide, and that would have to be 
addressed. However, I would hope that we could continue the 
experiments on online voting, because with Americans using 
modern technology in so many other areas, I do not think we 
ought to give up.
    Second, a bit of history with respect to vote by mail, and 
I want to thank Senator Hollings and Senator McCain for 
inviting my friend, Bill Bradbury, the Secretary of State for 
Oregon, to testify here today. I am the Nation's first mail-in 
United States Senator. I was elected in an all-mail vote, and 
at the time----
    The Chairman. We do not know how to take that.
    [Laughter.]
    Senator Hollings. What about the females?
    [Laughter.]
    Senator Wyden. I knew that that would generate some debate. 
What was interesting about that election is that, at the time, 
almost all the Democrats were against mail-in voting in Oregon, 
because they thought it would hurt their base. The Republicans 
supported mail-in voting because they thought it would help 
their base. I was one who thought it was just a good idea and 
said so. However, after I won the election there was an about-
face, and all the Democrats were for mail-in voting, and 
Republicans said, oh my goodness, we have got to be worried 
about fraud.
    So what we ought to do is do what you, Mr. Chairman, and 
you, Senator Hollings, are doing, which is work at this in a 
bipartisan kind of way. I think we are going to see these 
innovations make a real difference for this country. We have 
seen it in Oregon with mail-in voting, and I do hope that in 
spite of this newspaper headline today about online voting, we 
will continue to fund those experiments. I thank you and look 
forward to working with you and Senator Hollings.
    The Chairman. I thank you. Senator Cleland, and by the way, 
for whatever it is worth, my view is that, as you mentioned, it 
is now legal to carry out a transaction, or a legal document, 
over the Internet. It seems to me that over time we should be 
able to make Internet voting secure.

                STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. Mr. Chairman, I have a question, and that 
is, if someone is recalled after having been elected by mail, 
do we just mark, return to sender?
    [Laughter.]
    Senator Cleland. I might say that the distinguished Senator 
from Montana is a former county commissioner. I am a former 
election official for 12 years in Georgia, and every year we 
had problems with the punch card system. I am an author of 
legislation to provide a knock-out punch to the punch card 
system, not by putting a burden on counties, but by putting 
some federal funds to a third of the precincts in America that 
have that system, or are now afflicted with that system. The 18 
counties in my own state which use the punch card system show 
twice the undervote of the national average. Citizens in my 
state are being disenfranchised because of the punch card 
system, and I hope we can punch it out.
    I would say also, we are honored to have my Secretary of 
State from Georgia here today, Ms. Cathy Cox. She is on the 
second panel, and we will have some other words to say about 
that. I am on the wonderful legislation sponsored by Senator 
Schumer, and Senator Brownback, and was there the day we kicked 
it off. We have some wonderful people and some talent here 
today, Mr. Chairman, we can hear from, and certainly we can 
take action on this important issue before the next general 
election.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    [The prepared statement of Senator Cleland follows:]

   Prepared Statement of Hon. Max Cleland, U.S. Senator from Georgia

    I want to thank Chairman McCain and Senator Hollings for holding 
this hearing today on election reform. I appreciate their leadership on 
this important issue. Mr. Chairman, we can all agree that last year's 
election was one of the most unusual political events this country has 
ever seen. As a former Secretary of State and chief elections official 
in Georgia, I believe it was also a wake up call for reforming our 
electoral process. I have reviewed the McCain-Hollings' American Voting 
Standards Technology Act, which directs the National Institute on 
Standards and Technology to develop voluntary standards for the voting 
process, and provides grants to the states to rehabilitate voting 
equipment and strengthen voter education. The McCain-Hollings bill 
targets reform where help is needed and I am pleased to support it.
    Today, I will introduce my own bill, the Make Every Vote Count Act, 
to help states and localities modernize voting systems, promote 
uniformity in voting equipment within states and require greater 
standardization in assuring the voting rights of our military 
personnel. My legislation creates a one-time, $1 billion federal block 
grant for replacement of punchcard voting systems (which are used by 34 
percent of the Nation's voters), lever machines (19 percent of voters), 
and paper ballots (2 percent of voters) with a more advanced voting 
system, such as optical scan or electronic systems. Because many errors 
are caused by inadequate training of election workers or education of 
voters in how to properly cast valid votes, and such errors are 
especially likely when converting to a new system, the bill would allow 
up to one-third of the grant funds to be used for those purposes. 
Finally, the bill will assure the voting rights of out of state 
military personnel by protecting their absentee ballots.
    Today I have the pleasure of introducing Georgia's Secretary of 
State, Cathy Cox, to the Committee. Secretary Cox has truly been one of 
the national leaders who have risen to the challenge during the debate 
on election reform. Her study of the Georgia elections, A Wake Up Call 
for Reform and Change, highlights one of the most serious problems 
experienced last November: the failure of outdated systems on which too 
many of our citizens are forced to use in casting their ballots. The 
error rates from November showed considerable variation between states, 
depending on the type or types of voting system used in each state, and 
within states, with voters residing in counties using 1960's ``punch 
card ballot'' technology experiencing the highest errors. Cathy Cox has 
come up with what I believe is an excellent solution for our state's 
problems and I am very pleased that the Committee has called on her 
expertise today.

The Make Every Vote Count Act--Summary
    The legislation creates a one-time, $1 billion federal block grant 
for replacement of punchcard voting systems (which are used by 34 
percent of the Nation's voters), lever machines (19 percent of voters), 
and paper ballots (2 percent of voters) with a more advanced voting 
system, such as optical scan or electronic systems.
    Because many errors are caused by inadequate training of election 
workers or education of voters in how to properly cast valid votes, and 
such errors are especially likely when converting to a new system, the 
bill would allow up to one-third of the grant funds to be used for 
those purposes.
    Here's how the block grant would work----

        1.  Within 30 days of the bill's enactment, the Federal 
        Election Commission would disburse the $1 billion as block 
        grants to states under a pre-set formula which bases a state's 
        allocation on the state's share of the national total of all 
        lever machines, punchcard systems and paper ballots. (Section 
        2(d)(1) and (2) and Section 2(g)). (For purposes of the 
        formula, in order to make the paper ballot totals comparable to 
        the lever and punchcard machine totals the number of registered 
        voters in a district using paper ballots is divided by 200, 
        which is a rough estimate of the average number of voters per 
        machine in other systems.) Within that same 30-day time frame, 
        a state could opt-out of the grant program simply by notifying 
        the Commission. (Section 2(e)).
        2.  In order to provide for accountability without imposing a 
        significant federal administrative burden, and to stretch the 
        resources made available for voting modernization, the bill 
        would require that participating state and local governments 
        together supply 20 percent matching funds for the federal 
        grant. (Section 2(c)).
        3.  Within 60 days of receiving the federal block grant, a 
        participating state's chief election official would be required 
        to identify a single ``advanced voting system'' which 
        participating counties and municipalities within that state 
        would procure. This requirement is intended to provide a means 
        to move toward greater uniformity in voting systems within 
        states, which is the only way to insure that everyone's vote 
        within a given state is counted in the same way. (The desire to 
        promote uniformity is the primary reason why lever machines and 
        paper ballots--which have lower error rates than punchcard 
        systems but are even more antiquated--are also made eligible 
        for replacement.) (Section 2(b)(3)).
        4.  Within 90 days of receiving a federal grant, a 
        participating state's chief election official is required to 
        notify all eligible counties and municipalities of the grant's 
        availability and requirements. The state official is 
        subsequently required to ``expeditiously disburse'' the funds 
        to these local governments under a pre-set formula which bases 
        a local area's allocation on its share of the state's total of 
        all lever machines, punchcard systems and paper ballots. 
        (Section 2(d)(3)). However, a local area is permitted to opt 
        out of the grant program simply by failing to notify the state 
        official of its acceptance within 30 days of the notification 
        of the grant's availability. (Section 2(f)(3)).
        5.  The grant would be used by eligible local recipients 
        (counties in most cases but municipalities in Maine, 
        Massachusetts, New Hampshire, Vermont and Wisconsin) for 
        replacing lever machines, punchcard systems and paper ballots 
        with an ``advanced voting system'' designated by the state's 
        chief election official. Furthermore, in order to smooth the 
        transition, and to reduce error rates, the local area could 
        ``flex'' at least one-third of its grant for training election 
        officials and educating voters about the new system and, once 
        all eligible systems are replaced, the locality could use any 
        remaining funds for these same purposes. (These ``flexed'' 
        funds could also be used to defray any local costs associated 
        with implementing the military voting provisions of Section 3.) 
        (Section 2(b)(2)).
        6.  An ``advanced voting system'' is defined as one which 
        prevents overvotes, significantly reduces undervotes, provides 
        a permanent record of each vote (for possible recounts), 
        significantly reduces recount error in comparison to the 
        system(s) being replaced and ensures accessibility for disabled 
        voters. (Section 2(f)(1)).
        7.  Any block grant funds not used by localities (either 
        because they opt out of the program or because they do not need 
        the full grant amount) may be used by the state to enhance 
        voter participation (through a variety of approaches including 
        voter registration, training of election officials and 
        upgrading other voting equipment not otherwise provided for by 
        the bill) and to defray any state costs associated with 
        implementing the military voting provisions of Section 3. 
        (Section 2(b)(1)).

    Section 3 of the bill is derived, verbatim, from Title VI of 
Senator Daschle's bill, S. 17. These provisions require that, for 
purposes of voting, no military member be deemed to have had a change 
of domicile or residence solely because he or she had to be absent in 
compliance with military orders. Furthermore, they provide that states 
and localities must permit absentee voting by uniformed service members 
in state and local elections, as is currently required only for federal 
elections. (Section 3). As mentioned above, compliance costs associated 
with this Section may be paid for out of the state and local grants 
under Section 2. (These provisions are intended as preliminary steps to 
redress problems in military voting, pending completion of a General 
Accounting Office study of such problems requested by Senators Cleland, 
Warner, Levin and Hutchinson.)

    I would like to welcome our colleagues from the House and 
the Senate. We would like to begin with Senator Dodd because of 
his advanced age.
    [Laughter.]

            STATEMENT OF HON. CHRISTOPHER J. DODD, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Dodd. I thought it was the white-headed caucus 
here. Thank you very much, Mr. Chairman. I am pleased to be 
before this Committee once again, and to be joined here at the 
table by interested Members of the House and the Senate on this 
subject matter, which I think you properly characterized. This 
was a troublesome election, and it was not, in my view, just 
located in one state. I think there are some serious problems 
that have been festering for sometime Nation-wide that need to 
be addressed. Some of them are technical, but some go beyond 
technicalities. It is not just a question, in my view, of 
crafting a better mouse trap here. We also need to recognize 
that there are some underlying fundamental problems about 
promoting elections in this country, educating people properly, 
and making the process more available to more Americans.
    So I am pleased to have a chance to appear before you this 
morning to just share some thoughts about the integrity of our 
election system, and offer some ideas of how we might reform 
the process.
    Last month, Mr. Chairman, the Senate Democratic Leader, Tom 
Daschle, asked me to head up a working group among Democrats to 
take a look at some ideas in this area. I am joined in that 
endeavor with my colleague from New York, Senator Schumer, 
among others. We are looking at a variety of proposals on how 
we might improve the system.
    What we have learned already, Mr. Chairman, is that this is 
not a Democratic or Republican problem, it is an American 
problem. And I would submit to you and Members of the Committee 
that the solutions to these problems must be appropriately 
nonpartisan if they are going to succeed at all.
    The Senate Rules Committee on which I serve as the Ranking 
Democrat will hold a series of hearings on election reform next 
week, since the Rules Commitee is the proper jurisdiction. The 
Rules Committee has jurisdiction over federal elections. There 
are a number of Members of our Committee and of the Senate who 
have introduced or cosponsored some very thoughtful pieces of 
legislation, and we will hear from those members next Thursday.
    Now, I am hopeful that we will act to report one or more 
bills in the Senate rather shortly, or soon thereafter. I am 
introducing some legislation, along with my good friend and 
colleague from the House, John Conyers, which we will describe 
briefly to you here this morning, and John will maybe follow 
on, since it is a companion bill in the House.
    We all know that there is a great deal of work to be done 
in the 107th Congress. Obviously, the list is long, issues like 
social security, prescription drugs, education, housing, jobs, 
and campaign finance reform, which is coming up in a few days, 
and is a critical one. But Mr. Chairman and Members of the 
Committee, I would submit to you and Members of the Committee 
this morning that none of these issues, as important as they 
are, is more vital than the issue of ensuring that each and 
every qualified American can freely and effectively exercise 
his or her right to vote.
    Now, why do I say that? Because the right to vote is the 
cornerstone in our democracy. In the words of Thomas Paine, it 
is the primary right by which the other rights are protected. 
The struggle to secure that right for all Americans has been 
long and painful. Our Nation's history of disenfranchisement is 
lamentable. Thirty-six years ago, almost to the day, Mr. 
Chairman, on March 15, 1965, President Lyndon Johnson, speaking 
before a joint session of the Congress of the United States, 
called for passage of what ultimately became the Voting Rights 
Act.
    On that evening, Mr. Chairman, he spoke plainly and very 
forcefully to the American public. ``All Americans,'' he said, 
``must have the right to vote, and we are going to give them 
that right. All Americans must have the privileges of 
citizenship, regardless of race, and they are going to have 
those privileges of citizenship regardless of race.''
    It is the sad message of this last election that the 
privileges of citizenship have yet to be fully guaranteed to 
all Americans, regardless of race, in my view. In the days 
immediately following last November 7, I read a news article 
about a young woman who had left her home early on Election Day 
to cast her vote for the very first time in her life. She was 
joined by her mother and father. She remarked at the excitement 
and pride that she felt on that day that she would join her 
parents to exercise this most sacred American right.
    The woman and her family had planned to vote, and then 
share a quiet family celebration on this special occasion for 
her, but they never had that chance, Mr. Chairman. When she 
arrived at the polling place, this young woman, who happened to 
be an African American, was told that her name was not listed 
among the rolls of registered voters, despite the fact that she 
had gone through the process. She waited patiently for minutes, 
then for hours, as overworked and undertrained poll workers 
sought to verify that she was registered, but they never did, 
Mr. Chairman. Told that she was not going to be able to vote 
that day, this young woman left the polling place in tears.
    Mr. Chairman, I respectfully suggest to you and to my 
colleagues that the story of that young woman is a story we 
should all take to heart. She was crying on November 7, not 
just for herself but, I would suggest, for an election system 
that failed her, and on some level failed our Nation as well.
    If we do nothing else in the 107th Congress, it is my 
fervent hope that we see to it that neither this young woman 
nor anyone else like her again is denied that right to vote. 
There are several things that I think we can be doing.
    The next 2 weeks, as I mentioned, the Senate will take up 
the issue of campaign finance reform and, Mr. Chairman, let me 
say publicly once again what I have told you privately and said 
over the years. I commend you and our colleague Russ Feingold 
for your diligent and sincere efforts to make such reform a 
reality in this country, but I would suggest that such a 
measure is not an appropriate vehicle for debating election 
reform. I know there will be those who may want to bring this 
up. I care about this issue a lot, but I am concerned that we 
might achieve neither, in effect, if we end up trying to link 
these two.
    Many of us would like to see strong, fair legislation that 
limits the unhealthy influence of money in our electoral 
system. I, for one, am hopeful that such legislation will pass 
the Senate and House and be sent to the President's desk for 
signature. But if we learned anything last November, it is that 
it is not only money that threatens to diminish and deny the 
voice of the average voter. Other forces are at work as well, 
such as antiquated voting machines that fail to accurately 
record voters' choices, ballots that confuse rather than 
clarify, overcrowded polling places that require voters to have 
the patience of Job, polling places that are inaccessible to 
the disabled and to the blind, to language minorities, 
inaccurate voter registration lists, and so-called ballot 
security measures which have the effect, if not the intent, of 
intimidating and discouraging voters.
    During the past several years, Mr. Chairman, I have had the 
privilege of working with the Ranking Member of the House 
Judiciary Committee, Mr. Conyers, on legislation to address 
these and similar shortcomings of our electoral system. Our 
bill is premised on the idea that the problems of the 2000 
election in Florida and elsewhere were not only technological 
in nature.
    Technology is wonderful, and there needs to be change here, 
but this is not just about helping states and localities build 
or buy better mouse traps, if you will. It is also about 
addressing, with tough, meaningful standards that apply 
throughout the country, other issues where our electoral system 
is falling short, in voter registration, in recruitment and 
training of poll workers, ensuring access for the disabled and 
limited English speakers, and removing all barriers to voting, 
including disincentives to working Americans, who often must 
choose between their jobs and exercising their right to vote.
    So allow me to make one final point, if I could, Mr. 
Chairman, and that is, we must do all that we can to ensure 
that we have the reform that is meaningful. We must not elevate 
form over substance, nor can we rush to enact measures which 
address only the technological glitches in the last election. 
It is critically important that we work to enact the strongest 
set of reforms possible.
    These moments in history only come along rarely. It is 
because of the events of last fall that we are meeting here and 
we will meet in the Rules Committee. I would suggest without 
the events of last November and December we probably would not 
have addressed this issue. Despite the fact that these problems 
have existed, but because they have occurred, we are meeting. 
We are meeting here, we will meet in the Rules Committee, and 
we must go beyond, in my view, just, as I say, coming up with 
better technology here.
    There are some deeper underlying problems to be addressed. 
Mr. Chairman, for 200 years we have run elections with 
volunteers. It is a wonderful commentary about our country. On 
Election Day it is volunteers from Arizona to Connecticut 
together, in thousands of polling places, who assist people to 
cast ballots. But as we enter the 21st Century with over 100 
million eligible voters in this country, more than 100 million 
eligible voters, we need to get beyond just volunteerism, and 
hoping somehow that elections are going to work well across the 
country without making the kind of investments and setting some 
national standards that I think will help us improve this 
process immensely.
    So when it comes to ensuring the right to vote, we should 
not and must not settle for anything that is even close to 
second best, or else we risk eroding public confidence in a 
system which threatens to undermine our system of democracy. 
Mr. Chairman, I thank you for the privilege of attending 
today's hearing, and I look forward to working with you and 
other members who are interested in this legislation, or 
legislation like it. With that, I might want to turn, if it is 
all right with my colleague from New York, to John Conyers just 
for some brief comments. It is a similar bill. It is that all 
right with you, John?
    [The prepared statement of Senator Dodd follows:]

            Prepared Statement of Hon. Christopher J. Dodd, 
                     U.S. Senator from Connecticut

    Mr. Chairman, Senator Hollings, Members of the Committee: I 
appreciate the opportunity to appear before you today to discuss an 
issue that is of vital importance to the continued health of this 
democracy--the integrity of our election system and the need for 
election reform.
    Last month, the Senate Democratic Leader, Tom Daschle, asked me to 
lead a working group in our caucus on this same issue to both deepen 
our understanding of and develop solutions to the problems that came to 
light during the election of 2000.
    What we have learned already is that this is not a Democratic or 
Republican problem. It is an American problem. And I submit to you that 
the solutions to these problems must be, appropriately, nonpartisan to 
succeed.
    The Senate Rules Committee, on which I serve as ranking member, 
will begin a series of hearings on election reform next week.
    As the committee with jurisdiction over federal elections, there 
are a number of members of our committee and the Senate who have 
introduced or cosponsored thoughtful election reform legislation, and 
we will hear from those members, and others, next Thursday. I am 
hopeful that we will act to report one or more bills to the Senate for 
consideration.
    We all know that there is a great deal of work to be done in the 
107th Congress--on issues like social security, prescription medicines, 
education, housing, and jobs.
    But I submit to you that none of these issues--none of them--is 
more vital than the issue of ensuring that each and every qualified 
American can freely and effectively exercise his or her right to vote.
    Why do I say that? Because the right to vote is the cornerstone 
right in a democracy. In the words of Thomas Paine, it is ``the primary 
right by which other rights are protected.''
    The struggle to secure that right for all Americans has been long 
and painful. Our nation's history of disenfranchisement is lamentable.
    Thirty-six years ago next week, on March 15, 1965, President Lyndon 
Johnson convened a joint session of Congress to call for passage of 
what ultimately became the Voting Rights Act.
    He spoke plainly and forcefully that evening. ``All Americans,'' he 
said, ``must have the right to vote. And we are going to give them that 
right. All Americans must have the privileges of citizenship regardless 
of race. And they are going to have those privileges of citizenship 
regardless of race.''
    Yet the sad message of this last election is that the privileges of 
citizenship have yet to be fully guaranteed to all Americans regardless 
of race.
    In the days immediately following last November the 7th, I read a 
news article about a young woman. She left her home early on election 
day morning to cast her vote for the very first time. She was joined by 
her mother and father.
    She remarked at the excitement and pride she felt that she could 
join her parents to exercise this most sacred right.
    The woman and her family had planned to vote and then share a quiet 
celebration. But they never had the chance. When she arrived at her 
polling place, this young woman--who happened to be of African-American 
descent--was told that her name was not listed among the rolls of 
registered voters.
    She waited patiently--first for minutes, then for hours--as 
overworked and undertrained poll workers sought to verify that she was 
registered. But they never did. Told she would not be able to vote, the 
young woman left the polling place in tears.
    I respectfully suggest to my colleagues that the story of that 
young lady is a story we should all take to heart. She was crying on 
November the 7th not just for herself, but, I would suggest, for an 
election system that failed her--and on some level failed the country.
    If we do nothing else in this 107th Congress, it is my fervent hope 
that we see to it that neither this young woman nor anyone like her is 
ever again denied the right to vote.
    In the next two weeks, the Senate will take up the issue of 
campaign finance reform. I commend the chairman for his diligent and 
sincere efforts to make such reform a reality. But I would suggest that 
such a measure is not an appropriate vehicle for debating election 
reform.
    Many of us would like to see strong, fair legislation that limits 
the unhealthy influence of money in our electoral system. I, for one, 
am hopeful that such legislation will pass the Senate and House and be 
sent to the President's desk for his signature.
    But if we learned anything last November, it is that not only money 
threatens to diminish and deny the voice of the average voter. Other 
forces are at work, as well, such as:

  <bullet> antiquated voting machines that fail to accurately record 
        voters' choices;

  <bullet> ballots that confuse rather than clarify;

  <bullet> overcrowded polling places that require voters to have the 
        patience of Job;

  <bullet> polling places that are inaccessible to the disabled, the 
        blind and to language minorities;

  <bullet> inaccurate voter registration lists; and

  <bullet> so-called ``ballot security'' measures which have the 
        effect, if not the intent, of intimidating and discouraging 
        voters.

    During the past several weeks, I have had the privilege of working 
with the ranking member of the House Judiciary Committee, Mr. Conyers, 
on legislation to address these and similar shortcomings of our 
electoral system.
    Our bill is premised on the idea that the problems of the 2000 
elections in Florida and elsewhere were not only technological in 
nature. This is not just about helping states and localities build--or 
buy--better mouse traps, if you will.
    It is also about addressing--with tough meaningful standards that 
apply throughout the country--other issues where our electoral system 
is falling short:

  <bullet> in voter registration;

  <bullet> in the recruitment and training of poll workers;

  <bullet> in ensuring access for the disabled and limited-English 
        speakers; and

  <bullet> in removing all barriers to voting, including disincentives 
        to working Americans who often must chose between their job and 
        exercising their right to vote.

    Allow me to make one final point: we must do all we can to ensure 
that we have reform that is meaningful. We must not elevate form over 
substance. Nor can we rush to enact measures which address only the 
technology glitches in the last election. It is critically important 
that we work to enact the strongest set of reforms possible.
    When it comes to ensuring the right to vote, we should not, and we 
must not, settle for second-best measures--or else we risk eroding 
public confidence in our system of elections which threatens to 
undermine our system of democracy.
    I thank you for the privilege of attending today's hearing. I look 
forward to working with you to achieve bipartisan election reform.

    The Chairman. We would be pleased to. May I say, Senator 
Dodd, I agree with your view on not including electoral reform 
in campaign finance reform, primarily because I think we have 
just begun to investigate the problems, and just begun to come 
up with some of the solutions. If there were some very easy, 
quick fixes that could be included, that would be one thing. 
But to think that by the end of March we would be able to 
address the endemic and systemic problems with the electoral 
system in America, is unrealistic. I think it would not give us 
a clear understanding of the depth and significance of the 
problem. I look forward not only to further participation by 
this Committee, but primarily to the responsibilities of the 
Rules Committee, in which you will obviously play a major role, 
and we thank you.

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Mr. Chairman, I just want to ask unanimous 
consent that an opening statement be placed in the record as if 
read.
    The Chairman. Without objection. Thank you, Senator Kerry.
    [The prepared statement of Senator Kerry follows:]

               Prepared Statement of Hon. John F. Kerry, 
                    U.S. Senator from Massachusetts

    Mr. Chairman, Senator Hollings, thank you for holding this hearing 
today. It has been approximately four months since Americans cast their 
vote for President, and for many, there remains a degree of uneasiness 
about the whole process. Many Americans who voted or tried to vote feel 
disenfranchised. They believe their votes didn't count and their voices 
weren't heard.
    We can be thankful that we are past the days of poll taxes, 
literacy tests, and other discriminatory practices that kept voters 
away from the polls. But if there is even an inadvertent flaw in the 
design or administration of our voting systems that prevents Americans 
from having their votes counted, it is our utmost responsibility to 
ensure that we remedy the situation.
    There is simply no excuse for the most technologically savvy nation 
in the world to be using voting equipment that is 30 years old. And it 
is disturbing, to say the least, that much of the oldest and least 
reliable equipment is found in the poorest counties across the country. 
Often, people of color make up the majority of the population in those 
counties. None of us should ever again be in the position of having to 
explain to urban, minority voters why a portion of their votes didn't 
get counted, while their white suburban neighbors, using better 
equipment, could rest assured that there were no voting irregularities 
in their precincts that would have caused their votes to be discarded.
    If we can't promise all of our citizens that their votes will count 
equally, then all of the past work this nation has done to guarantee 
the right to vote to women, people of color and the poor will have been 
squandered.
    That is why I am pleased you have gathered these witnesses for this 
hearing today. Perhaps the silver lining to the problems that came to 
light during the last election is that we in Congress are taking a 
serious look at ways to fix the system and ensure that all Americans 
who register to vote can vote, and that all Americans who do vote can 
be sure their vote counts.
    The first order of business for the federal government is to 
provide states with at least a portion of the resources they will need 
to overhaul their voting systems. State officials, from governors to 
county supervisors, face competing demands for funds every day, as they 
decide how to pay their teachers, pave their roads, and remove their 
garbage. When it comes to paying for federal elections, buying the 
newest, most reliable technology may be far down on their list of 
priorities. That is why federal government must find a way to provide 
at least a portion of the resources states will need to make 
improvements that are necessary to assure the integrity of our 
elections.
    But legislation cannot simply stop with more money. Legislation 
must ensure that states will have guidelines in place that will ensure 
that voters who speak languages other than English can vote. It must 
ensure that people with disabilities can vote. It must ensure that 
people of color are not denied the right to vote.
    We must never again read in the Washington Post statistics like 
this:

  <bullet> ``As many as one in three ballots in black sections of 
        Jacksonville . . . did not count in the presidential contest. 
        That was four times as many as in white precincts elsewhere in 
        mostly Republican Duval County.''

  <bullet> ``In Miami-Dade County precincts where fewer than 30 percent 
        of the voters are black, about 3 percent of the ballots did not 
        register a vote for president. In precincts where more than 70 
        percent of the voters are African American, it was nearly 10 
        percent.''

  <bullet> ``In many black precincts in Chicago, one of every six 
        ballots in the presidential election was thrown out, while 
        almost every vote was counted in some of the city's outer 
        suburbs.''

    It is our responsibility to respond to shocking statistics like 
these. It is our duty to act in a way that each and every one of our 
citizens is ensured of his or her right to vote. We simply cannot do 
anything less.
    Thank you Mr. Chairman. I look forward to hearing from the 
witnesses.

    The Chairman. I welcome my friend and colleague from the 
House. Congressman Conyers, welcome. Thank you.

              STATEMENT OF HON. JOHN C. CONYERS, 
               U.S. REPRESENTATIVE FROM MICHIGAN

    Mr. Conyers. Thank you very much, Senator McCain, Chairman, 
and all my friends here at the table, and on the Committee, I 
am delighted to just take a couple of minutes, and I know 
Senator Schumer is due in Rules Committee, and I am due back 
over in the House, and I do not need to--I will ask that my 
statement be included in the record.
    The Chairman. Without objection.
    Mr. Conyers. And that leaves me only to say that Senator 
Dodd has put his finger on what I think is going to lead us to 
a very important conclusion here. Number 1, this has been an 
ongoing problem. Voter reform has sadly been neglected by many 
of us. The Florida spotlight may have brought it to our 
attention, but this is a Nation-wide problem, and it is in that 
spirit that I come over here.
    The things that I am trying to do, and it is a fight 
between time--we need to get reform quickly as we can, and we 
need to get as many essential elements as we can, and what 
Senator Dodd and I are working on in this concept of an Equal 
Protection of Voting Rights Act, which will be before you 
shortly, probably this week, is to (1) allow a voter to check 
his vote before it is cast.
    I know that I overvoted in the November 7 election, but it 
came back out. You could not confuse that, because that was 
built into the machine.
    (2) To protect against overvoting and undervoting, (3) to 
produce an auditable record so you can track what happened, and 
(4) make it accessible to individuals with disabilities, or 
language problems, so that they can participate, and finally, 
to make provisional ballots understandable by not only the 
people that vote but the people that work in the polling 
processes.
    We had areas in the country where there was provisional 
balloting allowed, but the poll worker did not know anything 
about it, so they could not do anything.
    So that, in short, is what I am thinking is a good 
beginning. It is a fundamental question. I know in the 
Congressional Black Caucus there is no issue that is higher 
than this, and Congresswoman Meek will go into perhaps more 
detail, but I think that this examination of this question, and 
that the Senate is taking it up first, I congratulate you, 
because this is the first official hearing that we have had. 
The Congressional Black Caucus has had a hearing, but this is, 
to me, our Nation's first business.
    I commend again my colleague from Connecticut and hope that 
we can move this expeditiously, as you all have started over 
here today. Thank you very much.
    [The prepared statement of Mr. Conyers follows:]

              Prepared Statement of Hon. John C. Conyers, 
                   U.S. Representative from Michigan

    There is one word that describes the 2000 elections: a disaster. 
Because of the razor thin margin of the Presidential election, flaws in 
our electoral system--which have existed for a long time--were exposed 
and our nation waited for weeks to find out the winner of the most 
important election.
    More than anything else, there is one critical thing to remember: 
election reform is not just about machines. There is no doubt we need 
to replace the machines. But there are many more flaws in our election 
system.
    Throughout the country, voters who committed no crime were 
illegally purged from voting rolls as felons, voters faced police 
roadblocks and other forms of intimidation, and voters with 
disabilities were faced with voting conditions that denied them the 
right to vote with privacy and independence that we take for granted. 
Election reform is the first major civil rights issue of the 21st 
Century.
    In even more routine ways, voters are denied their right to vote. 
In the 2000 elections, polling places were moved at the last minute 
with no notice to voters, underpaid and undertrained election personnel 
were incapable of explaining confusing ballots and registration forms 
were not processed by state officials in a timely fashion. Voting 
should not be difficult. Election reform should make it easier.
    But, unlike natural disasters, on the fundamental issue of 
protecting the right to vote, the federal government has done woefully 
little to help the states.
    Because the Supreme Court has indicated that these election 
irregularities impact the Fourteenth Amendment to the U.S. 
Constitution, we must have national standards for all federal elections 
and, in so doing, provide the states with a model of excellence.
    Specifically, I believe--at a minimum--we should require that all 
voting machines in federal elections:

  <bullet> allow a voter to check his vote before it is cast,

  <bullet> protect against overvoting and undervoting,

  <bullet> produce an auditable record,

  <bullet> be accessible to individuals with disabilities, language 
        minorities, and other individuals with special needs, including 
        the right to vote with privacy and independence.

    In every federal election, any voter who believes she is wrongfully 
being denied her right to vote must be permitted to cast a provisional 
ballot, the ballot should be promptly investigated and, if appropriate, 
counted.
    In every federal election, a voter must receive a sample ballot, 
instructions for casting the ballot and notification of their voting 
rights.
    Very shortly, Senator Dodd and I will introduce a bill that will do 
just that, the ``Equal Protection of Voting Rights Act.'' 
Representative Carrie Meek, who is with us today, is an original 
cosponsor.
    We have to help the states get there. It will be costly. I believe 
it will cost billions of dollars to upgrade election machinery and 
educate voters.
    But we shouldn't shrink away from making this investment in our 
democracy. It is about the legitimacy of our elections. And, while it 
may cost billions to do it right, this week we are talking about a tax 
cut that costs at least 200 times more.
    We need complete election reform, election reform that addresses 
voting rights issues. And the clock is ticking. The next federal 
elections are 20 months away. We must get started.
    I applaud this Committee and Chairman McCain for taking this 
important first step by holding the first bipartisan Congressional 
hearing on this issue.

    The Chairman. Thank you very much, Congressman Conyers. We 
appreciate you taking the time from your schedule to come over 
and be with us today.
    Senator Schumer.

             STATEMENT OF HON. CHARLES E. SCHUMER, 
                   U.S. SENATOR FROM NEW YORK

    Senator Schumer. Thank you, Mr. Chairman.
    The Chairman. We know that you and Senator Dodd both have 
to leave us, and if you do not want to listen to Senator 
Schumer----
    [Laughter.]
    Senator Schumer. I am used to that, Mr. Chairman.
    [Laughter.]
    Senator Schumer. Thank you, Mr. Chairman. I very much 
appreciate your holding these hearings so quickly, and I want 
to thank you and Senator Hollings, as well as the whole 
Committee, for your leadership on this issue, as this Committee 
leads on so many others, and I want to thank Senator Dodd and 
Congressman Conyers, my good friends, for their strong 
involvement in this issue, and for the issues they hold near 
and dear.
    Now, Mr. Chairman, my view is that this issue does demand 
our close and sustained attention, and that is why having these 
Committee hearings so early is so important. I now it is an 
issue you deeply care about, as I do, and many fellow Americans 
do, and it goes to the very nub of our entire existence as 
America, which runs through the blood of all of us.
    I thought Justice Hugo Black sort of summed it up well when 
he said that, ``no right is more precious in a free country 
than that of having a voice in the election of those who make 
the laws under which, as good citizens, we must live.'' Other 
rights, even the most basic, are illusory if the right to vote 
is undermined, and yet our last election demonstrated that this 
precious fundamental building-block right now rests 
precariously on a foundation of rusting equipment, avoidable 
human error, and official neglect.
    Last week, Governor Jeb Bush's Task Force on Election 
Reform in Florida released its final report. The report 
demonstrated that punch card machines in some county races had 
error rates so high that nearly 10 percent of the voters failed 
to have their votes recorded, 10 percent. That is an incredible 
number in a democracy. Most of our elections, or many, are 
decided by margins of less than 10 percent.
    We are not just talking about elections like in Florida 
that were that narrow. Now, Florida is not alone. It is not a 
Florida problem. It is an American problem. In my own State of 
New York lever machines have a low error rate, but they are so 
old that they frequently break down, leaving long lines of 
fuming and frustrated voters, because we do not have a computer 
system in New York for punch cards, and because these old, 
clunky voting machines take so long.
    People wait in line for half-an-hour or 45 minutes after 
coming home from work to get to the desk, they are told their 
card is at another desk, then they have to go back and wait in 
line again, and nothing is more frustrating and disheartening 
to walk inside a polling place on Election Day and see 
dispirited citizens who waited in line for a long time and then 
have to go home because the kids are there, because they have 
to get to their second job, unable to vote.
    I voted for the first time in 1969, and I used the same 
type of old broken-down machine that I voted with this year. 
There has been no change in my state. Now, just because we are 
the world's oldest democracy does not mean we have to use the 
world's oldest voting technology.
    The problem, though, does not end with machines, as I 
mentioned--inadequately maintained registration lists, ballots 
so poorly designed they would flunk a high school design 
course, phone lines too jammed to confirm the registration 
status of voters, and basic human error by poll workers and 
voters alike. I do not know how many of your states are like 
this. In mine, poll workers are paid little and trained less. 
They are difficult to recruit and even harder to retain. We 
have lots of polling places that are supposed to have four 
people there from 6 a.m. to 9 p.m., and you only have one, 
because nobody wants to sit there all day for, I think it is 
$25. I will get the right number and just insert it in the 
record.
    And many who are our poll workers do not bother to attend 
the minimal training, and they are allowed to work anyway 
because the precincts are so desperate to have them, and so is 
it any wonder that they tell voters they are not registered 
when they are, or that they cannot change a spoiled ballot when 
they can?
    Voters, of course, themselves are poorly informed. Far too 
many wake up on Election Day without knowing where to go, what 
the ballot looks like, how to use the machines, or what to do 
if they have questions. As one of Governor Bush's task force 
remarked, Florida is far from alone in this. ``The state spends 
$30 million annually to instruct people on how to buy lottery 
tickets, but allocates nothing for state-wide voter education 
programs.''
    Mr. Chairman, as you presciently recognized, there has to 
be a better way. Shortly after the election, Senator Brownback 
and I came together. We were both concerned about it. We talked 
about it a week after the election and put together a 
bipartisan election reform bill consisting of a study of the 
problems and a grant program to help states make needed 
changes. I am proud to say, Mr. Chairman, that you have 
graciously cosponsored that bill and Senator Cleland of Georgia 
and his Secretary of State, who will testify later, have been 
leaders on this issue and are also working with us on 
legislation. We were able to all work together, Democrats and 
Republican alike, because fixing the machinery of our democracy 
is not a partisan matter. It is a matter of basic civic 
responsibility far deeper than party or political gain. I think 
if anyone should try to make this a partisan issue, it is going 
to kill it. We do not want that. This is too important to allow 
that to happen, and so we have now refined the bill and 
reintroduced it this Congress with broader support from 
Democrats and Republicans.
    Our bill, called FEMA, the Federal Election Modification 
Act, creates an independent blue-ribbon panel to study the way 
we vote and make recommendations on better voting machines, 
expanded mail-in voting, voting on the Internet and other new 
ideas. The commission will recommend how to make sure the polls 
are accessible to everyone, including disabled voters and 
people overseas in our armed forces, and how we can guarantee 
that the lists at polling sites include all registered voters, 
and no one is mistakenly turned away.
    To make it easier for people to work and care for their 
families, the commission will explore whether to expand the 
days or hours when we vote, and whether to have an Election Day 
holiday, as many other countries do.
    It will also consider how best to educate voters in the use 
of election equipment and other aspects of voting. Indeed, the 
counties that took the trouble and spent the money to educate 
voters about the voting experience, about voting, have 
experienced far lower error rates and far greater voter 
satisfaction.
    Finally, the commission will consider how the federal 
government on an ongoing basis can best help states and 
counties administer elections.
    The purpose here is simple. We are not telling any state or 
locality what to do. We believe, our bill believes that the 
Constitution keeps that right with them, certainly at state and 
local elections, and probably even at federal elections.
    On the other hand, we are not just going to throw money at 
the problem. Rather, we have this commission outline the best 
system or systems It can be a few, because voting in rural 
Idaho is quite different than voting in downtown Chicago, and 
then provide some matching dollars as an incentive, because the 
fundamental problem here is not that localities do not want to 
update voting reform--I think in all but nine states it is the 
counties and towns and villages, the local area that determines 
voting--but rather, that they do not have the dollars, and when 
they sit down, the town commissioners or the county board, and 
they look at the need to make the schools better and the roads 
better and so many other responsibilities, voting comes at the 
bottom of the list.
    Well, that is where we can help, because there is a 
national interest and a national responsibility if not 
national, certainly not national control, to do this, so every 
year for 5 years we will offer the states up to $500 million to 
buy new equipment, train poll workers, educate voters and 
implement other changes recommended by the commission.
    It is a lot of money, but it is not even close to what the 
experts say is needed to update us, and if you believe that 
voting is a basic right, that money is well, well spent.
    As I said, we recognize the constitutional prerogatives 
here. The bill does not force anything on the states and 
counties, but lets them choose what aspect of their systems 
they want to reform, and make the funds available. It has 
gotten broad support from Democratic and Republican county and 
state officials. You will hear from some of them later, 
including the Secretaries of State of Georgia and of Kansas, 
one a Democrat, one a Republican, and it has gotten the support 
of many different groups, many of them nonpartisan, who care 
about voting.
    In conclusion, Mr. Chairman, I want to echo the words of 
President Bush in his State of the Union Address when he called 
for fair and balanced election reform. We believe we have 
answered the President's call in our bipartisan bill, as you 
have in yours, Mr. Chairman, and it is important for all of us 
to redouble our efforts and keep the attention of this body 
focused on repairing the nuts and bolts at the heart of our 
self-government.
    Election reform with this hearing begins to move along 
briskly, not conflict with campaign finance reform. If someone 
offered my own bill on the floor with an amendment to campaign 
finance reform, I would reluctantly vote against it, because I 
think that would bollux things up for both issues, but rather, 
to move it quickly and alongside campaign finance reform so we 
can get both done.
    It is important, in conclusion, Mr. Chairman, for us to 
redouble our efforts and keep the attention of this body 
focused on repairing the nuts and bolts at the heart of our 
self-government. Holding these hearings is exactly the right 
way to begin, so I thank you again for convening them, and look 
forward to the important reform that you will begin to build 
here today.
    The Chairman. Thank you, Senator Schumer.
    Congresswoman Meek, welcome.

               STATEMENT OF HON. CARRIE P. MEEK, 
                U.S. REPRESENTATIVE FROM FLORIDA

    Ms. Meek. Thank you, Chairman McCain. We owe you a debt of 
gratitude for having called this hearing. We have not had a 
hearing on Capitol Hill, with the exception of the 
Congressional Black Caucus, and so we want to thank you for 
that, and I admired you when you ran for President, I admire 
you even more now.
    I want to thank the Members of the Commerce Committee for 
being here today. I will submit my entire testimony for the 
record.
    The Chairman. Without objection.
    Ms. Meek. I will talk about a few issues here, but I think 
because of all the other testimony you have heard I want to try 
and focus in a little bit more on some of the problems that I 
experienced in Florida, and show you the emphases that are 
there for reform in the electoral process.
    I agree that there is a strong need for campaign reform. I 
have always been a supporter of that. I am even a stronger 
supporter for electoral reform, in that we do need this with 
all deliberate speed because of the problems the entire country 
has faced with both of these issues.
    I represent Florida's 17th Congressional District, and I 
have a pin on me today that says, Remember Florida, because 
Florida did show what has happened in this country. Even though 
it has happened all over the country, this last election 
brought forth a vivid example of the needs to reform this 
system.
    I am here to express some of the outrage and exasperation 
of my constituents in Miami and in the State of Florida over 
the failure of government to do more about electoral reform. I 
want to call to your attention that members of my race have 
died because of this issue. They died because they deserve the 
right to vote, and there were many who tried to stop them. That 
is why it is so important that we focus on this part of it.
    Florida has spent a lot of money on gambling and the 
lottery and other issues, did not spend enough on this 
particular issue. The issue before us I think is not who won or 
lost the last presidential election. That issue is settled. The 
issue before us is that every qualified voter who wanted to 
vote had an equal opportunity to do so.
    Now, some folks do not think that every qualified voter 
should vote, because they do not feel that every voter is 
qualified, or that everyone who wants to vote is qualified. 
That is untrue. Not every voter had the opportunity to vote in 
this last election. That is the crucial thing that Congress 
must face.
    African American voting rights were diluted in this 
election. Whether by design, or whatever, they were diluted. 
the voter confidence of African Americans has been severely 
impacted by this last election. There were many people who 
failed to vote in prior elections because first of all they did 
not feel that they received any benefits from voting.
    Now that votes have been cast, and many of their votes were 
not counted, they feel even worse. We were far more likely to 
have their votes invalidated, black voters were, and other 
voters, because a greater percentage of African American voters 
lived in counties that used outmoded punch cards, and I want to 
show this chart to you that showed that in the districts, that 
few African American voters lived in counties with more than 
precinct optical scanning systems, a technology that prevents 
voter error by requiring voters to correct mistakes before 
their ballots can be cast.
    This is an important point to show that that is why there 
was a disparity in black votes not being counted. More Florida 
voters--the first chart shows that 73 percent of African 
American voters lived in counties using these unreliable, 
outmoded, error-prone punch cards. These are facts. This is not 
based with emotion. I am merely presenting today the facts, 
which you must face. No matter how many hearings you have, you 
cannot get away from these facts. They will be there.
    Only 59 percent of white voters lived in punch card 
counties. A lower percentage of blacks live in counties with 
much more accurate optical scanners at each precinct that give 
voters a chance to fix errors in their ballots.
    The second chart shows that a significantly greater 
percentage of black voters had their ballots discarded in the 
November 7 election. The chart will show 16 percent of the 
ballots cast by black voters were discarded in counties using 
central optical scanning systems, compared to only 5 percent of 
ballots cast by white voters.
    Eleven percent of ballots cast by black voters, Mr. 
Chairman, were discounted in counties using punch cards 
compared to only 4 percent of ballots cast by white voters.
    Is this entering the race card in this discussion? Yes, it 
is, because of the facts, that facts do not lie. the facts show 
that this was done 3 percent of ballots cast by black voters 
were discarded in counties using precinct optical scanning 
systems, the most modern technology, compared to only 1 percent 
of ballots cast by white voters.
    More black voters than white voters had their ballots 
discarded regardless of the type of voting machine used, but as 
indicated, the black discard rate drops dramatically when 
precinct optical scanning systems are used.
    Simply put, the third chart shows punch card ballots cheat 
voters, and they are much more likely to cheat African American 
voters. Voters in punch card counties were nearly three times 
as likely to have their ballots rejected as those in optical 
scanning counties.
    Mr. Chairman, I could go on and on with these data. These 
data prove the fact that African American voters were not only 
cheated, but they had their basic voting rights, for which many 
of them died, overlooked. I believe that we have come to these 
serious electoral problems because of a systematic failure of 
government to provide efficient services for the electorate, 
not only for African American voters but for others as well.
    While many of these problems came from inadequate voting 
machines, many others occurred because government did not do 
enough, and did not seem to care enough to get it right. Hardly 
any counties encourage voting. As a matter of fact, they 
discourage it. In Florida we tried to have early voting, 
because we knew in the African American community the next day 
after the vote the first thing the media was going to say that 
African Americans failed to vote, or they did not come out to 
vote. You have seen those charts--I know I have seen them--
showing a disproportionate number of African Americans who did 
not go out to vote for one reason or the other.
    Government can do better than this. They could have done 
voter education prior to the election. They could have had 
easier means of allowing people to vote. Minority communities 
were particularly burdened with voting machines and equipment. 
Ballot procedures were unclear and overly complicated. A 
disproportionately large number of votes in African American 
neighborhoods were disqualified.
    Each of you has heard about Duvall County, where over 
20,000 African American votes were not counted. It is not so 
much as who won or lost, but of those who did not even have 
their vote counted. In Miami-Dade County where I live, the 
supervisor of elections was bitterly opposed to a manual 
recount, so he refused to count. Therefore, many votes were not 
counted.
    Mr. Chairman, while it is important to detail the problems 
that occurred in last year's election, it is more important 
that you focus on what each of us has said today in terms of 
solutions. There are many worthy proposals for federal 
legislation. I appeal to you, do not slowly go through your 
hearings so that we do not have some progress for the 2002 
election. Not that you can correct it all by 2002, but the 
least you can do is correct some of it, and I would say perhaps 
to just throw out and ban the voting machines, the punch card 
machines.
    I am a cosponsor of the legislation that Representative 
Conyers has offered in the House to create a commission and 
procedures to study. We have quite a bit of data, Mr. Chairman, 
already there. We have quite a few studies that have already 
been done, and I encourage the Senate to do as many studies as 
feasible, but do not study the problem to the extent that we do 
not get solutions soon. I feel we need some legislation very 
soon to eradicate the punch card machines, and also, in 
requiring uniform voting standards, and that all voters use the 
same type of equipment.
    It was heartrendering, Mr. Chairman, to see new Americans 
not having a chance to vote. In my district there are thousands 
of Haitian American voters who were eager to vote, voting for 
the first time in this newfound democracy of ours. They were 
not allowed to vote because many of them did not have the 
necessary identification. Many of them did not understand the 
rules and regulations. There was no one there who was trained 
in Creole to help them. Not only Haitians but Hispanics and 
people of all walks of life were not able to do this because of 
the language barrier.
    I support the use of precinct-level technology that would 
require voters to correct their mistakes before their ballot 
could be tallied. I wish I could take some of you to my 
district to see some of these old people, over 60 years of age, 
who have never voted, dragging themselves to the polls, having 
to stay in the polls 2 hours because they could vote, then when 
they got up to the poll, someone said, your name is not on this 
list. Why? We don't know. Can you call the local elections 
office? We can try. They tried, and could never get through.
    Imagine these elderly people being turned around who 
deserved the right to vote and could not, because of the care 
that government has for this fundamental right. We almost--we 
need to do more to ensure that legally qualified voters are not 
denied the right to vote. It is an outrage, Mr. Chairman, what 
happened in Florida with the last election. The voting rolls 
had been purged, and I say purged in quotation marks, because 
some of the purging that was done was not the correct way to 
purge. Many people who were legally qualified were not allowed 
to vote. We must have some system, and I intend to file a bill.
    You know how hard it is to get a bill through the Congress. 
Sometimes it takes 5 years to get a bill through the Congress, 
and so I am not ecstatic about all of these bills that are 
coming up around here, but what I am looking for is some action 
to be sure that we help the counties and we help the 
municipalities to be able to afford some of the changes that we 
know should be made. We do it for everything else, so there is 
no reason why we cannot do it for this basic human right.
    I will be offering legislation that will be heard, that 
before any voter could be purged from the voting rolls they 
will have an opportunity to be heard, to know why they have 
been purged from the voting rolls. We need to tell people what 
is wrong, and what is the offense that is alleged to have 
disqualified them from voting, and give such prospective voters 
a chance to show that the records used to disqualify them are 
erroneous. That is just basic fairness.
    We need to do a much better job, Mr. Chairman, educating 
and training the voters. You would be surprised that--maybe you 
have never been called, but I have been many times, people 
asking me, how do we vote. They do not ask me who to vote for, 
but they ask me, what happens when we get to the polls? It is 
not as sophisticated as you think it is, and government is 
doing very little to correct these errors.
    We need to ensure that translators are available at the 
polls to avoid a repeat of such massive disenfranchisement as 
that which plagued the South Florida community. Precinct 
election officials must be trained better, and they must have 
sufficient computer and telephone access to voter lists that 
they can quickly and accurately determine a person's 
eligibility to vote.
    Suffice it to say, Mr. Chairman, that we need more liberal 
election laws that will encourage citizens to vote, such 
election laws as same-day registration. You would be surprised 
what a hard time--I served 12 years in the Florida Senate--what 
a hard time we had even getting Florida to use motor voter 
registration.
    People feel that if you allow certain segments of the 
electorate to be able to vote, that they will skew the election 
in a certain way. I want to say to you, forget that. Think 
about the basic tenets of our democracy that everyone should be 
allowed to vote We should explore whether voting on weekends 
would improve turnout, and whether this step would make it 
easier to give all voters the time they need to make an 
informed choice.
    Mr. Chairman, I want to summarize this--I have submitted 
the rest for the record--to say to you that there has been not 
an intentional disparate treatment of African American voters, 
but it has occurred, and we do need to quickly and summarily do 
something about this problem. I cannot overemphasize this.
    In late February, the St. Petersburg Times published a poll 
of African American voters which reflect the African American 
community's pervasive mistrust of the electoral process in 
Florida. The poll showed that 84 percent of black voters in 
Florida believe a greater portion of African Americas were 
rejected or not counted than votes by Floridians of other 
races. This was borne out by the statistics I have discussed 
today. Forty percent of those voters cited a coordinated effort 
by state government to make it more difficult for African 
Americans. We have got to undergird voter confidence.
    Yet, despite these deep-seated concerns, it seems to me, 
and the people throughout Florida that I represent, and my 
experience in Florida, the high-minded talk we so often hear 
about the importance of voting rights is just pious platitudes 
and lip service. We are exasperated because of our desperate 
pleas about the disenfranchisement of our citizens and the 
disqualifications of our ballots and the violations of our 
election laws, and they were dismissed as irregularities. We 
can no longer see these oversights as irregularities. We must 
correct them.
    I have been here before, Mr. Chairman, and talked about 
this. We have prayed about this. It has to be corrected, and my 
generation, like my parents and grandparents' generations, 
struggled mightily against poll taxes that you had to pay 
before they would let you vote, and literacy tests that 
required African American and only African Americans to recite 
whole sections of state constitutions, or answer very obscure 
questions to the satisfaction of examiners. We have come a long 
way since that time, but now is the time that government 
recognizes its failure, reforms the electoral system so that 
every legal, qualified person who wants to vote will get the 
opportunity.
    I thank you, Mr. Chairman, for calling this hearing.
    [The prepared statement of Ms. Meek follows:]

              Prepared Statement of Hon. Carrie P. Meek, 
                    U.S. Representative from Florida

    Good morning, Senator McCain, Senator Hollings, Members of the 
Commerce Committee and fellow Members of Congress. Thank you for 
convening this very important hearing. I will submit my longer 
statement for the record and, because of time constraints, will focus 
my presentation here on just a few issues.
    I represent Florida's 17th Congressional District which covers 
large portions of Miami-Dade County. My Congressional District runs 
from the county line on the north to the cities of Homestead and 
Florida City on the south. I'm here today to express the outrage and 
exasperation of my constituents in Miami, Florida, over the failure of 
our government and our electoral system in the 2000 Presidential 
election and to share some of my thoughts as to how we can prevent such 
a catastrophe from ever happening again.
    The issue before us is not who won or should have won the 2000 
Presidential election. That issue is settled. We have a new President. 
Something far more crucial is at stake than who won the year 2000 
Presidential election--the issue before us is whether every qualified 
voter who wanted to vote had au equal opportunity to vote and to have 
his or her vote counted. We know that they did not. Not every voter had 
the same opportunity to vote. African American voting rights were 
diluted in this election.
    African American voters were far more likely to have their votes 
invalidated than other voters because a greater percentage of African 
American voters lived in counties that used defective, outmoded punch 
card voting machines or central optical scanning systems. Few African 
American voters lived in counties with modern precinct optical scanning 
systems, a technology that prevents voter error by requiring voters to 
correct mistakes before their ballots can be cast.
    Consider the following charts.
    The first chart shows that 73 percent of African American voters 
lived in counties using unreliable, outmoded, error-prone punch cards, 
while only 59 percent of white voters lived in punch card counties. A 
lower percentage of blacks live in counties with much more accurate 
optical scanners at each precinct that give voters a chance to fix 
errors in their ballots.
    The second chart shows that a significantly greater percentage of 
black voters had their ballots discarded in the November 7th election.
    Sixteen percent of ballots cast by black voters were discarded in 
counties using central optical scanning systems compared to only 5 
percent of ballots cast by white voters.
    Eleven percent of ballots cast by black voters were discarded in 
counties using punch cards compared to only 4 percent of ballots cast 
by white voters.
    Three percent of ballots cast by black voters were discarded in 
counties using precinct optical scanning systems, the most modern 
technology, compared to only 1 percent of ballots cast by white voters. 
More black voters than white voters had their ballots discarded 
regardless of the type of voting machine used, but, as indicated, the 
black discard rate drops dramatically when precinct optical scanning 
systems are used.
    Simply put, as the third chart demonstrates: Punch Card Ballots 
Cheat Voters and They Are Much More Likely to Cheat African American 
Voters:

  <bullet> Voters in punch card counties were nearly three times as 
        likely to have their ballots rejected as those in ``optical 
        scanning'' counties.

  <bullet> Eighty-eight percent of the 51 Florida precincts where more 
        than 20 percent of the ballots were rejected used punch cards.

  <bullet> Seventy-eight percent of the 336 Florida precincts where 
        more than 10 percent of the ballots were rejected used punch 
        cards.

  <bullet> Overall ballot rejection rate for the 43 Florida counties 
        using optical scanning technology was 1.4 percent.

  <bullet> Overall ballot rejection rate for the 24 Florida counties 
        using punch cards was 3.9 percent.

    (Source: December 2, 2000 Miami Herald)
    I believe that we came to have these serious electoral problems 
because of a systematic failure of government to provide efficient 
services for the electorate. While many of the problems arose from 
inadequate voting machines, many others occurred because government did 
not do enough and did not seem to care enough to get it right. Minority 
communities were particularly burdened with voting machines and 
equipment of the oldest vintage and the poorest quality. Ballot 
procedures were unclear and overly complicated. A disproportionately 
large number of votes cast in African American neighborhoods were 
disqualified.
    Mr. Chairman, while it's important to detail the problems that 
occurred in last year's election, it is even more important to focus on 
solutions. There are many worthy proposals for federal legislation. I 
will discuss just a few of them.
    I am a co-sponsor of the legislation that Representative Conyers is 
offering in the House to create a Commission on Voting Rights and 
Procedures to study and make recommendations regarding election 
technology and voting and election administration. This bill also would 
establish a grant program for states and localities to improve the 
administration of elections. I believe that Senator Dodd is the sponsor 
of this bill in the Senate. It's an excellent bill and I commend it to 
you.
    I believe that we need federal legislation to eliminate punch card 
voting. The Voting Improvement Act sponsored by Congressman Steny Hoyer 
and David Price would provide the funding required to eliminate punch 
cards. Further, legislation should require uniform voting standards, 
and that all voters use the same quality of equipment. We should fund 
the nationwide deployment of technology that would prevent over-votes 
and other types of ballot errors. I support the use of precinct-level 
technology that would require voters to correct their mistakes before 
their ballot could be tallied.
    We also must do much more to ensure that legally qualified voters 
are not denied the right to vote. It's an outrage that, last November, 
legally qualified voters were falsely accused of being felons and 
denied the right to vote because the State of Florida relied upon 
inaccurate data from a private contractor.
    I will be offering legislation to require that voters receive 
notice and an opportunity to be heard before any voter could be purged 
from the voting rolls. We need to tell people what the offense is that 
is alleged to disqualify them from voting and give such prospective 
voters a chance to show that the records used to disqualify them are 
erroneous. That's just basic fairness.
    We need to do a much better job of educating and training voters, 
especially first-time voters. We need to ensure that translators are 
available at the polls to avoid a repeat of such massive 
disenfranchisement as that which plagued the South Florida Haitian 
American community. Precinct election officials must be trained better 
and they must have sufficient computer and telephone access to voter 
lists that they can quickly and accurately determine a person's 
eligibility to vote.
    We should explore whether voting on weekends would improve turnout 
and whether this step would make it easier to give all voters the time 
they need to make an informed choice once they enter the voting booth. 
We also should consider making provisional voting uniformly available 
so that a voter would never be turned away from the polls because a 
question existed that could not then be resolved concerning that 
voter's right to vote.
    While there are many other legislative proposals worth considering, 
I submit that there is simple standard to use in evaluating the various 
electoral reform proposals. We should ask the question:
    Will adoption of this proposal make it more likely that each of our 
voters receives an equal opportunity to vote and to have his or her 
vote counted? Whenever the answer to this question is yes, the bill 
being examined deserves the most serious consideration.
    Mr. Chairman, I cannot overemphasize the depth of the African 
American community's concern about the electoral process in Florida. In 
late February, the St. Petersburg Times published a poll of African 
American Florida voters which reflects the African American community's 
pervasive mistrust of the electoral process in Florida.
    The poll showed that 84 percent of black voters in Florida believe 
a greater portion of African Americans were rejected or not counted 
than votes by Floridians of other races, a fact borne out by the 
statistics I have discussed. Forty percent of those voters cited a 
``coordinated effort by state government to make it more difficult for 
African Americans to vote'' as the reason that more African American 
voters had their votes rejected more often, a greater percentage than 
those who blamed faulty voting machines or voter error.
    Yet despite these deep-seated concerns, it seems to me and the 
people that I represent that, after our experience in Florida, the 
high-minded talk we so often hear about the importance of voting rights 
is just platitudes and lip service.
    We are outraged because African American voters in Florida did 
everything they were supposed to do--we studied the issues, we did our 
civic duty and went to the polls, and we voted--and yet massive numbers 
of our votes were not counted, and in the end, our opinions and 
decisions did not count.
    We are exasperated because our serious, desperate pleas about the 
disenfranchisement of our citizens, and the disqualification of our 
ballots, and the violations of our election laws were ignored, delayed, 
denied and dismissed as mere ``irregularities'' and, in many cases, 
trivialized or reduced to jokes.
    African American voters feel like we have been here before, for 
this country has a long history of keeping us from voting. In my own 
case, I am 74 years old. My grandfather was a slave, who had no rights 
at all. I grew up in a Southern town, Tallahassee, Florida. My father 
used to take me into the State Capitol Building on Inauguration Day--
the one day every four years that African Americans were welcomed in 
that public building.
    Within my lifetime, every conceivable effort was made to keep 
African Americans from voting, and to keep our votes from counting.
    My generation, like my parent's and grandparent's generations, 
struggled mightily against poll taxes that you had to pay before they 
would let you vote; and ``literacy'' tests that required African 
Americans--and only African Americans--to recite whole sections of 
state constitutions or answer obscure questions to the satisfaction of 
examiners who could never be satisfied.
    African Americans are alive today who were denied the right to vote 
in ``white only'' primaries; and who had to search for polling places 
that were moved with no notice in the black community, or moved so far 
that it was hard to get to them. I remember the intimidation of being 
greeted at the polls by disdainful and unhelpful poll workers, or even 
police officers at the doors.
    African Americans today remember when the district lines for cities 
and counties and legislative districts were gerrymandered and drawn to 
exclude our neighborhoods or to dilute our vote. We remember how 
registration records would ``disappear'' when we showed up to vote and 
how the law, administrative procedures and the ``official discretion'' 
of public officials were used to postpone and delay our attempts to 
assert our rights.
    The Voting Rights Act was supposed to change all of that, and 
government was supposed to be protection, helpful and on the side of 
equality and inclusion. In the case of Florida, government has failed 
miserably.
    It is clear that the phrase ``voting rights'' is a mere platitude 
to many of our justices and government officials. One local official 
was even ignorant enough to opine that it was ``not anyone's fault if 
they couldn't understand the directions on the ballot.''
    My message today is this:
    It is a failure of government and our electoral system when any 
legally qualified person who wants to vote is denied the opportunity to 
do so.
    It is a failure of government and our electoral system when courts, 
the laws, and government officials do not do everything possible to 
insure that every vote is counted and that the final count is correct.
    Thank you, Mr. Chairman. I look forward to the Committee's 
questions.

    The Chairman. Thank you very much, Congresswoman Meek. We 
appreciate your time and effort and energy on behalf of this 
very important issue.
    Our old friend and very patient friend, Congressman Asa 
Hutchinson. Thank you for being here.

               STATEMENT OF HON. ASA HUTCHINSON, 
               U.S. REPRESENTATIVE FROM ARKANSAS

    Mr. Hutchinson. Thank you, Mr. Chairman. I am grateful for 
the opportunity to testify and thankful for this Committee's 
hearing. I do agree with much of what has been said previously, 
and I will try not to simply reiterate that, but I do believe I 
can make some points that will add to the discussion.
    This issue, I would agree, is one that crosses party lines, 
and certainly geography, and it is appropriate that it be 
addressed in a bipartisan way. I think it is appropriate to 
recognize also that I think it is within the constitutional 
framework that this be given consideration at the federal 
level. Like Senator Cleland, I have served both as a state and 
county election commissioner in Arkansas, so I am well 
acquainted with some of the challenges we face on Election Day 
across the country.
    Arkansas, my state, has made great strides in the past few 
years. Let me just share a few things. Sixty-five percent of 
our 75 counties now use optical scan machines. That is 
compared, of course, to the national average of 27 percent. 
Furthermore, only 9 percent of Arkansas counties still use 
punch card systems, compared to a national average of 36 
percent.
    Unfortunately, as evidenced by the last election, Arkansas' 
modernization efforts seem to have been the exception rather 
than the rule. During the Florida recount, I was struck by the 
comments of a foreign journalist who was asked about his view 
of the Florida recount. He did not express frustration at the 
length of the delay in determining the outcome of the election, 
but he simply expressed amazement that the oldest and strongest 
democracy in the world had not made the necessary investments 
in the essential tools of democracy--modern election equipment. 
And, if we were embarrassed about anything, I think that 
certainly is a cause to be embarrassed, and I think this 
journalist hit upon a key point, namely, that to keep our 
system strong and vibrant, we have to give it a booster shot in 
the arm.
    I do not think it is a time to point fingers or question 
motives, or simply to ignore the problems we have observed in 
Florida. I do want to say, I thought the spirit of the 
testimony today was very appropriate. It was addressing the 
problem and not engaging in finger-pointing.
    As with many other members, I went to Florida and observed 
the recount there, and as I went there and observed the recount 
I was struck by one thing, and that is that there were good 
people there with a very sincere desire to make the system 
work. But, they were working with a flawed system that made 
their jobs almost impossible. It is early in the legislative 
session, but we must remember that 2002 is only 20 months away. 
In regards to the election, Congress must take immediate steps 
to provide assistance to the states to help modernize our 
election equipment.
    The federal government approach should be this, in my 
judgment: we should be a financial partner with the states, not 
necessarily a senior partner, but a financial partner. We 
should allow flexibility, and I do not believe that we have to 
set mandatory rules for all of the states. They studied it. 
They know their system. They know what they are capable of in 
the states.
    I do think we have to set some minimum standards. For 
example, I think it is appropriate that, to accept federal 
grant money to modernize election equipment, that recipients 
provide access to the disabled. I think it is appropriate that 
they assure us that they are providing systems in their state 
that will meet the requirements of the Equal Protection Clause 
of the United States Constitution. I think that we can provide 
education for the voters. This education should appeal to the 
responsibility of the voters as well as trying to teach them 
how to use the election equipment. So, in furtherance of those 
goals, I have introduced bipartisan legislation on the House 
side, the Election Procedures Improvement Act, along with my 
cosponsor, Alcee Hastings of Florida, which is a very simple 
approach that would provide $1.5 billion to the states and 
localities to help them purchase new voting equipment to 
modernize their election procedures.
    It is not heavy with mandates. It is great with 
flexibility, but it is a minimum investment that we need to 
make at the federal level to assist our states. That is not to 
say that Congress should not engage in a more comprehensive 
debate, as some of the proposals have suggested. I think there 
is much more that can be done, much more that can be debated, 
but I believe the grant program is the minimum amount that 
should be accomplished.
    There are many people that are looking at ways to improve 
our election machinery, from the National Association of 
Secretaries of State, to the League of Women Voters, and I 
congratulate this Committee and its chairman for its interest 
in election reform. I am hopeful that Congress will take this 
opportunity to bring the tools of democracy up to the standards 
of excellence that should be expected of the world's longest 
surviving and strongest democracy.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hutchinson follows:]

              Prepared Statement of Hon. Asa Hutchinson, 
                   U.S. Representative from Arkansas

    Mr. Chairman, I appreciate the opportunity to appear before this 
Committee today to discuss the need for election reform. This issue is 
one which cuts across state and party lines, and it is very appropriate 
that it be given serious consideration at the federal level.
    I have served as both a state and county election commissioner in 
Arkansas, and so I am well-acquainted with the challenges faced by 
election officials across the country. Arkansas has made great strides 
in the past few years, and 65 percent of the state's seventy-five 
counties now use optical scan machines, compared to the national 
average of 27 percent. Furthermore, only 9 percent of Arkansas counties 
still use punch card systems, compared to a national average of 36 
percent. Unfortunately, as evidenced by the recent presidential 
election, Arkansas' modernization efforts seem to have been the 
exception rather than the rule.
    During the Florida recount, a foreign journalist was asked how his 
country viewed the events occurring in the United States. I found his 
comments particularly telling. He was not concerned about the 
underlying health of our democracy; rather, he expressed amazement that 
the oldest and strongest democracy in the world had not made the 
necessary investments in the essential tools of democracy--modern 
election equipment. This particular journalist hit on a key point that 
I think many have missed because of the rancor that followed the 
Presidential election--namely, that our underlying system of democracy 
is, in fact, strong and vibrant. However, it needs a shot in the arm.
    Whereas the response of some has been to point fingers, question 
motives, or ignore the problems displayed in Florida altogether, I am 
convinced that the most productive response to the 2000 election will 
be for federal, state and local officials to take a view similar to 
that of the foreign journalist--namely, that we have a strong system 
which, at a minimum, needs some fine-tuning. In the short-term, we must 
refrain from engaging in battles of rhetoric and work together, using 
existing research and data, to identify the areas of greatest need and 
take the necessary steps to prevent a repeat of last fall.
    It is early in the legislative session. However, the 2002 mid-term 
elections are only twenty months away. Congress must take immediate 
steps to provide the shot in the arm our democracy needs, so that our 
election systems will be ready for the scrutiny they will most 
certainly face at that time. To that end, I have introduced bipartisan 
legislation in the House to provide an immediate $1.5 billion in funds 
to states and localities to help them purchase new voting equipment.
    That is not to say that Congress should not also engage in more 
comprehensive debate about how to address the more contentious issues 
that surfaced in the 2000 election. The gentlemen from New York has 
introduced a proposal in the Senate with that very purpose in mind. In 
fact, scores of bills have been introduced since January that provide 
for more rigorous study of the issue, and allow Congress to consider 
more long-term solutions to the problems that surfaced in Florida and 
elsewhere.
    Groups like the National Association of Secretaries of State, the 
Election Center, the League of Women Voters, the National Association 
for the Advancement of Colored People, and those represented here today 
have already begun to examine these problems and formulate potential 
solutions. Although I am disappointed that it took a presidential 
election stalemate to bring this issue to the attention of the American 
public and to us as policymakers, I am hopeful that Congress will take 
this opportunity to bring the tools of democracy up to the standards of 
excellence that should be expected of the world's longest surviving and 
strongest democracy.

    The Chairman. Thank you very much, Congressman Hutchinson. 
I would also like to take this opportunity to thank you for 
your support of campaign finance reform. I would call our 
remaining panel. I appreciate the time you have spent with us 
this morning.
    I want to now ask our next panel, which is composed of the 
Hon. Bill Bradbury, Secretary of State of the State of Oregon, 
the Hon. Cathy Cox, Secretary of State of the State of Georgia, 
the Hon. Ron Thornburgh, Secretary of State of the State of 
Kansas, to please come forward.
    I would like to thank our witnesses, who are responsible 
for the very hard work involved in making elections happen, for 
being here today. We would like to begin with you, Secretary of 
State Bradbury, and your complete statements will obviously be 
made a part of the record. Welcome.

               STATEMENT OF HON. BILL BRADBURY, 
              SECRETARY OF STATE, STATE OF OREGON

    Mr. Bradbury. Thank you, Mr. Chairman. It is a great honor 
to appear before the Committee, particularly before a Committee 
where the two Senators from Oregon both serve, Senator Wyden 
and Senator Smith.
    As both of them know, back home the Division of Tourism 
slogan is: ``Oregon, things look different here,'' and it seems 
appropriate to begin my testimony with that phrase, since it 
applies as much to our election system as it does to our 
beautiful scenery. Oregon, as Senator Wyden said in his opening 
remarks, is the only state in the Nation that votes entirely by 
mail. No federal attempt to solve the very real problems of 
last fall's election should attempt to impose a one-size-fits-
all solution on state and local governments. I would not seek 
to impose vote-by-mail on another state, and I certainly would 
fight any federal effort to take it away from Oregonians.
    Oregon's 20-year history with vote by mail has proven time 
and again that the system raises voter participation, it 
decreases cost, and it increases the overall integrity of the 
election system. It is also a system that a vast majority of 
Oregonians love, having been adopted through ballot measure by 
the voters in 1998 with nearly 70 percent of the voters 
supporting it.
    However, there are still some critical areas where we can 
make improvements in our efforts to make sure that every vote 
counts. We have all heard plenty of stories from across the 
Nation about troubles with punch card voting, and Oregon is no 
exception. In fact, Oregon's experience is an excellent example 
of exactly why punch cards must be phased out.
    Forty percent of Oregon's voters cast their votes with 
punch cards, but punch cards are simply not voter-friendly in a 
vote-by-mail environment. The punch card was designed to be 
used in a polling place, with a punch card stylus, but Oregon's 
punch card voters receive their ballots by mail, without an 
enclosed stylus. For a voter sitting at a kitchen table, 
holding a ballot book in one hand and a punch card in the 
other, trying to figure out which hole corresponds to which 
position, for which candidate or measure, can, in fact, be a 
very difficult task.
    There is strong bipartisan support in our state to 
eliminate punch card ballots, and several legislators have 
proposed bills that would do exactly that. The critical issue 
for us is how to pay for the transition. Frankly, the budget in 
Oregon is so tight this year that the speed with which we are 
able to phase out punch cards depends on the amount of federal 
assistance available. We estimate the cost of replacing punch 
cards in Oregon to be about $2 million. If it takes $1 million 
state dollars to replace punch cards, that would mean $1 
million cut from higher education, K through 12 funding, or 
health care, and that would be a very tough sell to make to 
this legislature.
    Now, I want to say that Oregon is prepared to step up to 
the plate financially, but in order to move quickly enough so 
that Oregonians will not be voting with punch cards again in 
the next presidential election, we are going to need 
significant federal assistance. Simply put, the higher the 
federal match, the quicker we accomplish our mutual goal.
    We also need to address election issues that go beyond the 
mechanics of how ballots are cast. The 2000 general election 
raised questions all over the country about election security 
and the issue of equal access to the voting process. I am 
certain that creating a centralized voter registration system 
is just as essential as eliminating punch cards in order to 
make real improvements to Oregon's elections. In fact, creating 
a centralized voter registration system is my highest 
legislative priority, and that has very strong bipartisan 
support. Oregon's voter rolls are currently housed in 36 
separate county data bases, with no real connection. A 
centralized voter registration system would all but eliminate 
the possibility of duplicate voting and significantly reduce 
the possibility of voter fraud. It does, however, carry a $6 
million price tag.
    So I urge you, and I urge the Members of this Committee to 
take a broad view in terms of improving the election system, 
and I hope that the focus of this Committee will not just be on 
how the votes of individual citizens have been recorded. I hope 
that federal assistance will be available broadly to improve 
states' abilities to meet the needs of their voters.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Bradbury follows:]

     Prepared Statement of Hon. Bill Bradbury, Secretary of State, 
                            State of Oregon

    Back home, the Division of Tourism's slogan is ``Oregon: Things 
look different here.'' It seems appropriate to begin my testimony with 
that phrase, since it applies as much to our election system as it does 
to our scenery.
    As the 2000 presidential election clearly highlighted, there are 
many different ways to record the will of the voters. Ensuring that 
every state provides its citizens with an accessible, accurate and 
secure election process needs to be one of our top priorities as a 
nation, and I commend the Congress for your efforts to help make every 
vote of every American count.
    As Congress considers electoral reform, it is important for you to 
remember that state and local officials conduct national elections. We 
must retain the authority to do so in the manner that most suits our 
electors.
    In Oregon, that process is Vote-by-Mail. No federal attempt to 
solve the very real problems of last fall's election should attempt to 
impose a ``one size fits all'' solution on state and local governments. 
National standards must recognize and appreciate local differences. I 
would not seek to impose Vote-by-Mail on another state and will fight 
any federal effort to take it away from Oregonians.
    Oregon's history with Vote-by-Mail has proven time and again that 
the system raises voter participation, decreases costs and increases 
the overall integrity of the election process. It is also a system that 
the vast majority of Oregonians love.
    Over the past 19 years, Oregon has conducted hundreds of local and 
several statewide Vote-by-Mail elections. In 1981, the Oregon 
legislature approved a test of Vote-by-Mail for local elections. Vote-
by-Mail was made permanent in 1987, when a majority of counties used it 
for local and special elections.
    In January 1996, Oregon gained national attention by holding the 
first statewide election completely by mail to fill a vacancy in a 
federal office, electing Ron Wyden to the U.S. Senate.
    By the May 1998 primary, 41 percent of registered voters in Oregon 
were permanent absentee voters. Overall, the state posted a record low 
turnout at 35 percent, with absentee ballots representing nearly two-
thirds of all ballots cast. Of those voters who requested absentee 
ballots, 53 percent returned them. Only 22 percent of the remaining 
registered voters who did not request absentee ballots actually voted. 
Oregon thus became the first state to have more ballots cast by mail 
than at the polls during a polling place election.
    Hoping to improve access to the ballot and increase voter turnout, 
supporters of expanding Vote-by-Mail to all elections submitted 
signatures to qualify the issue for the 1998 General Election ballot. 
In November of that year, Oregon voters approved the measure by a vote 
of 757,204 to 334,201--nearly 70 percent in favor. Of all ballots cast 
at the election, 58 percent were cast as absentee, leaving only 42 
percent of the ballots cast at the polls.
    In May 2000, I oversaw the first all Vote-by-Mail primary in 
Oregon's history. A total of 900,000 Oregonians cast ballots in the 
2000 primary, which was a 16 percent increase over the highest number 
of votes ever cast in a polling place Primary Election. That high 2000 
primary turnout reversed a steady twenty-year decline in the number of 
Oregonians casting Primary Election ballots.
    And on November 7, 2000, Oregon had yet another ``first'' in Vote-
by-Mail--we became the first state in the nation to conduct a 
presidential election entirely by mail. Building on the success of the 
May primary, I issued a challenge to all Oregonians to have the highest 
voter turnout in the nation last fall--and we came close.
    Eighty percent of registered voters cast ballots and we ranked 
ninth in the nation in voter turnout. Of the eight states with higher 
turnout, only two were larger in population than Oregon and both of 
those states had same-day registration.
    Our Vote-by-Mail system also provides excellent access for disabled 
voters. Any voter who would have difficulty voting for any reason can 
call a county election official to request assistance. The county 
elections office sends a bipartisan team to the voter's home to provide 
assistance at no expense to the voter. Marion County provides a tactile 
ballot and all 36 counties provide both the ballot and the Voters' 
Pamphlet on tape.
    Oregon's Vote-by-Mail system is a positive model for other states 
with high percentages of permanent absentee voters. For example in 
Washington State, over half of the votes cast in the General Election 
were cast by absentee ballot. Washington election officials essentially 
have to run two separate election systems: one mail system for the half 
of the population that votes absentee and a separate polling place 
system for the other half. This means that Washington is paying for 
both polling place employees and postage, which leads to expensive 
elections.
    The same was true in Oregon until we made the transition to all 
Vote-by-Mail elections. The real triumph of our current election system 
is that it answered the need so clearly voiced when voters 
overwhelmingly approved the Vote-by-Mail measure in 1998. The result is 
a process that is more accessible, produces higher voter turn out and 
provides lower costs for its citizens.
    I presume that this Committee will have an appreciation for 
Oregon's Vote-by-Mail system, given that both Senators Wyden and Smith 
serve on the Committee, but we need to make sure that Congress as a 
whole is aware of the successes and differences of Oregon's voting 
system as it considers future across-the-board reforms.
    Let's be clear; although I am proud of the very positive steps we 
have been able to take with elections in our state, there are still 
critical areas where we can make improvements in our efforts to make 
sure that every vote counts.
    We've all heard plenty of stories from across the nation about 
troubles with punch card voting, and Oregon is no exception. In fact, 
Oregon's experience is an excellent example of exactly why punch cards 
must be phased out.
    Seven of Oregon's 36 counties still use punch cards. Three of 
Oregon's four largest counties are included in the group, resulting in 
over 40 percent of Oregon's voters casting their votes with punch 
cards.
    But punch cards are simply not voter friendly in a Vote-by-Mail 
environment.
    The punch card was designed to be used in a polling place with a 
punch card stylus, but Oregon's punch card voters receive their ballots 
by mail. For a voter sitting on the living room couch, holding a ballot 
booklet in one hand and a punch card in the other, figuring out which 
hole corresponds to which position for which candidate or measure can 
be a very difficult task.
    For example, a voter looks up Measure 86 in their ballot booklet. 
They read that they have to find and punch number 87 on their ballot if 
they want to vote ``no'' on Measure 86, or number 88 if they want to 
vote ``yes.'' It can be very time-consuming to vote and even more so to 
double-check for mistakes. If a voter does discover that they've 
punched the wrong chad, they have to write to their election official 
or travel to their county elections office to request a whole new punch 
card ballot.
    If our goal is to provide voters with an accessible, voter-friendly 
election process, as it clearly is, punch cards just don't make sense 
in Oregon.
    We are one hundred percent committed to improving Oregon's election 
system so that every voter in our state can be absolutely confident 
that their vote will count the way they intended it to be counted. 
There is strong bipartisan support in our state to eliminate punch card 
ballots, and several legislators have proposed bills that would do 
exactly that.
    The issue in Oregon is not getting legislative support for phasing 
out punch cards; we already have that. The critical issue is how to pay 
for the transition. Although we appreciate Senator McCain's efforts to 
provide federal matching funds for states to improve their voting 
machinery, frankly the budget in Oregon is so tight this year that a 
fifty-fifty match just won't get us there very quickly.
    We estimate the cost of replacing punch cards in Oregon to be about 
$2 million. The fiscal reality in Oregon this biennium is that spending 
even $1 million on voting machinery to match a $1 million federal grant 
would mean cutting $1 million from higher education, K-12 funding or 
health care. That would be very tough to sell.
    Oregon is prepared to step up to the plate financially, but the 
speed with which we are able to eliminate punch cards is dependent upon 
the size of the federal match.
    In order to move quickly enough so that Oregonians won't be voting 
with punch cards again in the next presidential election, we will need 
more federal assistance than is currently proposed by this bill. After 
the chaos we saw in Florida, I hope you would all agree that the 
integrity of our election system is a cost well worth paying for.
    We also need to address election issues that go beyond the 
mechanics of how ballots are cast. The 2000 General Election raised 
questions all over the country about election security and the issue of 
equal access to the voting process.
    A few Oregonians raised concerns after the General Election that 
people had voted more than once in several counties. Although not one 
case has been brought forward to support these allegations, it raises 
the issue of voting security and voter confidence in the election 
system.
    Much of the focus of election reform has been on getting rid of 
punch card ballots; I am certain that creating a centralized voter 
registration system is just as essential in order to make real 
improvements to Oregon's elections. In fact, creating a centralized 
voter registration system is my highest legislative priority, with 
strong bipartisan support.
    Oregon's voter rolls are currently housed in 36 separate county 
databases, with no real connection between them. We currently have no 
easy or efficient way to check for overlap between these databases.
    Connecting the county voter databases into a statewide voter 
registration file would dramatically improve our ability to check for 
duplicate registrations and to update registrations. When a voter 
registers at a new address in a new county, a county election official 
would be able to do a real-time search of the entire state's voter 
registration system to find out quickly and easily if the voter was 
already registered somewhere else.
    A centralized voter registration system would thus give Oregon 
among the cleanest voting rolls in the country. It would create the 
possibility to all but eliminate duplicate voting. It would 
significantly reduce the possibility of voter fraud. And the end result 
would be a real increase in voters' confidence in their election 
process. It does, however, carry a $6 million price tag.
    I appreciate the allocation of block grants for voter education in 
Senator McCain's bill. We currently do not have funds available for 
public service announcements or public education campaigns to reach 
voters with information about when they have to be registered or when 
their ballots have to be in the mail. Being able to provide these 
services would help us make sure that every eligible voter has the 
opportunity to cast their vote.
    I sincerely hope that the Congress and state legislatures alike 
will be able to use this period of heightened public attention to the 
election process as an opportunity to make some significant and much-
needed changes to the election system.
    I urge you to take a broad view in terms of improving the election 
system, and I hope that the focus of this Committee will not just be on 
how the votes of individual citizens have been recorded. I hope that 
federal assistance will be available broadly to improve states' 
abilities to meet the needs of their voters. I believe that it is 
essential that money be available not just for vote-casting equipment 
but for improvements to the whole range of processes and procedures 
that affect the integrity of our elections.
    As Oregon's Chief Elections Officer, I believe that I have to do 
all I can to ensure that every step of the electoral process, beginning 
with registration and ending with the counting of ballots, is fair and 
friendly to every voter.

    The Chairman. Thank you very much. Secretary Cox, welcome.

                 STATEMENT OF HON. CATHY COX, 
              SECRETARY OF STATE, STATE OF GEORGIA

    Ms. Cox. Thank you, Mr. Chairman, Members of the Committee. 
Thank you for giving me the opportunity to discuss election 
reform with you, and allow me to say thanks to my good friend 
from Georgia, Senator Max Cleland, who served our state with 
great distinction as a former Secretary of State. I know that 
Senator Cleland, Mr. Chairman, and many of you are working to 
find innovative solutions to the problems of outdated and 
inaccurate election systems. I believe you have my full written 
testimony and, rest assured, I will be much briefer this 
morning and, of course, I am happy to respond to your 
questions.
    In the 2000 general election in Georgia, we had many of the 
same problems that received so much attention in Florida. 
Perhaps most importantly, our undervote rate, the difference 
between the ballots cast and the votes recorded in the 
presidential race, was 3.5 percent. That number was well above 
Florida's undervote percentage, and the rate for the Nation as 
a whole.
    The Chairman. What does that translate to in terms of 
numbers of votes?
    Ms. Cox. About 94,000 votes in Georgia. Since November we 
have spent a great deal of time analyzing Georgia's undervote, 
especially the variations that occurred from county to county 
and from precinct to precinct. Much of the report I attached to 
my written testimony focuses on this area. That report offers 
interesting insight into a whole range of issues, but let me 
focus on just one of those this morning, and that is the 
undervote performance of opti-scan systems as compared to the 
infamous punch card.
    Although opti-scan systems offer satisfactory performance 
in some counties, in many other locations optical scan 
undervote rates are extremely high, well above the averages of 
more antiquated systems.
    The Chairman. Could I ask you to pause for a minute? Can 
you put that over on the other side? There is a camera that is 
blocking the view.
    Thank you. Please proceed.
    Ms. Cox. In fact, in 21 opti-scan counties in Georgia there 
were undervote rates of 5 percent or higher, and one county in 
Georgia even had an undervote rate of 15 percent using the 
opti-scan system.
    In addition to our overall analysis of all Georgia 
counties, we were interested in the differences in undervoting 
that exist by race, so we studied presidential undervote 
percentages in 92 predominantly black precincts, and compared 
those to predominantly white precincts in the same county. We 
found that across the board undervotes are higher in 
predominantly black precincts than in white precincts in the 
same county, and we call this difference the undervote gap.
    The bigger surprise, however, is that the undervote gap was 
higher--that is right, higher in counties that used opti-scan 
systems than in counties that used the punch card. I have 
attached for your reference a copy of our analysis that 
provides specific county-by-county detail on these findings.
    In punch card counties in Georgia, this undervote gap was 
3.7 percent between black and white precincts. In counties that 
employed opti-scan, the undervote gap was 5.4 percent, and you 
see on this chart the red letter W represents the white 
precincts using opti-scan, the blue letter B's represent the 
black precincts using opti-scan, and you see we have got a 
number of black precincts that exceed 8 percent in error rates, 
many of those well above 10 percent in error rates.
    So the undervote gap between blacks and whites is nearly 2 
percentage points higher in opti-scan counties. The reasonable 
question one would ask when presented with these findings is 
why? Why are voters in predominantly African American precincts 
more likely to cast an undervoted ballot, and why is this 
variation even greater in opti-scan precincts than in punch 
card precincts, and simply, we do not know the answer to that 
today.
    Anecdotally, we know the types of errors voters can make on 
opti-scan systems. We have seen many times when voters place a 
check mark or an X rather than blackening in a circle, and the 
optical reader will not read that vote.
    Sometimes, voters trying extra hard to make sure their vote 
is counted will both blacken a circle and write in the same 
candidate's name on the write-in line, thus creating to the 
counting machine what appears to be a duplicate vote or an 
overvote which is not counted at all.
    But whatever the cause of the disparity, we believe the 
data makes a compelling argument that further deployment of 
opti-scan systems in Georgia would be bad public policy, and 
could even be considered a decision that disenfranchises 
minority voters. Clearly, our findings cry out for more 
analysis of this racial disparity in the use of voting 
equipment, and so I applaud the emphasis in your legislation, 
Mr. Chairman, mandating a formal study of these types of 
issues.
    So much of the focus coming out of Florida was on the 
shortcomings of the punch card system, and those shortcomings 
are undeniable, but in Georgia we now believe that replacing 
punch cards with opti-scan would be the electoral equivalent of 
jumping from the frying pan into the fire.
    The data shows that some populations are far too likely to 
cast an incomplete or a voided ballot when using opti-scan 
systems. We believe that electronic equipment systems that are 
flexible, accurate, that prevent overvoting and other mistakes, 
and that feature a separate audit trail, offer the best option 
for improving the reliability of our election systems. I am 
hopeful that the Congress will help provide the resources to 
assist us in achieving our goal.
    Thank you, Mr. Chairman, for the opportunity to share my 
perspective on this very important issue.
    [The prepared statement of Ms. Cox follows:]

       Prepared Statement of Hon. Cathy Cox, Secretary of State, 
                            State of Georgia

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to present testimony for your consideration as you address 
the critically important issue of election reform. I am grateful to be 
asked to offer some insight into our experience in Georgia as we search 
for new solutions to make elections more accurate and more convenient 
for all of our citizens.
    Let me also say Mr. Chairman that I applaud your efforts, and that 
of the ranking member Senator Hollings, in introducing S.368, which 
would provide us with valuable national consensus standards in voting 
equipment, authorize a study of voter participation and emerging 
technology, and, perhaps most importantly, create grants to states to 
improve voting methods.
    It's a good bill. As you know, there are a number of other 
legislative proposals before the Congress that address these issues, 
both in the House and the Senate. But I believe your focus on 
standards, and your call to study the impact of income, minority status 
and other demographic variables on effective participation in the 
election process, are particularly desirable features. I hope they will 
be included in the final product that is enacted at the conclusion of 
this process.
    I should also commend my good friend from Georgia and a Member of 
this Committee, who by the way also served with great distinction 
before me as our Secretary of State, Senator Max Cleland, for his 
aggressive work to find innovative solutions to the problems of 
outdated and inaccurate election systems. I know that he and Senator 
Brownback are also preparing important legislation that addresses this 
issue.
    As Georgia's chief elections officer, it's been interesting to 
watch the reaction of other election officials, from both the state and 
local level, to the unprecedented and very dramatic events in Florida 
in the days following the November 2000 election. It seems to me that 
the response of most of my colleagues in the elections field falls into 
one of two groups.
    The first group, and I am happy to say it seems to be the much 
smaller one, can be characterized with one word--and that word is 
denial.
    From them you may hear the following:

        ``What happened in Florida couldn't happen here.''
        ``The media has blown this out of proportion.''
        ``Some voters just make mistakes. There's nothing you can do 
        about it.''
        ``If people just followed directions, none of these problems 
        would occur.''
        ``Very few elections are that close anyway. So a few errors 
        here and there don't really matter.''
        ``New technology can get you into trouble. It's better to stick 
        with what we already have.''

    Or Finally:

        ``We've always known no election is perfect. Get over it. All 
        of this controversy will die down in a few months.''

    Now, the other group of election officials, and I certainly put 
myself among their number, had a very different reaction when we looked 
at what happened in Florida. Describing that group, it reminds me of 
the ambitious understudy anxiously awaiting her big chance on the 
Broadway stage. One day she gets the call that she'll have to step into 
the leading role. Yes, she's a little bit sorry that the star got sick, 
but she is also really, really glad to finally stand in the spotlight 
and get the full attention of the crowd.
    As an election official who has been concerned for many years about 
the problem of antiquated and inaccurate voting and vote counting 
systems, I sympathize with Secretary of State Harris and the good 
people of Florida. I'm sorry for their misfortune. But I am also 
thrilled that national attention is now focused on this serious 
problem. And I want to make sure we make the most of our big chance.
    Mr. Chairman, comparing ourselves to Florida and the problems that 
occurred there in the design of ballots and the counting and recounting 
of votes, I can only come to one conclusion.
    There, but for the grace of God, go I.
    Because the truth is, if the presidential margin had been razor 
thin in Georgia, and if our election systems had undergone the same 
microscopic scrutiny that Florida endured, we would have fared no 
better. And perhaps we would have fared even worse.
    Like Florida, we have several different voting systems. Some are 
merely outdated. Some are true antiques tracing their origins to Thomas 
Edison and the 19th Century.
    Like Florida, we had thousands and thousands of ballots that 
registered no vote in the presidential race, what we call undervotes. 
Nearly 94,000 voters that went to the polls in November either did not 
vote for president, made a mistake that voided their ballot, or did not 
have their vote counted by a machine.
    That is an undervote percentage of 3.5 percent--a number that 
compares unfavorably with Florida, which had an undervote rate of 2.9 
percent--and the overall national rate that has been reported at 1.9 
percent.
    Like Florida, we had wide variations in undervote rates from county 
to county. Some counties showed very low undervote totals--one half of 
one percent or below. Others showed high--very disturbingly high--
undervote rates of 15 percent. When more than one in ten ballots 
register no choice in the most important race, it doesn't take an 
election expert to know that something is seriously wrong with the 
system.
    Like Florida, we had hanging chads, dimpled chads, pregnant chads 
and other unpleasant features of the punch card system. In fact nearly 
1.2 million voters in seventeen Georgia counties, including several of 
our largest metropolitan counties, use the punch card.
    Have we known that chads present a problem? Well, consider this. In 
Fulton County, our largest county that still uses the punch card 
system, county employees long ago gave the counting equipment a 
nickname. They call it the ``confetti machine.'' And that's because 
when ballots are fed into it, hundreds of chads fly into the air as the 
counting goes on.
    Like Florida, we had recounts. And although our Georgia statute 
calls for machine recounts only, unless a court orders a hand recount, 
it was evident from the examination of ballots that many voters made 
inadvertent errors as they made their electoral choice.
    Like Florida, we had voters turned away from the polls who had been 
properly registered. And we had far too many poll workers who were 
uninformed or poorly trained.
    Like Florida, we had problems with the ballot itself. In one opti-
scan county, the wrong markers were issued and officials had to 
scramble to recreate all the ballots that night when none of them could 
be counted in the machine. In another, the opti-scan ballots got damp, 
because it was a rainy day, and couldn't be read by their counting 
machine. And when the county called us, we gave them the advice we 
always give. Go get some hair dryers and blow dry the ballots. If the 
consequences were not so great, it would be funny.
    And so we know very well that, yes, it could happen in Georgia. And 
the odds are that sometime, perhaps sometime very soon, it WILL happen 
in my home state unless steps are taken now to upgrade our equipment 
and procedures.
    In the weeks following the November election, our office prepared a 
report for the Governor and Members of the General Assembly entitled 
The 2000 Election: A Wake-Up Call for Reform and Change. Based on new 
data analysis and the views, suggestions and complaints of hundreds of 
Georgians, from average citizens to party leaders to local elected 
officials, we took a ``warts and all'' look at the weaknesses in the 
current system and proposed a number of improvements to address these 
concerns. Our legislation, which would implement most of the reforms we 
believe are needed, is currently working its way through the Georgia 
General Assembly.
    We have proposed a number of mostly administrative changes to 
shorten the ballot, speed up the counting of absentees, modify our 
Primary Election date to boost turnout, and other relatively minor 
changes.
    We also have proposed, as we have in the past, a system of early 
voting to help reduce the confusion and long lines we experience at the 
precincts in high turnout elections.
    But most importantly, we have recommended that Georgia begin now 
down the path towards a uniform electronic statewide voting system, 
with the goal of full implementation by November 2004.
    We have secured funding in our current midyear budget to move 
forward with a pilot program, to be deployed in municipal elections 
this year, to field test different electronic voting systems. We 
believe this is particularly important since today, not one Georgia 
county or city uses electronic voting equipment. And we have called for 
a bipartisan commission to help us evaluate the successes and 
shortcomings of various equipment types, and identify the precise 
equipment we believe will be best for Georgia.
    Our legislation also requires, for the very first time in the 
history of our state, that my office, rather than county governments, 
provide the necessary funding to acquire new uniform electronic 
equipment. As you know, Mr. Chairman, the acquisition and maintenance 
of election equipment has, throughout the nation, traditionally been 
the responsibility of local government. We want uniformity--we think it 
is critical both for policy and legal reasons. And yet it is simply not 
feasible or advisable for the state to mandate the purchase of 
equipment but play no role in its acquisition. Many counties in Georgia 
have not invested in election equipment in 40 years or more. They lack 
the budgetary wherewithal to make major new technology investments.
    If we want to modernize elections and election equipment, the state 
and federal government are going to have to provide the resources. And 
yes, we believe funding and support from the federal government is 
critical. I can tell you from my conversations with state leaders and 
their review of the great demands already placed on our state budget, 
we will not reach our goal of modernized election systems by 2004 
without significant federal grant support.
    I would suggest to you that this is not simply a case where 
counties and states are asking you for federal money to solve a local 
problem. No, I believe there is a compelling national interest in 
assuring that every county and state in the nation has the capacity to 
insure fair and accurate outcomes in every race on the ballot--
including the race for President. If we take nothing else from 
Florida's experience, it should be the recognition that these local 
decisions on equipment and procedures can have a dramatic impact on 
national affairs.
    New public opinion data seems to bear this out. According to a 
recent CBS News poll, 65 percent of respondents said elections require 
``fundamental changes'' or should be ``completely rebuilt.'' A Gallup 
poll found that 67 percent favored ``a complete overhaul'' or ``major 
reforms.'' And just last week, the Miami Herald reported their new poll 
of Floridians that showed 69 percent of Democrats and 62 percent of 
Republicans support Secretary of State Katherine Harris' proposal to 
shift to a new uniform method of touch screen voting, even though it 
has an eye-popping price tag of 200 million dollars.
    In my discussions with Georgia citizens--young and old, male and 
female, black and white and brown--in every corner of the state, I hear 
the same views. People think this is a problem we should fix. And they 
think we should fix it now.
    I am reminded of Prime Minister Margaret Thatcher's favorite quote, 
which comes from the 19th Century French politician Alexandre Auguste 
Ledru-Rollin, ``There go my people. I must find out where they are 
going so that I can lead them.''
    The rationale for investing in new, more accurate voting technology 
is not simply its popularity or even that it is good public policy. 
There is a compelling legal argument as well. Stanford Law School Dean 
Kathleen Sullivan's analysis is right on target:

        ``The Supreme Court has just handed an invitation to lawyers 
        across the country to bring an avalanche of lawsuits claiming 
        that existing systems that count people's vote differently and 
        with different rates of error in different counties violates 
        the equal protection clause of the U. S. Constitution. If the 
        107th Congress does not make it a top priority to fix this, and 
        fix it quickly, we are going to see `litigation city' in 2002 
        and 2004. This is something that really ought not be postponed 
        and studied to death, it ought to be acted upon and acted upon 
        quickly.''

    Mr. Chairman, I can report to you that ``litigation city'' to use 
Dean Sullivan's words, is already rising up in Georgia. This January, 
the Governor, the State Election Board and I were sued by the ACLU, 
representing African-American plaintiffs, claiming that Georgia's 
election systems are fatally flawed, that voting equipment of all types 
has high error rates, and that minority citizens are disproportionately 
affected by these shortcomings. The suit seeks to enjoin the State of 
Georgia from conducting any further elections using our current voting 
technology.
    The Attorney General's office on behalf of the state has answered 
that suit, which is now in federal district court. While I cannot 
predict, nor can anyone, the outcome of this case, it goes without 
saying that if the court finds that the plaintiff's claims have merit, 
the state faces the prospect of expensive, and perhaps immediate, 
court-imposed modifications to our election systems. And so I believe 
this litigation lends increased urgency to our efforts to upgrade 
systems in a carefully planned but expeditious manner.
    Since November we have spent a great deal of time analyzing 
Georgia's undervote, especially the variations that occur from county 
to county and from precinct to precinct. Much of the report I 
referenced earlier focuses on this area. Four voting systems are 
currently employed in Georgia: punch card, lever machine, opti-scan and 
paper ballot. Allow me to share with you some of our most important 
findings:

  <bullet> There are exceedingly large variations in undervote rates 
        between counties, and even among counties that employ the same 
        voting technology. Punch card counties in general have the 
        highest undervote rates, followed by lever machines and then 
        optical scan systems.

  <bullet> Although optical scan systems, the ``newest'' technology 
        used in Georgia, offer satisfactory performance in some 
        counties, in many other locations optical scan undervote rates 
        are extremely high--well above the averages for more antiquated 
        systems. In fact, 21 counties that use optical scan technology 
        had undervote rates of five percent or higher, including three 
        counties that recorded rates of 9, 10 and 15 percent 
        respectively. And the mean average (the average of all the 
        county percentages) of optical scan county undervotes is nearly 
        identical to the now disparaged punch card systems.

  <bullet> While complete data is not available, the numbers we have 
        suggest that overvotes, or duplicate votes (where the voter 
        accidentally makes more than one choice in a single contest, or 
        perhaps where the machine improperly reads a duplicate vote 
        that was not in fact made) represent a very substantial 
        majority of the variance between ballots cast and votes 
        recorded. Some observers suggest that undervotes in the 
        presidential race simply reflect the conscious decision of 
        voters to skip that race and make other choices later down the 
        ballot. Our data strongly suggests otherwise. In the 13 Georgia 
        counties that compute duplicate votes (or overvotes) as a 
        separate category, these inadvertent duplicate selections 
        constituted 61.5 percent of the total undervote. Therefore, the 
        first priority of any new technology we consider should be a 
        feature that simply does not permit the elector to overvote.

    After completion of our report to the Governor and the General 
Assembly, we were asked by the leader of Georgia's Black Caucus to 
analyze more specifically the undervote variations that exist by race. 
And so we began to study undervote (in the presidential race) 
percentages in precincts that had black registration percentages of 80 
percent or more, and compared those to predominately white precincts in 
the same county.
    We found that, across the board, undervotes are higher in 
predominately black precincts than in predominately white precincts in 
the same county. For purposes of our analysis, we have called this the 
``undervote gap.'' But what is of greatest interest, and we think most 
significant as we consider equipment options, is that this undervote 
gap was higher, that's right, higher, in counties that utilized opti-
scan systems than in counties that use the punch card. I have attached, 
for your reference, a copy of our analysis that provides specific, 
county-by-county detail on these findings.
    In this study we looked at 92 precincts with voter registration 
that is 80 percent or more African-American. And we compared those 
predominately black precincts to an equal number of predominately white 
precincts in the same counties.
    In punch card counties, the undervote in white precincts averaged 
4.4 percent, while the undervote in black precincts averaged 8.1 
percent, for a difference of 3.7 percent--what we are calling the 
``undervote gap.''
    In counties that employ opti-scan, the undervote in predominately 
white precincts averaged 2.2 percent, while the undervote in 
predominately black precincts averaged 7.6 percent, for an undervote 
gap of 5.4 percent.
    I should point out that this higher undervote gap for opti-scan 
exists whether we look at counties individually or in aggregate. 
However we slice the numbers, in opti-scan counties, there is a greater 
gap in undervoting by blacks as compared to whites than there is in 
counties that use the punch card.
    The reasonable question one would ask when presented with these 
findings is ``Why?'' Why are voters in predominately African-American 
precincts more likely to cast an undervoted ballot, and why is this 
even more likely to occur in opti-scan precincts than in punch card 
precincts?
    We simply do not know the answer. Anecdotally, we have observed the 
kinds of errors voters make on opti-scan ballots in precincts of all 
demographic profiles. Sometimes voters place a check mark or an ``X'' 
rather than blackening the circle. Sometimes voters circle the name of 
the candidate rather than blackening the circle or completing an arrow. 
(Some systems require a blackened circle, others require voters to draw 
a line which completes an arrow adjacent to the candidate's name.) 
Sometimes voters, trying hard to make sure their vote is counted, both 
blacken a circle by their candidate's name AND write-in their 
candidate's name, thus creating what appears to the counting machine to 
be a duplicate vote, or overvote.
    Let me acknowledge that this is data from one state only, and that 
we have not yet been able to complete an exhaustive analysis of 
undervote performance in each of the nearly 2,800 precincts in Georgia. 
But we believe the data we have makes a compelling argument that 
further deployment of opti-scan systems would be bad policy, and could 
perhaps even be considered a decision that disenfranchises minority 
voters.
    Clearly, our findings cry out for more study of this racial 
disparity in the use of voting equipment--and for that reason 
especially, I applaud the emphasis in S.368 on a formal study of these 
types of issues.
    Mr. Chairman, as you are aware, so much of the focus coming out of 
Florida was on the shortcomings of the punch card system. And those 
shortcomings are undeniable. In fact, a top priority of our statewide 
electronic voting initiative is to replace punch card systems first. 
But for Georgia, at least, we believe the data shows that replacing 
punch card with opti-scan would be the electoral equivalent of jumping 
from the frying pan into the fire. In addition to the operational 
shortcomings of opti-scan we already know about--high costs of ballot 
printing, potential errors from using the wrong marker, potential 
problems with moisture and other environmental conditions, the ease of 
making innocent mistakes that ultimately void a vote--it seems clear 
that some populations are far too likely to cast an incomplete or 
voided ballot when using the opti-scan system.
    For us, this analysis reconfirms our belief that old systems--
whether punch card, lever machine or opti-scan--should be replaced with 
current generation electronic equipment that minimizes the opportunity 
for the voter to make a mistake--and that has other clear advantages as 
well.
    I believe this is a critical priority as we look to modernize our 
election systems. One of the most disturbing comments I have heard is 
the claim that every undervote is the choice or the fault of a poorly 
informed voter. Rather than blaming the citizens who pay our salaries 
and whose tax dollars buy the equipment we select, I believe every 
election official at every level of government should place maximum 
emphasis on identifying and acquiring equipment that is convenient, 
intuitive, easy to use and that reduces to an absolute minimum the 
opportunity for voter error.
    Let's not forget that voting is not an act we perform every day or 
every week. The most conscientious of us may only vote once every year 
or two. And so the equipment we provide to voters should not require a 
detailed instruction manual in order to be utilized properly. And it 
should easily accommodate the needs of those with limited English 
proficiency, those who are visually-impaired and disabled, and other 
special needs populations.
    Mr. Chairman, that's why I am particularly supportive of the 
provisions of your bill that would authorize the National Institute of 
Standards and Technology to study these very issues. To my knowledge, 
very little if any extensive analysis has been performed on the voter-
ballot interface, including an evaluation of how equipment is used by 
different populations.
    In Georgia, we believe that electronic equipment--systems that are 
flexible, accurate, that prevent overvoting and that feature a paper 
audit trail to provide an additional level of accuracy in case of a 
recount--offer by far the best options for improving the reliability of 
our election systems. We are hopeful that the Congress will help 
provide the resources to assist us in achieving our goal.
    Mr. Chairman, our election systems are broken. The American people 
expect us to step up and fix them--and fix them fast. Nothing is more 
important to the health of our democratic institutions than assuring 
that elections are fair to all and accurate in their outcomes. I am 
absolutely convinced that, applying our best thinking and adequate 
resources to the problem, we can fulfill this critical responsibility 
to the people we serve.
    Thank you for the opportunity to share my perspective on this 
important issue.
                                 ______
                                 
Study of Georgia Presidential Race Undervote, Performance by Equipment 
 Type and Race for the November 7th 2000 General Election (March 2001)
Summary of Findings

    In this study we analyzed 92 precincts in 11 Georgia counties 
distributed throughout the state with voter registration that is 80 
percent or more African-American. We compared those predominately black 
precincts to an equal number of predominately white precincts in the 
same counties.
    This analysis involved computing the difference between the number 
of ballots cast and the number of votes recorded in the presidential 
race--what is known as the ``undervote.''
    We found that, across the board, undervotes are higher in 
predominately black precincts than in predominately white precincts in 
the same county. For purposes of our analysis, we have called this the 
``undervote gap.''
    In punch card counties, the undervote in white precincts averaged 
4.4 percent, while the undervote in black precincts averaged 8.1 
percent, for a difference, or undervote gap, of 3.7 percent.
    In counties that employ opti-scan, the undervote in predominately 
white precincts averaged 2.2 percent, while the undervote in 
predominately black precincts averaged 7.6 percent, for an undervote 
gap of 5.4 percent.
    Thus, the undervote gap between whites and blacks is significantly 
higher in optiscan counties than in punch card counties.
    This higher undervote gap for opti-scan exists whether we look at 
counties individually or in aggregate. However we slice the numbers, in 
opti-scan counties, there is a greater differential in undervoting by 
blacks as compared to whites than there is in counties that use the 
punch card.
    These findings suggest that further deployment of optical scan 
systems could serve to increase the gap between white and black 
undervoting.
                                 ______
                                 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 
The 2000 Election: A Wake-Up Call For Reform and Change, Report to the 
      Governor and Members of the General Assembly (January, 2001)

Executive Summary
    For weeks following the November 7th, 2000 election, our nation was 
gripped by the unfolding drama of the Florida recount. Those 
extraordinary events and intense media and public scrutiny of the 
process caused millions of Americans to wonder: Are elections in my 
state any more accurate? Can I be sure my vote was counted? Why is 
election equipment so antiquated? Would a close race in my community 
throw the process into chaos? Isn't there a better way to cast and 
count votes? What do we need to do to increase the accuracy and 
integrity of elections?
    The Florida experience should serve as a wake-up call for election 
officials throughout the nation--including Georgia. Could Florida's 
problems just as easily have been Georgia's problems? The answer is 
unquestionably yes. Like Florida, we have several different voting 
technologies. Like Florida, counties in Georgia have different methods 
of counting votes, with differing levels of accuracy. Like Florida, 
tens of thousands of voters cast ballots that did not register a choice 
in the presidential race. In fact, the percentage of ballots in Georgia 
that showed no presidential choice (what we call ``undervotes'') was 
actually higher here than in Florida. And in some counties, more than 
one in ten ballots registered undervotes.
    Election officials have known for years that much of our equipment 
is antiquated, that sufficient investment in new technology has not 
been secured, and that different systems can lead to differing levels 
of accuracy. But, few others outside the world of elections management 
focused on the problem. And little, if any, political consensus existed 
to adopt--and pay for--the reforms needed to make our election systems 
more modern, more user-friendly and more accurate.
    The Florida experience can be a catalyst for reform and change. And 
so we believe the time has come for a thorough accounting of Georgia's 
registration and election systems--their strengths and weaknesses. That 
is the rationale behind this report.
    To compile the report, we studied data from the November election 
and analyzed current statutes and procedures. Even more importantly, we 
sought out and reviewed the criticisms and suggestions of hundreds of 
interested Georgia citizens, election officials, civic groups and 
participants in the political process. Concerns about the accuracy of 
voting equipment and the integrity of election outcomes are by no means 
the only issues they raised. Many were frustrated by long lines at the 
polls, confusing procedures, broken equipment, problems with 
registration and host of other issues we have compiled in this report.
    We recognize there is not an easy prescription for every problem. 
Elections are complex events with a host of players and interests. But, 
we believe there are reasonable, practical and affordable solutions 
that can dramatically improve the performance of Georgia election 
systems, provide our citizens with more convenience and offer Georgians 
more assurance that their votes will be accurately counted.
    Among our recommendations:

  <bullet> Adopt Statewide Uniform Electronic Voting Initiative: 
        Authorize, fund and deploy by 2004 a Statewide Uniform 
        Electronic Voting Initiative (SUEVI) to create a single method 
        of voting consistent in every county in the state. We believe 
        new electronic systems offer the best option for error-free, 
        user-friendly voting equipment.

  <bullet> Implement Early Voting: To enhance convenience and reduce 
        election day gridlock, implement Early Voting, joining 26 other 
        states that already have some form of early or open absentee 
        voting.

  <bullet> Move General Primary Date: To address declining Primary 
        turnout, move the General Primary from July to the third 
        Tuesday in August, a date more convenient for Georgia families.

  <bullet> Overhaul Voter Registration System: Upgrade the state's 
        voter registration database from the slow, unreliable, 
        inflexible, and expensive mainframe system to a flexible state-
        of-the-art server-based system.

  <bullet> Pursue Poll Worker & Poll Location Alternatives: Seek new 
        alternatives to assist counties in securing new poll locations 
        and recruiting and training poll workers, both of which now are 
        in short supply.

  <bullet> Streamline Polling Place Procedures: Consider new procedures 
        to streamline paperwork procedures at the polls and move voters 
        more quickly through the voting process.

  <bullet> Consolidate Authority to Remove Deceased Voters from Rolls: 
        Provide the Secretary of State new authority to remove deceased 
        voters from the rolls and assure a more accurate voter roll, 
        responsibilities that currently lie solely with the counties.

  <bullet> Modernize Voter Information Resources: Utilize new 
        centralized technology solutions to offer citizens quicker, 
        easier means to locate their precinct and verify their voter 
        registration.

  <bullet> Reengineer ``Motor Voter'': Consider options to reengineer 
        the voter registration process at DPS driver's license 
        facilities to minimize errors and reduce confusion.

    We hope you find the following report useful as we look for new 
solutions to make Georgia registration and election processes the 
finest in the nation.
    Nothing is more important to the health of our democratic 
institutions than assuring that elections are fair to all and accurate 
in their outcomes. There is work to be done to fully achieve those 
goals. We welcome your comments and suggestions as we undertake that 
effort together.

    The Chairman. Thank you very much.
    Secretary Thornburgh, welcome.

STATEMENT OF HON. RON THORNBURGH, SECRETARY OF STATE, STATE OF 
                             KANSAS

    Mr. Thornburgh. Thank you, Mr. Chairman, Members of the 
Committee. It is an honor to appear here today to discuss with 
you the need for election reform in America.
    Following last November's election, the Nation was quick to 
appoint dozens of blue ribbon panels, task forces, and select 
commissions to find ways to change the American system of 
elections. In Kansas, we invited our election reform 
commissioners to meet at the Capitol on the day of the 
Electoral College meeting on December 18, and our basic 
conclusion was that in the State of Kansas our system works. 
There was a peaceful transition of power from administrations, 
the constitution was preserved.
    Although the process was flawed and there were errors and 
problems, the basic system worked, so today before this body I 
urge caution. The November election may not have been pretty, 
the results may not have come quickly, but quick fixes and 
convenience are not the measure of democracy. America's 
confidence in our system has been badly shaken. More speeches, 
commissions, and blue ribbon panels will not restore 
confidence. Simply plugging in a few new machines around the 
country will not restore confidence.
    We have to take this opportunity to fundamentally improve 
our electoral system. We must ensure that every American has 
absolute and unobstructed access to the voting process. The 
Supreme Court has told us to adopt adequate state-wide 
standards for determining a legal vote and procedures to 
implement them, and there must be opportunity for judicial 
review of these issues as well. America needs uniform, 
voluntary national standards for our voting equipment, voting 
technology, and processes. America does not need the same 
ballot or the same voting machine in every precinct in the 
country.
    State and local governments must continue to be in charge 
of our election process. Just as our Electoral College system 
reflects that individual states as sovereign bodies are 
important, so should any reform we adopt respect the individual 
conduct of elections within their borders. New technology is 
needed in many areas in the country, but please understand, 
what works for Los Angeles, California is not going to work for 
Leoti, Kansas.
    This is not a plea to place new technology in every 
precinct in America. As former Senator Nancy Kassebaum Baker 
told me recently, Ron, the pencil on a string works very well 
in Burdick, Kansas. Don't you change it. I tend to listen when 
Senator Kassebaum Baker talks to me.
    Funding for issues other than new technology is critical. 
However, the hard reality is, state and local governments need 
help funding the best systems to ensure safe, secure, and 
accurate elections.
    All too often, county governments have had to face a 
difficult choice of replacing crumbling roads and bridges, or 
trying to squeeze another election out of an antiquated system. 
Also, with the recent Supreme Court decision regarding equal 
protection, we know we must provide better and more training 
for our voters, poll workers, and canvassers.
    There are a number of instances given in the previous panel 
of voters being denied the right to vote. I propose to you that 
the law is already in place, for those voters should have been 
given a provisional ballot and been allowed to vote, and then 
the decision made later in the process as to whether or not 
that vote should have been counted. The laws are in place 
currently to handle that. We just need better education of our 
polling place workers.
    As with all issues in which technology plays an important 
role, people still play a more important role, and that is why, 
with all the talk about voting equipment and imperfect ballot 
forms and hanging chads, the American public in general was 
more outraged by the effects of exit polling and the news 
media's premature prediction of winners, activities clearly 
controlled by human judgment.
    Therefore, we must focus the objective of our reform. Let 
us recognize there is no access to the voting process if a 
citizen encounters confusing voting procedures, if the citizen 
is handed a poorly worded or formatted ballot, if they must use 
unproven equipment or technology, or because of any barrier, 
physical or otherwise, cannot negotiate the process, and 
finally, they cast a vote the intention of which must be 
divined by speculation or supposition.
    The American voter will only be assured of the ability of 
our system and the value of our democracy when they know their 
vote cast at the polling place is accurately tabulated, or 
accurately reflected in the final tabulation. We must do 
everything we can to assure that our voter registration records 
are up to date, complete, and accurate.
    With some counties in our country currently recording 
greater than 100 percent of their voting age population as 
registered voters, how can we have confidence in our records as 
they stand now? State and local governments need the ability to 
keep our voting lists clean. Congress must fully fund section 
8(h) of the National Voter Registration Act of 1993, allowing 
first-class handling of official election mail at the third-
class rate. This simple act will allow us to clean up badly 
outdated voter registration records.
    As the incoming president of the National Association of 
Secretaries of state, let me be very clear. We know what 
problems exist We know the issues, and we want to work with you 
to be a part of the solution.
    I find it amazing that today, 36 years after the passage of 
the Voting Rights Act, we are still debating how to provide 
every American equal access to our most precious right. this 
time, it is up to you and me to get it right. We have the 
chance to provide equal protection for all voters. We have the 
chance to create uniform, voluntary standards for voting. We 
have the chance to improve the reliability of our voter 
registration records. But most importantly, we have the duty to 
restore America's confidence.
    Thank you, Mr. Chairman and Members of the Committee.
    [The prepared statement of Mr. Thornburgh follows:]

    Prepared Statement of Hon. Ron Thornburgh, Secretary of State, 
                            State of Kansas

    Thank you Mr. Chairman and Members of the Committee for the 
opportunity to appear today. My name is Ron Thornburgh; I am the Kansas 
Secretary of State and President-elect of the National Association of 
Secretaries of State. It is an honor to appear before you and discuss 
the need for election reform in America.
    Following last November's election the nation was quick to appoint 
dozens of select commissions, blue ribbon panels and task forces to 
change our American system of elections. In Kansas we invited our 
election reform commissioners to a meeting at the capitol. We had the 
benefit of congressmen and women, journalists, law school deans and 
professors--and the United States Supreme Court decision. And our 
conclusion was that the system works.
    So today, before this body, I urge caution. Our system did provide 
for the orderly transfer of power contemplated by our Constitution. The 
November election may not have been pretty, and the results may not 
have come quickly, but quick fixes and convenience are not the measure 
of democracy.
    Even though the system worked, America's confidence in our system 
has been shaken. More speeches, commissions, and blue ribbon panels 
will not restore confidence. Simply plugging in a few new machines 
around the country will not restore confidence.
    We have to take this opportunity to fundamentally improve our 
electoral system. From the courthouse to the White House, now is the 
time to act. The three most critical areas in need of reform are equal 
protection, uniform voluntary standards, and voter registration.
Equal Protection
    We must ensure that every American has absolute and unobstructed 
access to the voting process. From the time of registration through the 
final recount and contest of an election, we must provide equal 
treatment for all.
    The Supreme Court has said we must adopt adequate statewide 
standards for determining what is a legal vote, and practicable 
procedures to implement them. The court also mandates an opportunity 
for orderly judicial review of any disputed matters that might arise 
during the process. You and I alone, no matter how laudable our 
motives, cannot sit in our offices and draft standards. There must be 
discussion, debate, and court review.
Uniform Voluntary Standards
    America needs uniform voluntary national standards for our voting 
equipment, technologies, and processes. America does not need the same 
ballot or voting machine in every precinct.
    State and local governments must continue to be in charge of the 
election process. Just as our Electoral College system reflects that 
individual states--as corporate bodies--are important, so should any 
reform we adopt respect the individual conduct of elections within 
their borders. In our federal system, states count.
    New technology is necessary in many areas of the country, but 
understand:

  <bullet> What works for Los Angeles, California certainly won't work 
        for Leoti, Kansas. This is not a plea to place new technology 
        in every polling place in America. As Senator Nancy Kassebaum 
        Baker told me recently, ``The pencil on a string works very 
        well in Burdick, Kansas, Ron. Don't change it.''

  <bullet> Most technology in use today is exceedingly accurate and 
        secure . . . as long as the voters follow the rules. When every 
        voter clearly marks the box, completely darkens the oval, or 
        even completely dislodges the chad, the vote counting systems 
        in use today work very well. Our job, as election 
        administrators, is to insist upon the development and use of 
        vote-counting systems to determine true voter intent.

  <bullet> Funding for issues other than new technology is critical. 
        However, the hard reality is state and local governments need 
        help funding the best systems to ensure safe, secure and 
        accurate elections. All too often county government has had to 
        face the difficult choice of replacing crumbling roads and 
        bridges, or trying to squeeze another election out of an 
        antiquated system. Also, with the recent Supreme Court decision 
        regarding equal protection, we know we must provide better and 
        more training for voters, poll workers, and canvassing boards 
        to ensure logical, uniform and equal enforcement of election 
        law.

    As with all issues in which technology plays an important role, 
people still play a more important role.
    Perhaps that is why, with all the talk about voting equipment, 
imperfect ballot forms and hanging chads, the American public in 
general was more outraged by the effects of exit polling and of news 
media's prematurely predicting winners--activities clearly controlled, 
by human judgment.
    We must focus on the objective of our reform efforts. I say our 
objective must be to ensure that every American has absolute and 
unobstructed access to the voting process.
    I suggest that the Supreme Court agrees with those who share this 
view. Let us recognize that there is no access to the voting process if 
a citizen:

  <bullet> encounters confusing voting procedures;

  <bullet> is handed a poorly worded or formatted ballot;

  <bullet> must use unproven equipment or technology;

  <bullet> is given bad predictions or apparent results before the 
        election is over any place in our country;

  <bullet> because of any barrier, physical or otherwise, cannot 
        negotiate the procedure; and finally

  <bullet> casts a vote, the intention of which must be divined by 
        speculation or supposition.

    While creating standards, I urge everyone involved to dismantle any 
barrier to the voting process, not just the ultimate barrier when the 
voter's intention is wrongly determined.
    These issues can only be addressed with a long-term commitment to 
resolving our problems and rebuilding the public confidence in our 
system. Confidence cannot be won with a few studies and position 
papers. The American voter will only be assured of the ability of our 
system and the value of our democracy when they know their vote cast at 
the polling place is accurately reflected in the final tabulation.
Voter Registration
    We must do everything we can to ensure our voter registration 
records are accurate, complete, and up-to-date. With some counties 
recording greater than 100 percent of their voting population as 
registered voters, how can we have confidence in our records? When an 
election official knows a potential voter does not live where our 
records show, yet we cannot adjust the records, how can we have 
confidence in our records?
    Better maintenance of our voting records will do much to protect 
the integrity of our electoral process. Until we can guarantee every 
name on the list is accurate, we have work to do. State and local 
governments need the ability to keep our voting lists clean. Current 
law, in many cases, prevents such basic measures of protection.
    Congress must fully fund section 8 (h) of the National Voter 
Registration Act of 1993 allowing first class handling of official 
election mail at the third class rate. This simple act, saving millions 
of dollars nationwide, will also provide the opportunity to cleanup 
badly outdated voter registration records.
    In our next election, America must be assured we have done 
everything possible to address the problems of our last election cycle. 
Federal, state and local governments want to provide the best voting 
systems in the world.
    As President-elect of the National Association of Secretaries of 
State, let me state, we know what problems exists, we know the issues, 
and we want to work with you to be a part of the solution.
    I find it amazing today, thirty-six years after the passage of the 
Voting Rights Act, we are still debating how to provide every American 
equal access to our most precious right. This time it is up to you and 
me to get it right.
    We have the chance to provide equal protection for all voters.
    We have the chance to create uniform voluntary standards for 
voting.
    We have the chance to improve the reliability of voter registration 
records.
    We have the duty to restore America's confidence.

    The Chairman. Thank you, Secretary Thornburgh.
    Secretary Bradbury, is there anything that sets your vote-
by-mail system apart from the absentee balloting systems used 
by other states?
    Mr. Bradbury. There is a dramatic difference. If you 
compare Oregon's vote-by-mail system with what we saw in the 
State of Washington last fall, you get a clear picture of the 
difference. There is an increasing use of absentee ballots, 
which are basically vote-by-mail, in the State of Washington 
and a number of other states, but they have a very different 
system for counting them than we use for vote-by-mail. You get 
a much quicker count of the votes in a vote-by-mail state than 
you get in a state that has half their votes coming at the 
polling place and half their votes being cast by absentee.
    The Chairman. Secretary Cox, Secretary Thornburgh mentioned 
the need to improve voter registration records. What role does 
voter registration play in your plans to modernize the system?
    Ms. Cox. Well, fortunately, in Georgia I think we are ahead 
of the game. When Senator Cleland served as our Secretary of 
State and Georgia adopted the standards for the Federal Motor 
Voter Act, we were one of the first states to centralize our 
voter registration system and put together a state-wide 
computer system so that the Secretary of State's office now 
maintains all of our voter registration lists.
    That has allowed us to weed out duplicates, to send 
information to the counties monthly to eliminate the names of 
deceased people and convicted felons, to prevent duplicate 
registrations when someone moves an address, so it is the heart 
of the election system, and I think it is imperative that all 
states have a good system so that they can prevent 
duplications, but fortunately for Georgia, we are there.
    The Chairman. You mentioned in your opening statement that 
there was a greater undervote gap in counties that have 
employed opti-scan machines rather than punch cards. That sort 
of flies in the face of conventional wisdom. Do you have any 
explanations for your findings?
    Ms. Cox. It was a surprise to us, Mr. Chairman, when we 
began to look at these numbers. I think part of the problem has 
to do with the ease for a voter to make a mistake on an opti-
scan system. A person with a Ph.D can pull their own pen out of 
their pocket and mark the ballot, and the opti-scan reader may 
not detect that type of ink or lead, and the vote does not get 
cast.
    We saw and heard from a lot of counties where voters put a 
check mark or an X on that circle, so that if you looked at 
that ballot you could certainly tell the intent of the voter, 
but we do not have a manual count law, so if the machine does 
not read it, it is just out.
    I suppose because punch cards have been used for a longer 
period of time in Georgia than opti-scans, that we do have 
voters who are more familiar with the punch card systems, and 
it does have its efficiencies, buy we obviously are seeing 
major problems with voter mistakes on the optical scan.
    The Chairman. I think your statement emphasizes the 
complexities and the difficulties in addressing the problems of 
the undervotes. I think it is necessary that through working 
with the Secretaries of State, we conduct a very in-depth study 
of this problem, so that the fixes we implement are effective, 
and we do not act too rashly.
    Did you calculate the undervote gap in counties using lever 
machines or paper ballots?
    Ms. Cox. We only have two counties that use paper ballots, 
so we really did not analyze those. We looked at it somewhat in 
lever machines, but we had data we were not sure was 100 
percent reliable so we did not fully calculate that. We saw 
some lever machine counties that had an undervote rate of over 
10 percent, some that were almost close to zero, and all I can 
speculate is that we had some faulty lever machines out there 
where wheels were simply not turning, and you have no audit 
trail to go back and be able to recount or reevaluate those 
ballots, so we did not see on the whole scale a wide variance 
between lever machines as well.
    The Chairman. Secretary Thornburgh, what is the State of 
Kansas doing to address the voter registration problems you 
mentioned, such as those counties whose voter registration is 
greater than 100 percent of the population?
    Mr. Thornburgh. Well, let me clarify, Mr. Chairman. I am 
proud to say no counties in Kansas have a greater voter 
registration than 100 percent. There are, however, some in the 
Nation that are doing so.
    We are trying to comply with the National Motor Voter Act 
of 1993 as best we can. One of the greatest difficulties that 
we have is counties being able to fund the mailing, the 
verification mailing that proves that a voter lives where they 
say they live, and many counties are cutting that as a means of 
cutting cost within county government, so if we were to provide 
federal funding, I think we would try to do very basically what 
Georgia has done and centralize the voter registration process, 
or the voter registration maintenance process so that we could 
do a lot of the cleanup through the national change of address 
program as well as others.
    The Chairman. In your testimony, you stated that the 
American election system worked this past November. Do you 
stand by that statement?
    Mr. Thornburgh. Yes, sir. If I may fully explain----
    The Chairman. Even in light of the disturbing studies that 
have surfaced detailing the disenfranchisement of millions of 
Americans, you still believe that to be true?
    Mr. Thornburgh. I would submit the process was flawed and 
that there were errors made both in judgment and in the way the 
technical process worked, and there were Americans 
disenfranchised. However, I would also submit that our 
Constitution was preserved, that the Electoral College system 
as designed by our founders did work, that the basic process 
that allowed for the peaceful transition from one 
administration to the next was allowed to happen. That is what 
I mean by the basic system worked. However, the process has 
been flawed, and those are the issues we need to address.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman, and we are very 
pleased that Bill Bradbury is here, and I will have some 
questions for him about vote by mail in a moment.
    It was reported over the weekend that perhaps 40 million 
Americans are going to file their tax returns online this year, 
and I, for one, am not ready to throw in the towel on this 
question of online voting. I would be interested in hearing 
from all of you, as Secretaries of State, what kind of 
experiments you would like us to try out so as to keep moving 
this ball down the field, recognizing that clearly it is going 
to take some more work to get there? Do any of you have some 
ideas on the kind of experiments you would like to see done in 
this area?
    Mr. Bradbury. Mr. Chair, Senator Wyden, it is good to see 
you. I share your enthusiasm for including in our election 
system online voting. I think it is important that we not move 
to solely online voting, because that would be very 
discriminatory to a lot of people who are not computer savvy. I 
think that there are issues that really are going to need to be 
dealt with first at a national level, or even an international 
level, in terms of hackers' access to election systems. If 
there is a way to create a system that cannot be severely 
hacked, I think we are moving in the right direction.
    There are obviously things that we need to do before we 
have online voting, such as a centralized voter registration 
system. But there is a much larger question of how we track 
ballots, how we ensure that hackers cannot disrupt the election 
system in implementing online voting, so I would like to see 
some testing in that area.
    Mr. Thornburgh. If I may, Senator, I would like to add, one 
of the areas that we need to address very quickly in our 
country is the issue of military voting. One of the greatest 
trends that was most disturbing in the last election was the 
threat of denying our military men and women the opportunity to 
have their votes cast and counted, and so as we look for 
opportunities to provide online voting, I certainly think our 
military men and women serving overseas may be a great 
opportunity to do so.
    However, I understand one of the greatest issues we have to 
address with online voting is that it is vastly different from 
a commercial transaction, and that a commercial transaction we 
are allowed to know both ends of the transaction, where with a 
vote, I have to know that it is you sitting at that PC casting 
a vote, and I have to know how you voted so I can tabulate that 
vote, but I cannot know how you voted, to protect the integrity 
and the privacy of your vote, and until we can resolve that 
catch 22, I think we have to move very cautiously in online 
voting.
    Senator Wyden. Let us do this. Unless Ms. Cox wants to add 
something, I would like the Secretaries of State to get this 
Committee your ideas for some experiments, some additional 
experiments on online voting. I just do not want to see us give 
up at this point. A country that has shown again and again we 
can lead ought to be able, with this level of technological 
expertise, to develop secure online voting. Today, right now, 
there are millions of citizens who monitor their retirement 
benefits online. Let us not just give up. We need the expertise 
at the state level.
    I have a question for you, Mr. Bradbury. I think Oregonians 
like you strongly support a vote by mail, but there are 
concerns, and you addressed several of them. Senator Smith and 
I were concerned about what happened in his home county, 
Umatilla, this year, where thousands of voters had difficulty 
deciphering the ballots. You made some very good suggestions 
about what to do about that, but we also know that this year 
Oregon was one of the last states to verify its ballot count. I 
had a lot of folks asking me why that was, and I think it would 
be helpful for the record for you to state why.
    Mr. Bradbury. I think the first thing you have to 
understand about the presidential election in Oregon is that it 
was exceptionally close. There was a margin of 6,000 votes 
between Al Gore and George Bush. Additionally, there are no 
exit polls in Oregon because people are not exiting from any 
place but the mail box, so there are no exit polls the networks 
could use. The fact is we had more votes counted in Oregon by 
Friday after the election than we had seen at that time in 
previous polling place elections. It was just so close that we 
did not know who had won, until we got certified results.
    Senator Wyden. Ms. Cox, I believe you and the Secretaries 
of State are now in support of a uniform poll closing statute.
    Ms. Cox. I do not know that we have actually--our 
resolution did not actually adopt an endorsement for that, but 
everyone is very interested in it, and thinks it is an idea 
definitely worth considering.
    Senator Wyden. I am in support of this and have a lot of 
history with this issue. Several times in the eighties and 
nineties, I was able to get the major presidential candidates, 
their campaigns, to not make any statement until after the 
polls closed; Nonetheless, what we found again and again is 
that exit polls undermine the value of these projects, and it 
seems to me with the explosion of new media, that even with a 
uniform poll closing law you are going to continue, 
particularly in the West, to have a lot of Americans know a 
great deal about the results of the election before the polls 
close. What would you do about that?
    Ms. Cox. Well, I think that is one of those issues that is 
going to have to be dealt with primarily by the media 
themselves. I can tell you from personal experience in 
discussing the idea of a uniform closing time with different 
groups in Georgia, I see across-the-board support for it, even 
if it meant closing at 9 p.m. in Georgia so that you would 
close a little earlier on the West Coast. I think that 
Georgians, the Georgians I have discussed it with, think that 
is a very worthwhile idea.
    Senator Wyden. Do either of you want to add to that?
    Mr. Thornburgh. I may add very briefly there has been 
discussion with the National Association of Secretaries of 
State, and we are greatly concerned about the decline in voter 
turn-out in the West because of early projections, and I think 
we have moved in the area of media projections from actually 
reporting results on the East Coast to reporting projections 
and exit polling, and I think there is a vast difference 
between those, and if nothing else, we can negotiate with the 
media to at least talk about real results rather than 
projections.
    There is a 20 to 25-year history of the National 
Association of Secretaries of State negotiating with the 
national broadcasting entities and it has been met with less 
success than we had hoped for.
    Senator Wyden. Thank you, Mr. Chairman.
    The Chairman. Senator Burns.
    Senator Burns. I just have one question. In Montana we have 
six counties that use punch, none that use a lever any more, 12 
who use paper, and Mr. Thornburgh, don't laugh at Leoti, 
because I shift a lot of cattle to Tribune, and I am pretty 
familiar with that country out there--I think you are too. The 
Smiths out there are good friends--and the rest all use opti-
scan, which is about 80 percent of the voting people in Montana 
use that, and we have little or no complaints.
    I have one question. Given the experience in Florida, when 
a manual count was reordered and we observed on television 
these folks on hanging chads and ones that were pregnant and 
ones that were not pregnant, and all the different terms that 
they used, you said that your problem with the opti-scan, 
sometimes they were checked, Ms. Cox, and sometimes they put an 
X. Should a visual or manual recount be ordered? How would 
those X's and checks be counted?
    Ms. Cox. Well, I think that is the central problem raised 
by the United States Supreme Court's opinion, that Florida had 
no standard for what counted and what did not count. Georgia 
does not either, other than in Georgia you can only get a 
manual count by court order. You have got to prove there was 
some flaw, or some problem that should call for a manual count.
    But truthfully it sets up a scenario where you do have 
votes that are voided, when clearly anyone looking at it could 
easily determine the voter's intent, and we have a matter of 
court law that says you are supposed to determine a voter's 
intent, but yet we cannot manually count them.
    Senator Burns. Should a court order be issued? Now, you are 
the Secretary of State. How would you count that ballot that 
had a check or an X?
    Ms. Cox. Well, I certainly think the human intellect is 
generally superior to the machine intellect, and if a person 
can easily look at that ballot and determine without any 
question how the voter intended to vote, then I believe that 
vote should count, but we have set up a mechanism, because of 
growing populations, that we have depended on machinery that we 
now understand has great deficiencies.
    Senator Burns. The reason I ask that question, I think that 
was the crux of the stories out of Florida. It was not given, 
whether anybody was denied access to the polling places or the 
procedure in which they used--even the ballot that they said 
confused people, the butterfly ballot, second-graders got 
through it all right, so I would imagine everybody else could.
    I still think we still have some responsibility to the 
voter to be informed on how the ballot operates and what they 
want to do, but I was interested in your testimony that in the 
optics, and they did not fill in the circle, they used that, 
how would you count them if a court order, they had to be 
manually counted? I think that is the crux of this hearing, and 
the crux of the problems we have in our voting system.
    I thank you for that, and I appreciate it, and thank you, 
Mr. Chairman. That is the only question I have.
    The Chairman. Thank you.
    Senator Cleland.
    Senator Cleland. Thank you very much, Mr. Chairman. May I 
just say before I get started that I would like to enter into 
the record the statement of Senator Jean Carnahan, who had 
another committee meeting, with no objection.
    The Chairman. Without objection.
    [The prepared statement of Senator Carnahan follows:]

  Prepared Statement of Hon. Jean Carnahan, U.S. Senator from Missouri

    Thank you Senator McCain and Senator Hollings for convening these 
hearing on this most important subject.
    Voting is a fundamental right of Americans, and one of the 
cornerstones of our nation's democracy.
    In the 1964 decision Reynolds v. Sims, Chief Justice Earl Warren 
wrote, ``The right to vote freely for the candidate of one's choice is 
of the essence of a democratic society, and any restrictions on that 
right strike at the heart of representative government.''
    It is as true today as it was then. Yet, as we learned in November, 
our democracy remains a work in progress.
    We are all familiar with what happened in Florida:

  <bullet> Outdated voting machines and confusing ballots;

  <bullet> Too few poll workers with too little training.

  <bullet> Voters who ruined their ballots and were denied 
        replacements.

  <bullet> Reports of voter intimidation and police checkpoints set up 
        near voting precincts.

    We saw what could go wrong in Florida. But the truth is, it could 
have happened anywhere.
    So we should take this rare opportunity, when the public is focused 
on election issues, to strengthen our democracy. Our voting procedures 
and equipment need to be brought into the 21st century.
    Our Secretary of State, Matt Blunt, has created a special 
commission to lead Missouri's election reform effort. But we need 
national leadership as well.
    The Constitution calls for a decentralized system that puts states 
in charge of elections. But the federal government can do more to 
encourage and empower states to improve the voting process.
    As we move forward, I ask that we look closely at critical issues, 
including:

  <bullet> Implementing uniform statewide standards;

  <bullet> Upgrading current election systems and technology;

  <bullet> Increasing voter education;

  <bullet> Improving voter access and procedures for disabled voters; 
        and

  <bullet> Protecting the voting rights of our nation's military 
        personnel.

    This is not a partisan issue. Many of the proposals from 
Republicans and Democrats are very similar. We can agree on the need 
for experts to study the problems and recommend solutions. We can agree 
on increased funding for state and local governments to modernize 
voting equipment. And I am optimistic that we can find even more common 
ground.
    We need to approach this issue thoughtfully but expeditiously. A 
study should inform our actions, not delay our actions.
    Our goal is not just to fix voting machines, but to restore faith 
in our democratic system. Because ultimately, our democracy depends on 
public confidence in our elections. If we want a healthy democracy--an 
example for all the world--we must act together in the spirit of 
bipartisanship to ensure that the mistakes of the past are not 
repeated.
    I thank my colleagues, and I have a number of questions for the 
Secretaries of State who are here today.

    Senator Cleland. Mr. Chairman, I might say that a lot of my 
preconceived notions about technology solving our problems have 
just been exploded today. It crashed and burned. Not only is 
Thomas Edison's basic lever system of voting, invented in 1900, 
looking better and better, but the paper ballot is looking 
better and better. It may be that we are tackling the ultimate 
question here, is technology and the implementation of 
technology doing us a favor, or are we being rendered a 
disservice?
    Additionally, if you look at that map which my staff has 
assembled, we have the most incredible crazy quilt pattern of 
voting technology, or the lack thereof, throughout America.
    May I say that I have reviewed the McCain-Hollings American 
Voting Standards Technology Act, which directs the National 
Institute on Standards and Technology to develop voluntary 
standards for the voting process and provides grants for the 
states to rehabilitate voting equipment and strengthen voter 
education. There is no question about the need for this, and I 
am proud to be a cosponsor of this legislation, Mr. Chairman.
    Today, I would like to introduce my own bill, the Make 
Every Vote Count Act, to help states and localities modernize 
voting systems, promote uniformity in voting systems within 
states, and require greater standardization in voting rights 
for our military personnel. I am on the Armed Services 
Committee, and certainly we ought to make sure that those who 
fight to defend the ballot ought to have total access to it.
    My legislation creates a federal block grant for 
replacement of the punch card voting system. If you look at the 
map, some 34 percent of all the precincts in America use the 
punch card system. About 19 percent of precincts use the lever 
system, again, invented by Thomas Edison in 1900, and about 2 
percent use the paper ballots. The real question is, how are we 
able to use technology today to help our voting system?
    I was actually shocked by my dear friend Cathy Cox, who is 
the distinguished Secretary of State in Georgia, who stated 
that under certain circumstances with minority populations in 
Georgia, the opti-scan equipment is not a plus, but a minus. My 
understanding is, if you do not have a majority of minority 
citizens using that equipment, it actually tends to be a plus. 
There are certain counties like Wynett and Cobb that have a low 
undercount rate vis-a-vis larger counties like Fulton and Kalb 
that have the punch card system which has a higher undercount 
rate.
    So, I am sensing that there is no real silver bullet here 
which is one reason I am introducing this legislation. We want 
to allow, as Mr. Hutchinson said from the House, flexibility at 
the state level, but states, I think our panelists have agreed, 
need some federal funds to get on with the business of squaring 
away our voting equipment.
    I just want to say again that Ms. Cathy Cox has done a 
benchmark piece of work here not only for Georgia but for our 
Nation. Her study of the Georgia elections, a wake-up call for 
reform and change, highlights the most serious problems 
experienced last November. We have got to move on from a failed 
system where certain citizens, up to 10 to 15 percent in my own 
state, based on the voting equipment they were using, were 
actually being denied the right to have their vote count.
    And, of course, I do believe personally it is time to 
provide a knock-out punch to the punch card system. I will say 
that Senator Schumer probably hit it on the head that the 
oldest democracy in the world does not need to constantly 
depend on the oldest voting equipment in the world to exercise 
that democratic right.
    Ms. Cox, tell me now, where are we? I thought that the 
punch card ballot system, which was introduced in the sixties 
in my own home county--Mr. Bradbury, I have gone through that 
awful trauma of trying to vote absentee with a punch card which 
was backed up by some little piece of styrofoam, and included 
in the mail with some stylus. I just want you to know, I 
punched the dickens out of those holes to try to make sure my 
vote counted. And then, when I put it in the mail, I still was 
not sure. That is my home county, the second biggest county in 
Georgia where that system has been in place since the mid-
sixties. When it was first introduced, it created havoc in a 
congressional election. There were 1,200 overvotes, and the 
congressional winner was thrown out of office and the other 
person won. You could clearly determine the intent of the 
voter, but as you ran the punch card through, it was easy to 
see that you could vote twice. You could, in effect, defeat the 
system, and that is what worries me about the punch card 
system.
    And now, Ms. Cox, about the optical scan system that you 
can defeat. At least with the Thomas Edison voting equipment it 
was programmed correctly. You could only vote once for a 
candidate in a particular election. Yet, with the optical scan 
equipment and the punch card system, you can vote once, you can 
vote twice, you can vote wrong, or you can vote and have it not 
counted. So Ms. Cox, we are in a thicket here. Lead us out of 
it. Give us your recommendations.
    Ms. Cox. Well, we are somewhat in a thicket, but there is 
so much better equipment available today, various variations of 
electronic equipment that are almost electronic lever machines, 
will prevent you from ever overvoting, just like the lever 
machine, if properly set up, would not allow you to overvote.
    Lots of the electronic equipment on the market today is 
almost as foolproof as you could probably make a voting 
machine. It minimizes, I think to the great extent possible, 
the opportunity for a voter to make an innocent mistake. It 
will not allow you to overvote, and it gives you some of the 
feedback that you have never been able to get from voting 
equipment before. After you vote the whole ballot, most of 
these systems will pull up a screen that says, these are all of 
your choices, are these correct, in case you made a mistake.
    You have a chance, in the privacy of that voting booth, to 
correct those mistakes, rather than opti-scan, which at best 
you go put it into a counting machine and it kicks it back. 
Someone may have to violate the privacy of your ballot to tell 
you that you made a mistake, and then you have got to go back 
and delay the process by going back to the voting booth.
    That is why I like the electronic equipment, and our 
election reform bill in Georgia is actually going to be voted 
on by the Georgia Senate today, so I am hopeful things are 
going well back in Atlanta, but we are hoping to experiment 
with some of the electronic equipment in some city elections 
this November and the legislature has funded that pilot project 
for us already, and we are hoping to put together a bipartisan 
commission that will view all of the different types of 
equipment out there, hopefully with bills like yours and 
Senator McCain's and other pending bills that may give us some 
evaluation of all of this equipment on a national level.
    This time next year, we hope to implement one of these 
types of electronic systems state-wide in Georgia over a 2 to 
3-year period, so we have it in place in every county by the 
next presidential election.
    Senator Cleland. Thank you very much for your service. 
Thank you for your study and your insight. We will depend upon 
wonderful people like you and our panelists to lead us forward.
    Speaking of the Georgia Senate in closing, I had the 
pleasure of serving there at one time. Jimmy Carter said that 
when he went to the State Senate in 1962 the first bill that he 
saw debated on the Senate floor was that you could not vote in 
Georgia if you had been dead longer than 3 years, so we have 
come a long way.
    Thank you very much, Mr. Chairman.
    The Chairman. Senator Smith.

                STATEMENT OF HON. GORDON SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman, ladies and 
gentlemen. Thank you, Bill. It is particularly good to have you 
here. I apologize, I was called to another committee and a 
commitment I could not avoid, but I have read your testimony, 
and I appreciate that you would come here to provide it.
    Senator Wyden, I think, asked my first question, which is 
really a concern. I voted last night in a local election in 
Oregon at home. We have these punch-out ballots, and I must 
tell you, when I saw Florida's difficulties I almost envied the 
simplicity of their butterfly ballots, which were roundly 
criticized but those are much easier than what we have in 
Umatilla County. I wonder if you have identified an approach 
for vote-by-mail that is more user-friendly?
    Mr. Bradbury. It is clear to me that the optical scan 
system is more user-friendly for vote-by-mail than the punch 
card, because the punch card, as you said, is really quite a 
challenge for Oregon voters. By voting at home rather than in a 
voting booth, the voter is trying to find hole number 61 to 
vote no on measure 62. It is very difficult, and I think it 
leads to voter confusion. We have statistics, actually, that 
run a little bit counter to Secretary of State Cox's, in that 
our statistics would show that 1 percent of the optical scan 
ballots are undercounts for President, and 2 percent of the 
punch card ballots are undercount for President. It just seems 
to go a little different way state by state.
    Senator Smith. As I look at this map, there are just a few 
states, or a few counties in Oregon that have punch-outs, and I 
guess what I am wondering is, was there any increase in the 
number of votes thrown out this time, and were they identified 
in particular counties? Do you have the ability to tell us 
that?
    Mr. Bradbury. I can tell you that the undervote for 
President was 1 percent in optical scan counties, and in the 
seven counties that use punch cards it was 2 percent, so it was 
twice as high.
    Senator Smith. That is probably just a function of the 
machine. I mean, every chad I punched last night I had to tear 
off afterwards, every one of them, and I can only imagine that 
a lot of the undervotes came from my county.
    How many people total voted in the election?
    Mr. Bradbury. 1.6 million ballots.
    Senator Smith. And how many ballots were thrown out?
    Mr. Bradbury. I do not think I have that statistic. Not 
very many ballots are thrown out in Oregon, because every 
ballot is pre-screened by a bipartisan election board that is, 
in fact, bipartisan. Our election boards have four members, two 
from each major party, not three members, like Florida. We have 
chad patrols in punch card counties that clear off the hanging 
chad before the ballots are put into the machine. I do not have 
the number you asked for, but I do not think it is very high.
    Senator Smith. Maybe you can provide it to me, but I 
believe I have heard a number of 29,000 ballots in the whole 
State of Oregon, and I would hate to think, in an election as 
close as that was, that I was one of those 29,000. I am 
wondering if you can give me an update on the central data 
system that you are seeking? Is the legislature going to be 
forthcoming with the money?
    Mr. Bradbury. I think that is the issue. It will cost $6 
million for Oregon to have a centralized voter registration 
system. What that system would do is network the 36 county 
systems into a virtual state-wide file. Getting $6 million to 
do that is going to be a very tough thing to get out of a 
legislature where clearly that money is going to come from K 
through 12, or higher education, or health care.
    Senator Smith. If you need any help lobbying them, let me 
know, because I will be your ally on that, because I cannot 
think of anything more important to our state government than 
having confidence in the integrity of our electoral system. I 
think there are a lot of people who really want to feel more 
comfort than they currently do.
    If you were to predict where we will go with vote by mail, 
will it be to opti-scan? If one of these bills passes, is that 
where we will go as a state?
    Mr. Bradbury. Well, I think it is going to be really 
important that the legislation not mandate where we go, and I 
think that technology needs to have an opportunity to improve. 
It is clear to me that there is bipartisan support in Oregon as 
well as there is apparently bipartisan support here in Congress 
to do away with punch cards. When that happens, I think we are 
very likely to move to an optical scan system as it is really 
the only other system that is currently available in commercial 
quantity.
    Senator Smith. It seems clear to me the bills that are 
before you would not pay for the data bank that Oregon 
desperately needs, but I think the state just needs to do that 
on its own, but on the other hand, converting to this other 
system, at what percentage, what share do you think would be 
fair between a federal and a state match? Is it 50-50, 75-25?
    Mr. Bradbury. As I said in my testimony, we can move faster 
with a higher federal match, more in the range of 75-25. We 
could clearly get things done more quickly so that the reform 
is completed before the next presidential election.
    Senator Smith. I am on a bill that is 75-25. I am delighted 
to hear that.
    Thank you, Mr. Chairman.
    The Chairman. Senator Boxer.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you very much, Mr. Chairman, and my 
colleagues. Mr. Chairman, I really do want to thank you and add 
my voice. You have started to look at this, and it is not a 
pretty picture. There is no clear answer. That is why it is a 
little painstaking, but I think we really need to look at this.
    I have a few comments. First, I would ask unanimous consent 
that my statement be placed in the record.
    [The prepared statement of Senator Boxer follows:]

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California

    Mr. Chairman, thank you for holding this hearing today to explore 
ways that we, as elected officials in Congress, can help make sure that 
every person's vote counts in this country. Last year's election opened 
all of our eyes to the fact that our election system, while designed to 
give each person the ability to cast a vote, often fails in part 
because of antiquated voting equipment and confusing ballots.
    While no system will ever be perfect, we should make it a top 
priority that no voter be disenfranchised, as they were in Florida this 
past November. Looking at how new technologies can help in this effort 
is a great start. We certainly need to know how the different voting 
systems impact voter turnout and election results.
    In fact, last November after the election, I asked GAO to study how 
various voting and balloting systems compare in terms of fraud, error 
rates and other voting irregularities. I also asked them to discuss the 
feasibility of voting on the Internet, and whether such a system would 
be more or less susceptible to these problems. GAO plans to complete 
this report by the summer.
    Since we are talking today about the range of voting technologies 
currently available, I am pleased to report that in the 2000 election, 
Riverside County in my home state of California acted as a test bed for 
a new high-tech computerized touch-screen voting system. This system 
proved to be very user friendly and was able to tally its votes in 
record time, with a high degree of accuracy. I actually heard stories 
from some of my elderly constituents, that while they were nervous 
before using these new computer voting systems, they left the polls 
raving about how easy these new machines were to use.
    Again, I am very pleased that we are looking at how new technology 
can help our election system, but we should also keep in mind that old 
voting machines and ``butterfly'' ballots are only part of the problem. 
We must also look closely at other factors that affect our election 
process such as how states educate people manning the polls and whether 
voters understand the registration process. Recruiting qualified poll 
workers, and making sure they are trained, is difficult for local 
authorities to do and yet a crucial component of whether any system 
works. Simplifying the registration process, as we did with the Motor- 
Voter Act in 1993, is also essential if we truly want our consitituents 
to exercise their right to vote.
    Mr. Chairman, we are now truly living in the information age, and I 
hope that we do whatever we can to encourage the innovation and use of 
technology that makes it easier to vote, reduces fraud, ensures the 
privacy of voters and, most of all, guarantees that all votes count.

    Senator Boxer. On November 15, I wrote a letter to David 
Walker, Comptroller General of the U.S., and asked the GAO to 
do a report and an analysis of what happened Nation-wide. I 
have asked them to look at the various voting and balloting 
systems. We have a preliminary analysis of that here today, but 
not from the GAO. I think the private sector did this 
comparison of the results of those systems. Today, we are 
hearing, Mr. Chairman, contrasting views. Ms. Cox is saying the 
opti-scan is worse than the punch cards, Mr. Bradbury is saying 
punch cards are worse, and Mr. Thornburgh is saying, don't 
worry, be happy, essentially.
    So, I want to see what really happened, an analysis of 
which system appears to operate more efficiently, and the 
feasibility of voting on the Internet, in which my friend Ron 
Wyden and I really agree upon. We should not just say no. We 
have got to look at Internet voting.
    Mr. Chairman, you may not be aware of this, and frankly I 
was not until after the election, that in my home state, 
Riverside acted as a test bed for a new high tech, computerized 
touch-screen voting system in the last election.
    The system, just the first analysis of it, proved to be 
very user-friendly and was able to tally its votes in record 
time with a high degree of accuracy. I actually heard stories 
from elderly constituents who were really very nervous about it 
who later raved about it. They were ready to surf the net when 
they walked out of the polling place. However, I worry about, 
being from California, power outages and things like that 
compromising the system, but these are problems we may be able 
to meet quickly.
    Of course, the Chairman is very familiar with California, 
and I'm glad that he will be there on Monday to promote 
campaign finance reform.
    Let me go through a few more points. I wish Senator Burns 
was here, because I think he really minimized the problems in 
Florida. I think if you listen to Jeb Bush and Carrie Meeks, 
you hear that these are serious problems that had to do with 
ballot design and people being stopped and not being able to 
vote; people being purged. As Ms. Cox points out, there was no 
standard for recount. I think Senator Burns made the point that 
these recounts do not work, and Ms. Cox debated him.
    I think we should take a look at Washington State. There 
was a major recount in our Senate race there and nobody 
complained about it. I would say this, let us take the case of 
a presidential election and use our chairman as an example. 
Using an opti-scan system, a very enthusiastic McCain voter 
walks in and uses the pencil and fills in the dot next to John 
McCain. Then, not being terribly sophisticated, perhaps not 
educated they see write-in, and get really excited and write in 
John McCain. So they voted essentially twice for John McCain, 
the same person. This happened in the election to John McCain; 
it happened to George Bush; it happened to Al Gore. Those 
ballots get thrown out.
    Now, it does not take a master's degree in poli-sci to know 
that that person wanted to vote, in this case, for John McCain. 
It is not as complicated as figuring out a chad. You could 
pretty well say that is a vote for John McCain. I think to just 
say that manual recounts do not work is not the case. It seemed 
to work well in Washington.
    I do believe in the wisdom of people. The makers of the 
machines, Mr. Chairman, said themselves that the machines 
certainly are not perfect, and that people are an important 
check. That was testimony in one of the court hearings.
    So, I guess what I want to say is, to Ms. Cox perhaps, or 
any of the panelists here, what if we did not have write-in on 
that same piece of paper? I think it is confusing. What if we 
just said, this is the opti-scan ballot, and on the way out 
people are asked, would you like to vote for someone else who 
was not on the ballot? Then, you stopped and did that. It is a 
thought, but it seems to me thousands of ballots were thrown 
out as being overcast. Can you envision any type of fail-safe 
system where you could remove that, because it is very few 
people that do write in, and perhaps they could have another 
way to do that.
    Ms. Cox, could you comment on that idea?
    Ms. Cox. Senator Boxer, I believe there is some kind of 
opti-scan system where the write-in line is not under each 
race. It is perhaps at the end of the entire ballot, a section 
to write in. It is a little more difficult for the voter to 
connect that back up with a Senate race, or a state legislative 
race, but it does probably minimize the chance for that gung-ho 
voter to write in the same name, and we had numerous votes 
where we heard about that were exactly what you described 
happened.
    Senator Boxer. So, you think it would be an immediate 
improvement just have it boxed off and print do not write in 
here unless you did not vote for one? I am concerned. Any other 
comments?
    Mr. Bradbury. Well, Senator Boxer, in Oregon, the provision 
we have is that a bipartisan election board with four members, 
two Democrats and two Republicans, look at the ballot to 
determine voter intent before it is counted. If it is rejected 
by the machine that ballot is looked at again, and it is 
usually very easy to determine the voter's intent. Like the 
case you just outlined, where they punched John McCain and 
wrote in John McCain, that that person wanted to vote for John 
McCain.
    Senator Boxer. In Ms. Cox's case, she has to get a court 
order, as I understand it, to deal with that. I see my time is 
up. Can I conclude with this: I just wanted to say--I did not 
mean to cut you off, Mr. Thornburgh, on that question, but my 
time is up.
    I just wanted to comment on your statement, and I wrote it 
down, that there was a peaceful transition of power and nothing 
is really that broken. You said it was a successful election. I 
would just like to say, the fact that there was a peaceful 
transition of power is a credit to our people, and our people 
are amazing. However, I would have to report to you that there 
was deep discontent among many people after that election, much 
more aimed at the system in terms of the outdated modes than 
the early projections, which people were annoyed about. In the 
end, what counts is who voted, and the fact that all of those 
millions of votes were not counted. I do not mean to in any way 
misinterpret your comments, because you did say we have work to 
do. However, I just want to leave you just with this Senator 
saying that I am not as complacent about the way this thing 
ended, and I think that we must act. It is going to be hard, 
but with the leadership of our Chairman and others, I think we 
will be able to do something.
    Thank you very much.
    The Chairman. Thank you very much. Senator Allen.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman, first and foremost 
for holding this very timely and appropriate hearing, and there 
are few issues, as far as our democratic republic, as 
important--nothing is more important than the right of 
citizens, legally qualified citizens in our republic to vote 
under an electoral system that is as fair and as accurate as 
possible.
    Any system, we want to make it as fair and accurate as 
possible and, as I was listening to all the different ways that 
people were fiddling around with whether it is punch card 
ballots or the lever action ballots or paper ballots, any 
system is only as verifiable and credible as the people who are 
administering it, and it is important to have people from both 
sides, from all parties involved in the matter.
    My first election where I won, I won by 25 votes and was 
subject to a recount and had all sorts of these different types 
of machines and ways being utilized, from paper ballots, where 
the great worry was with paper ballots they would just throw 
out the ones that are hand-counted, and they have always more 
ballots than there are voters, and then they just could stick 
those in. No one cheated, nothing was wrong with it, but that 
had happened. On voting machines with the levers, there are 
places in Virginia where people went to jail where there were 
more people voting on machines than there were registered 
voters. That is how they caught them. They just got over-
zealous in it.
    Now, for any citizen to believe, or wonder, as Senator 
Smith was wondering, whether his or her vote would not be 
counted, I think the sanctity of the ballot box and the system 
would work. If there is any question on that, I think it 
undermines the foundation upon which our government rests and 
stands, and I think any such ineptitude that we have seen and 
worry about, any ineptitude in properly administrating free 
elections I think can undermine the respect for and the 
legitimacy of the government of the people.
    Now, I would like to use this time to raise the issue of 
uncounted military ballots. The absentee ballots from those who 
are serving, and the recent controversy in Florida, has brought 
to light a problem that has apparently existed for a long time.
    This is not something new that arose in this election, and 
it is little wonder that retired General Norman Schwartzkopf 
spoke out. He called it, quote, a very sad day for our country 
when servicemen and women find that, quote because of some 
technicality out of their control, they are denied the right to 
vote for the President of the United States, who will be their 
commander-in-chief.
    Now, in my view it is not only sad, it is outrageous, and I 
think it is wrong, and I would hope, Mr. Chairman, that this 
Committee could hold a hearing that will look into combining 
some modern communications technology such as the Internet and 
the military's encryption system to provide for electronic 
voting systems for military personnel, and I think that has 
been stated by both----
    Senator Wyden. Would the Senator yield without losing time? 
I just want to commend you for an idea that I want to work with 
you on.
    Senator Allen. Senator Allard from Colorado has a measure, 
and I think Senator Hutchison has signed on to it as well, and 
I would like to turn to our Secretaries of State on this issue 
of absentee military ballots.
    You observed, as I am sure we all did, the issues in 
Florida as far as ballots being counted or not counted for 
technical reasons, because of--such as a lack of a postmark. 
How would the absentee military ballots have been treated 
differently in your state, and we could start with Ms. Cox from 
Georgia.
    Ms. Cox. Thank you, Senator Allen. My understanding of the 
history, and I would stand to be corrected, is that back in the 
early 1990's the federal government made an effort to make sure 
that everyone in the military had about a 40-day window, 40 to 
50-day window to obtain absentee ballots.
    The states were given an option as to whether that 40 to 45 
days was fully in advance of Election Day, or whether some 
states like Florida would extend the time for receipt of those 
ballots 10 days beyond the Election Day, which is why the 
postmark became a critical issue in Florida. It is not a 
critical issue in Georgia, because our absentee ballots are 
available 45 days in advance, and they must be received by 
Election Day, so the post mark is really not an issue here.
    But for those states that opted--because Florida has a 
September primary, they would not have time to get absentee 
ballots ready early enough, they opted to use the 10-day-or-so 
window after the Election Day, so those ballots could still 
come in and be counted. Were the margin not so close, it really 
would never have come to light in Florida, but that military 
issue may be another issue that would be more appropriately 
addressed on the federal level than by individual states doing 
everything we can to maximize the opportunity of our military 
personnel to vote.
    Senator Allen. So in your situation in Georgia, in the 
event that somebody mails it off 3 weeks before the election, 
if it does not arrive by 7 o'clock, I assume, on Tuesday, 
election night, it is not counted?
    Ms. Cox. That is right.
    Senator Allen. Secretary Thornburgh.
    Mr. Thornburgh. Thank you, Senator Allen. I would suggest 
there are a couple of things we could look at. Kansas and 
Georgia, in that we require by law that all federal service 
ballots for military personnel and for American citizens living 
overseas must be sent 45 days prior to the election, all 
ballots have to be received by the close of polls on Election 
Day, and so the issue of the postmark does not come into play 
in the State of Kansas, either.
    However, there are still cases where I believe we need to 
make improvements, and that is, there are segments within the 
military community--for instance, submariners often take tours 
of more than 45 days. At that time, they simply do not have the 
capability of receiving the ballot. Special forces, access to a 
fax machine is rather limited in many instances in that case. I 
think we do have to develop the technology to allow electronic 
voting at a minimum within those segments of our military 
community, and within the entire military with overseas voting.
    Senator Allen. Mr. Bradbury.
    Mr. Bradbury. Oregon is very similar to the other states, 
in that we mail ballots to military personnel at least 45 days 
ahead of time, and they have to be in our hands by 8 p.m. 
Tuesday evening on Election Day.
    The other thing we do is, we put our entire voters' 
pamphlet online. Our voters really need a voters' pamphlet to 
understand some of the ballot measures. The online voters' 
pamphlet is available to overseas' personnel as well, and it is 
available when they get their ballot.
    Senator Allen. Thank you all, and thank you, Mr. 
Thornburgh, for your support of using new technologies. Thank 
you all.
    The Chairman. Senator Allen, I think we should vigorously 
pursue this proposal. I noticed a NSF report out today, which 
states that it is not secure to vote over the Internet. I am of 
the view that technology should solve most of the objections 
raised in this report.
    Senator Ensign.

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. Thank you, Mr. Chairman. I want to get your 
comments. I have been in a few close races in the last few 
years, including 1998, where my Senate race that I lost 
narrowly was a little over 400 votes, and if Nevada would have 
been the subject of scrutiny by the rest of the country, we 
would have been the embarrassment instead of Florida this year.
    We had literally all of the different types of voting 
machines. We had the optical scan units where we had the 
problem in Washoe County. I thought it was very interesting, 
here we have a map that has been prepared, and the map is not 
even accurate, because Clark County, where Las Vegas is, has 
the electronic ballots, and it is on this map, I think, as data 
votes, so the things that we talked about, or that we found 
out, and the lessons we learned I think can go a long way 
towards solving the problems in the rest of the country as 
well.
    One of the reasons that you hear about races like Senator 
Boxer talked about in Washington State, where there was a 
recount in the Senate race. Well, you did not really hear 
anything about that, there were not problems, sometimes that is 
not because there are not problems. Sometimes that is because 
the politics of it, you cannot say there are problems. That was 
certainly the case in my senate race. You just have to say, 
well, there were problems, but we have to go on and live 
another day, otherwise you would kill yourself politically.
    Well, in Washoe County what happened was that we had such 
severe problems there we ended up going through manual 
recounts, and the ballots were printed improperly, were 
slightly off, and so some would not go through the machines. 
Clark County, which is where Las Vegas is, has the Sequoia 
Pacific machines. Now, the problem with these Sequoia Pacific 
machines, they work beautifully, except when you go to do a 
recount, because you have no idea whether the machines 
malfunctioned, because there is no paper trail.
    It seems to me whatever we do, Mr. Chairman, as far as 
recommendations, that if you go to electronic machines, which I 
think really are the answer, it is the technology that you have 
to have some kind of a paper backup, not that the voter gets, 
because I know there are problems. You do not want people 
taking how they voted outside and then have somebody intimidate 
them, how did you vote, and then, prove it to me, but where it 
prints out in front of the voter and then it drops down into a 
box.
    And then if you are in a close race, you recount 1 percent, 
and if it looks like the machines have--randomly you do 1 
percent, and if the machines worked well, then you know they 
worked, and then you just let the machines recount, instead of 
doing a hand recount.
    That was, I think, the great lesson we learned, although we 
have not changed to this paper backup, and I hope we do that in 
our state. I know it is very expensive, especially for a lot of 
small counties, but I would like your comments on if you think 
that is the direction we need to go.
    Ms. Cox. Senator Ensign, in Clark County you have an 
undervote rate of 0.6 percent, 6/10ths of 1 percent, and you 
compare that to some counties in Georgia that had 15 percent 
undervote, that is why I really like this electronic 
technology. Some of the earlier versions did not have that 
independent audit trail. Most of the newer versions do, and in 
fact the legislation we are introducing in Georgia would 
require that any of the electronic systems have that 
independent verification system.
    Senator Ensign. Good.
    Mr. Thornburgh. Senator, I would agree there are certainly 
cases in this country where technology is the answer to the 
problems that lay before us. I would also recommend again that 
we do not forget about some of those issues as basic poll 
worker training and basic canvassing board training, creating 
uniform standards for recounts, creating uniform standards for 
canvassing. Those types of elements are going to be just as 
important as the technology is going to be as well.
    Mr. Bradbury. Senator, just to remind you, we do not use 
polling places any more in Oregon. We vote by mail, so if you 
set up an electronic system in a polling place, that does not 
address the issue for us.
    Senator Ensign. I realize Oregon is a completely different 
animal in a lot of ways, but certainly in the voting.
    Mr. Chairman, I would also like to express--one of the 
other things we have found in Nevada that works very 
successfully, although I think they do it too early, is we have 
something called early voting. Early voting was started three 
election cycles ago, and they do it 2 weeks ahead of time, and 
they set it up in the shopping malls, at DMV, at various places 
around the state, and the citizens love it. They love it so 
much, almost half of the vote now is done early, and that is so 
convenient. I voted early this year. 2 weeks is maybe too early 
because a lot of things can happen in those last 2 weeks in an 
election. It is probably too early, but a week in advance is 
probably a pretty good idea.
    As far as the absentee ballots between electronic balloting 
and everything, our polls close at 7 o'clock. By 7:30 we know 
almost every race in our state, and even the presidential race, 
which was only a 2-percentage point difference in Nevada this 
year, we knew that by 8:30, so there are some things that are 
working out there. Our system is certainly not perfect by any 
stretch of the imagination in Nevada, but we learned some 
lessons in 1998 that I think have helped us, but I think every 
state has a long way to go in reforming the election process.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Ensign.
    Before dismissing the panel, I want to thank you for your 
efforts to identify the problems with the low voter turnout 
amongst young Americans. I hope you will continue your efforts 
to identify ways in which we can motivate them to be involved 
in the political process. Even though there was fairly good 
turnout this time, there was still very low voter turnout among 
younger Americans. We look forward to working with you in the 
future. I thank the panel.
    Our next panel will consist of Mr. John Bollinger, deputy 
executive director, Paralyzed Veterans of America, Mr. Wade 
Henderson, executive director, Leadership Conference on Civil 
Rights, Ms. Mary Jane O'Gara, board member of the AARP, and Mr. 
Raul Yzaguirre, president, National Council of La Raza. Please 
come up to the table.
    Mr. Bollinger, will you please begin?

  STATEMENT OF JOHN C. BOLLINGER, DEPUTY EXECUTIVE DIRECTOR, 
                 PARALYZED VETERANS OF AMERICA

    Mr. Bollinger. Thank you, Mr. Chairman. Good morning. Thank 
you very much for asking the Paralyzed Veterans of America to 
testify at what we believe to be an extremely important 
hearing.
    Virtually all of our members use wheelchairs, so over the 
years we have become acutely and sometimes painfully aware of 
some of the accessibility issues involved in voting, and I will 
focus my comments this morning on accessibility for people with 
disabilities as it pertains to voting.
    The community of people with disabilities is both large in 
number and broad in scope. In terms of the various kinds of 
disabilities, obviously, beyond mobility impairments there are 
cognitive impairments, speech, hearing, dexterity, vision, and 
there are subcategories of all those, so whatever election 
reform is considered, first and foremost it has got to be 
inclusive, I believe, of all of those disabilities.
    PVA has worked very closely with your staff in regards to 
S. 511 in the 106th Congress. While the introduction of that 
bill led to efforts to voluntarily improve access to voting for 
people with disabilities, we believe it is time for even 
stronger efforts. Being able to vote, it has been said a number 
of times this morning, is one of the most basic and important 
rights we have as citizens, and to think that anyone would be 
unable to vote simply because the voting booth or the place of 
polling is not accessible is something that I believe should 
have zero tolerance.
    In trying to exercise the right to vote, people with 
disabilities face structural, technological, and attitudinal 
barriers. The Voting Accessibility for the Elderly and 
Handicapped Act of 1984 requires polling places and 
registration facilities to be physically accessible to all 
people with disabilities. Between 1986 and 1992, the Federal 
Election Commission collected data on accessibility through 
self-reporting by local jurisdictions. Physical barriers 
include lack of accessible parking, unramped stairs, raised 
thresholds, and lack of directional signage.
    At an oversight hearing in 1994, the FEC reported that for 
the 1992 general election 14 percent, or close to 20,000 
polling places, were physically inaccessible to people with 
disabilities. Physical accessibility continued to be a problem 
in the 1998 elections. In a project involving close to 400 
people in 40 states who offered first-hand accounts of their 
experiences, we discovered that 11 percent reported locations 
with no accessible path of travel, 42 percent reported no 
accessible voting booths, and inability to use standard booths.
    This report also indicated a tremendous problem for voters 
who are blind or visually impaired. 81 percent had to rely on 
others to mark the ballot for them.
    Just last year, in February of 2000, the federal court in 
New York found that two counties every polling place except one 
was physically inaccessible. In March of 2000, the Philadelphia 
City Paper reported that over 1,200 of their 1,681 polling 
places in Philadelphia were physically inaccessible to voters 
with disabilities.
    Voters who are blind or visually impaired may gain access 
to the facility only to be denied the ability to vote privately 
and independently, and I can speak personally in my case. I can 
have access to our voting facility, but I do not have 
independence. I do not have privacy when I cast my vote.
    We believe that comprehensive voting system standards that 
include accessibility of design for people with disabilities 
are definitely needed. So many years after the Voting Rights 
Act, the Voting Accessibility Act, and the ADA, the purchase 
and use of new equipment that is not accessible to all is 
simply unacceptable.
    Many proposals to reform the electoral process are 
currently before this Congress, and we hope that reform will 
certainly be enacted, and we hope it will be done in time for 
the 2002 elections, and whether this reform is comprised of 
grants to purchase new voting technology, or the development of 
voting systems, it must address full access to voters with 
disabilities.
    We request that any reform legislation include development 
of accessibility guidelines. S. 511 proposed that the access 
board develop minimum guidelines, and we strongly encourage 
that this Committee include such a provision.
    In closing, I ask that as you consider all of this, 
Congress take into account all people with disabilities who 
have the right to vote. Do not allow this opportunity to pass 
without addressing the needs of so many American citizens who 
deserve to be heard, and I would offer not only in the case of 
PVA, but I know many disability organizations across the 
country will be more than happy to assist in a number of ways 
as we go down this road, so thank you for your efforts. We look 
forward to working with you.
    [The prepared statement of Mr. Bollinger follows:]

  Prepared Statement of John C. Bollinger, Deputy Executive Director, 
                     Paralyzed Veterans of America

    Mr. Chairman, Senator Hollings, Members of the Committee on 
Commerce, Science and Transportation, it is an honor and privilege for 
me to appear here today on behalf of the Paralyzed Veterans of America 
(PVA). I am John C. Bollinger, Deputy Executive Director of PVA. PVA is 
a Congressionally chartered Veterans Service Organization with over 
20,000 members. Our members are honorably discharged veterans of the 
United States Armed Services who have incurred spinal cord injury or 
disease resulting in paralysis. Virtually all of our members use 
wheelchairs for mobility and all are individuals with disabilities as 
defined by the Americans with Disabilities Act (ADA).
    Today's hearing is timely, as complications in the 2000 elections 
led to this Congressional call for election reform. Many citizens, 
including voters with disabilities, felt that because of outdated 
voting machines and ballot confusion, their votes were not counted. 
This Committee must ensure that all voters, including those with 
disabilities, have access to an effective voting process.
    PVA has a long history of advocating for the right to vote. Our 
members know first hand, as do all veterans who served our country, the 
sacrifices that must be made to safe guard our democracy. We ask now 
that members of this Committee ensure that PVA members and others with 
disabilities are able to vote with the same privacy, dignity and 
independence as all other Americans.
    PVA last testified in 1994 before the then House Subcommittee on 
Elections on the final oversight hearing of the Voting Accessibility 
Act of 1984 (VAA). This Act's intent was to improve access to voting 
for people with physical disabilities by removing architectural 
barriers at polling places and voter registration facilities. But ten 
years later, the Federal Election Commission (FEC) testified at that 
hearing, ``14 percent of the precincts, close to 20,000 polling places, 
were physically inaccessible to voters with disabilities.'' This 
statistic represents serious disenfranchisement of thousands of voters 
with physical disabilities. The primary barriers noted were lack of 
accessible parking, inadequate directional signage, unramped stairs, 
and high thresholds--all barriers that are not difficult or expensive 
to remove. In PVA's testimony, we recommended that the FEC continue to 
monitor the progress of compliance with VAA and, with technical 
assistance from the Access Board, develop standards for access.
    Mr. Chairman, during the 106th Congress, you introduced legislation 
to eliminate barriers that people with disabilities face in the 
electoral process. The bill, S. 511, would have expanded the coverage 
of the Elderly and Handicapped Voting Accessibility Act of 1984 so that 
all people with disabilities were protected from discrimination. It 
states that all polling places are to be physically accessible, and 
that all polling methods permit individuals who are blind or visually 
impaired to vote independently. S. 511 directed the Access Board to 
develop minimum guidelines for states to determine accessible standards 
in polling places and methods. Enforcement provisions of the Act 
designated State Chief Election Officers as the party responsible for 
ensuring compliance with the Act. PVA worked closely with your staff to 
sculpt this legislation and we stand ready to work with you on 
introduction of similar legislation in the 107th Congress.
    The introduction of S. 511 seemed to be a ``wake up call'' to the 
election community about their responsibilities to provide access to 
voters with disabilities. As a result the ``National Task Force on 
Elections Accessibility'' was formed. Lee Page, Associate Advocacy 
Director for PVA, and Gary Bartlett, Chief Election Officer for the 
State Board of Elections of North Carolina, co-chaired the task force 
for the last two years. The task force, through collaboration of 
election officials and disability advocates, produced tools to better 
educate election officials on the requirements of the Voting 
Accessibility Act and the Americans with Disabilities Act (ADA.)
    The Task Force published the guidebook ``Voting: A Constitutional 
Right for All Citizens'' to assist election officials to achieve equal 
access for all citizens. This report is based on a document originally 
published in 1986 by the National Organization on Disability. The 
guidebook lists the goals and principles of the National Task Force, 
which were jointly agreed upon by election officials and disability 
advocates. The primary principle states that voters with and without 
disabilities are equally entitled to the right to full participation in 
elections and to the privilege of casting their votes privately and 
independently. Further, no polling place in the United States should be 
physically inaccessible to voters with disabilities. The task force 
also produced a ``best practices'' checklist to identify barriers at 
the polling place and an instructional video CD-Rom that identifies 
attitudinal barriers that discourage people with disabilities from 
voting.
    Despite these voluntary efforts, barriers continue to prevent 
qualified people with disabilities from voting. In the 1996 election, 
11.6 million Americans with disabilities (of 35 million registered) did 
vote. In that election, 50 percent of the general population voted, 
while only 30 percent of registered voters with disabilities actually 
voted. While some reasons for the low turnout are beyond the control of 
voting officials, e.g., a dependence on public transportation and voter 
apathy, structural, technological and attitudinal barriers likely 
contribute to the 20 percent deficiency in voting by people with 
disabilities.
    In 1999, PVA helped coordinate the Report of the National Voter 
Independence Project as a member of the Coalition for Accessible 
Political Elections. This report provides anecdotal reports from 377 
voters with disabilities in 40 states of barriers they encountered in 
the November 1998 elections. The survey focused primarily on aspects of 
accessibility, the overall experience in voting, and whether 
respondents had any difficulty in registering to vote. Eleven percent 
reported locations with no accessible path to the facility. Forty-two 
percent reported no accessible voting booths and inability to use 
standard booths. This report also indicates a tremendous problem for 
voters who are blind or visually impaired--81 percent had to rely on 
others to mark their ballot for them. The report concludes that, to 
achieve equal access, all polling places need to be physically 
accessible to all people with disabilities, and voters who are blind or 
visually impaired must be able to vote independently and 
confidentially. Mr. Chairman, I request that this report and other 
related documents be included in the record.
    Only a year ago, in February 2000, a federal court in New York 
State found that in two counties every polling place except one was 
physically inaccessible. In March 2000, the Philadelphia City Paper 
reported that 1231 (73 percent) of the 1681 polling places in 
Philadelphia were physically inaccessible to voters with disabilities.
    Information from the 2000 Presidential election relating to access 
is only anecdotal at this point. But just a few examples demonstrate 
barriers that existed only a few months ago. A citizen in Mansfield, 
Ohio reports, ``There is no accessible path at my polling place. . . . 
I have had to vote outside because I am a paraplegic and could not get 
in the door. But this was only after `making a fuss' to the point where 
law enforcement was called because poll workers would not bring a 
ballot out to me in the snow (just outside the door) so I could vote . 
. . Voting in Ohio has been a horrible experience for me ever since I 
moved here.'' From Oakland, California, ``The polling place is up a 
driveway with uneven pavement and grass and bumps. The actual place is 
in a garage, and there were no booths at the right height for a person 
in a wheelchair or scooter. So I had to ask my personal care attendant 
to go into the inaccessible booth for me, and I had to tell her my 
choices from outside the booth. I was not happy about it because it did 
not give me my privacy or independence.'' In Allentown, Pennsylvania, 
``It is degrading and humiliating to have one of the officials go in 
the booth with you and then speak real loud so everyone in the room and 
waiting line can hear her announce each candidate. Even though I 
whisper my answers I feel very `exposed.' I have asked for 
consideration in this to no avail. The official in charge . . . now 
remembers my name, and says real loud, `You are legally blind, right?' 
There is no attempt at privacy or dignity at all . . . Yet, I refuse to 
be bullied into accepting an absentee ballot and not be able to vote 
with the mainstream.'' In Orange Park, Florida, ``The last time I went 
to my polling place, I had to go to a store room to fill out my ballot. 
I have a sight impairment and my care giver had to read the ballot to 
me. . . . I requested a ballot for vision impaired and was told there 
weren't any. . . . I tried to speak to the poll manager, but he was too 
busy to speak with me. I spoke with the Supervisor of Elections and was 
told that larger type ballots had never been asked for, so they don't 
provide them . . . I now use an absentee ballot, which is still not in 
print large enough for me to read without aid.'' Report of the National 
Voter Independence Project (2000 Draft). If the general public had to 
tolerate this type of treatment, no doubt the turnout would be as low, 
if not lower, than the 30 percent of voters with disabilities who go to 
the polls.
    A 1998 NOD/Lou Harris survey of Americans with disabilities reports 
that 75 percent of people with disabilities have never been asked to 
register to vote by a service provider as required by the NVRA (Motor 
Voter Law). All too often people with disabilities are told that they 
should vote by absentee ballot or at the curb. Absentee ballots are not 
an adequate substitute for actually going to the polls, particularly 
when the voter is in the jurisdiction on election day. Further, this 
most recent election brought to light deficiencies in counting absentee 
ballots, again raising the possibility that the votes of people with 
disabilities who are encouraged to use this method do not count.
    The structural and technological barriers discussed above are 
hardly insurmountable. Ramps, accessible booths (with privacy screens), 
easily maneuverable controls, and appropriate signage enable many 
voters with mobility impairments to vote independently. For people with 
vision impairments, easy solutions as simple as large print ballots and 
magnifying lenses will solve many problems. More advanced technology, 
even touch screen equipment, is now accessible to people with vision 
impairments. Legislation cannot overcome the attitudinal barriers, but 
many disability organizations would willingly train polling place staff 
and volunteers to avoid this type of treatment.
    Information on improving access is readily available. In 1996, PVA 
and Paradigm Design Group produced the report, ``Ensuring the 
Accessibility of the Election Process''. This report, distributed by 
the FEC, provided information and guidance to election officials on 
access to the election process for people with disabilities. The 
publication explains relevant federal laws and provides applicable 
architectural guidelines. It demonstrates how to ensure polling place 
access, from accessible parking along an accessible path of travel to 
an accessible voting booth. National organizations that are able to 
provide assistance are identified.
    PVA believes that comprehensive voting systems standards that 
include accessibility design guidelines for people with disabilities, 
are needed. So many years after the Voting Rights Act, the Voting 
Accessibility Act, and the ADA, the purchase and use of new equipment 
that is not accessible to all is unacceptable.
    In 1999, then Governor George W. Bush signed such a bill into law 
in Texas. The Texas Election Code requires all voting systems purchased 
after September 1,1999, to comply with Section 504 of the 
Rehabilitation Act, the Americans with Disabilities Act, and to 
``provide a practical and effective means for voters with physical 
disabilities to cast a secret ballot.'' Requirements for accessibility 
and authorized methods for a secret vote are specified.
    Many proposals to reform the electoral process are currently before 
this Congress. Reform will most certainly be enacted, and in sufficient 
time to affect the 2002 elections. Whether this reform is comprised of 
grants to purchase new voting technology, or the development of voting 
system standards, it must address full access for voters with 
disabilities. We request that any reform legislation include the 
development of accessibility guidelines. S. 511 proposed that the 
Access Board develop minimum guidelines; PVA encourages this Committee 
to include such a provision. These guidelines must provide for private 
and independent voting by voters with disabilities. We also urge that a 
single state election official be designated for compliance with the 
legislation.
    We ask that in your considerations, this Congress take into account 
not only paralyzed veterans, but all people with disabilities who have 
the right to vote. Do not allow this opportunity to pass without 
addressing the needs of so many American citizens who deserve to be 
heard.

    The Chairman. Mr. Henderson, thank you.

  STATEMENT OF WADE HENDERSON, EXECUTIVE DIRECTOR, LEADERSHIP 
                   CONFERENCE ON CIVIL RIGHTS

    Mr. Henderson. Thank you, Mr. Chairman. I am Wade 
Henderson, the executive director of the Leadership Conference 
on Civil rights. The Leadership Conference on Civil Rights is 
the Nation's oldest and most diverse coalition of civil and 
human rights organizations. I am pleased to appear before you 
today on behalf of the conference to discuss the need to ensure 
that all Americans have equal access to the right to cast their 
ballots and to have their votes, once cast, accurately counted, 
and I would like to request, Mr. Chairman, that my entire 
statement be made a part of the record.
    The Chairman. Without objection.
    Mr. Henderson. Thank you. More than 35 years have passed 
since the enactment of the Voting Rights Act of 1965. In that 
time, our Nation has made significant progress in making the 
act's promise of one person, one vote a reality for all 
Americans. The serious and extensive irregularities reported in 
November, however, make clear that we still have a long way to 
go as a Nation, and while yesterday's poll taxes and literacy 
tests are long gone, they have been replaced by punch card 
machines and inaccurate voting list purges as barriers to 
minority enfranchisement.
    The need for today's discussion should be apparent to all. 
The right to vote is among the most fundamental of all freedoms 
guaranteed the American people. Without it, we are not a 
republic, not a democracy. For this reason, reports of voting 
irregularities in Florida have captured widespread attention. 
Barriers to minority voting participation, however, are by no 
means limited to Florida. Because of the need to ensure the 
integrity of our democratic processes is national in scope, 
federal attention and action are both appropriate and 
necessary.
    Now, in my testimony today, I will first review briefly 
some of the problems that make clear the pressing need for 
action. I will then identify some fundamental principles that 
must be included in any effective reform proposal. Now, across 
America, voters, especially minority voters, were effectively 
denied the franchise in a variety of ways. Minority voters 
often faced a significantly greater risk that their votes would 
not be counted accurately.
    In Cook County, Illinois, for example, an analysis by the 
Washington Post concluded that only 4.9 percent of ballots were 
invalidated in precincts with minority populations of less than 
30 percent, while the invalidation rate nearly doubled to more 
than 9 percent in precincts with a minority population of 90 
percent or more.
    In Florida, as we heard today, punch card balloting systems 
used in counties with substantial African American populations, 
such as Miami-Dade and 24 other counties, are alleged to have a 
substantially higher error rate than other systems. Nearly 4 
percent of ballots in Florida counties using punch card systems 
were recorded as having no vote, while the no-vote rate under 
the optical scan systems used elsewhere in Florida was only 
1.43 percent.
    Second, Asian American, Haitian American, Latino American, 
and other language-minority voters were denied language 
assistance to which they are entitled. In many jurisdictions 
covered by the Voting Rights Act, language minorities are 
entitled, upon request, to bilingual materials and other 
assistance of bilingual poll workers.
    In New York City, however, Chinese-speaking voters reported 
that ballots at several polling sites inaccurately translated 
candidates' party identifications, and others reported that 
absentee ballots contained mistakes in the Chinese language 
instructions. Those problems were replicated in many parts of 
the country.
    Eligible voters were wrongly purged from the polls. For 
example, Florida ordered the purging of ex-felons and other 
ineligible voters from official lists of eligible voters prior 
to the November election. During this process, however, many 
qualified voters were wrongly identified as ineligible to vote 
and, for example, a number of African American and Latino 
voters reported that they were told by poll workers that they 
had been dropped from the polls because they were ex-felons, 
even though they had never been arrested, much less convicted 
of any crime.
    Fourth, eligible voters were wrongly denied the opportunity 
to vote because voter registrations and change of address 
information were not processed in a timely and accurate manner. 
That has been discussed extensively. Eligible voters, moreover, 
were barred from voting because complete and accurate lists of 
eligible voters were not available at each polling place. The 
Kansas City Star reported that in St. Louis, for example, 
voters whose registration was not on record at their polling 
places had to travel to the election board's downtown office, 
where several hundred people waited up to 3 hours just to 
confirm their registration.
    Voters who realized that they had inaccurately marked their 
ballots before casting them were wrongly denied the opportunity 
to correct them. That has been substantially documented in a 
number of jurisdictions. Many voting systems are inaccessible 
to persons with disabilities, as my friend John Bollinger has 
said, and do not allow many voters with disabilities to cast a 
secret ballot.
    Now, according to the Federal Election Commission, there 
are at least 20,000 polling places across the country that are 
physically inaccessible to voters with disabilities and, 
moreover, the punch card machines, as has again been noted, are 
particularly difficult for persons with vision impairment or 
arm or hand mobility impairments.
    Now, unfortunately, time permits only a partial listing of 
these reported irregularities, but even this incomplete 
discussion demonstrates the extent and severity of the problem, 
and the need for reform. Such barriers to voting inflict double 
pain. First, they effectively disenfranchise a significant 
number of eligible voters and, second, they fuel the perception 
that minority voters, and that persons with disabilities, are 
not really welcome to participate fully in our Nation's 
democratic institutions. A system riddled with such 
irregularities fosters cynicism about our Nation's commitment 
to its professed ideal that every vote counts.
    Now, in terms of meaningful reform, we think it is 
important that a number of steps be taken and, because the need 
to ensure the integrity of our democratic process is of 
national significance, these reports make clear of the need for 
congressional action.
    Now, we are very mindful of concerns about overreaching in 
terms of the ability of the federal government to dictate to 
the states appropriate steps in state elections, but it is 
important that the federal government strike a balance of 
responsibility between what it must supervise with regard to 
federal elections and the responsibility of the states.
    Second, we are aware that several proposals, legislative 
proposals to remedy the problems of Election 2000 are already 
under discussion, and we welcome the opportunity, Mr. Chairman, 
to work with you and other Members of the Committee in trying 
to fashion specific details.
    Now, I should note at the outset, however, that the issue 
of election reform we think is too important to be considered 
with other initiatives. Some have suggested, for example, that 
Congress should consider election reform in combination with 
the issue of campaign finance reform, which will come to the 
Senate floor in the next few weeks. The leadership conference 
member organizations have differing views on the question of 
campaign finance reform. However, we are strongly of the belief 
that this issue should not be considered at the same time that 
campaign finance reform comes to the floor. We think it has to 
be evaluated on its own merits.
    Second, as these important discussions move forward, let me 
just identify some of what we think are the fundamental 
principles that any reform legislation should consider. First, 
any comprehensive election reform proposal must be in place in 
time for the 2002 election. We have to ensure that we learn 
from and act upon rather than repeat the painful mistakes of 
last November.
    Second, any reform proposal must adhere to the principle of 
one person, one vote, because we know that that obviously is a 
fundamental democratic principle. What this means is that the 
right to cast one's vote as well as the right to have it 
counted has to be preserved, and that means, of course, that we 
have to do away with systems like the punch card machines, 
which we know have a disproportionate and unacceptably high 
error rate.
    Third, any reform proposal must address procedural, as well 
as technological obstacles to voting. Now, minority voters 
faced at least three barriers in the last November election, 
first, the use of outdated voting equipment with significant 
failure rates, second, inadequate and often discriminatory 
voter registration and purging practices, and third, human 
factors that led to ill-prepared and overburdened poll workers 
that inappropriately turned away voters. All three of these 
things have to be addressed.
    Fourth, any reform proposal must not limit or conflict with 
existing civil rights laws, like the voting Rights Act, the 
National Voter Registration Act, or the Americans With 
Disabilities Act, and Voting Accessibility for the Elderly and 
Handicapped Act.
    And then last, assuming all of these things are considered, 
my testimony goes into several specific recommendations for 
facilitating the ease with which our citizens are enabled to 
vote and to participate, such as extending the time of voter 
registration, providing same-day registration where 
appropriate, addressing other mechanisms that have proven to be 
barriers to full civic and voter participation.
    Last, the practice of ex-felon disenfranchisement should be 
eliminated. Not only is disenfranchisement one of those issues 
that really affects persons who have completed their sentences, 
it is inconsistent with basic democratic principles, and we 
believe it has a disproportionate impact on persons who are, 
indeed, trying to recoup their lives and to participate fully 
in civic life in this country.
    The leadership conference welcomes, as I said, Mr. 
Chairman, the opportunity to work with you. It is impossible to 
overstate the importance of what you are doing today with this 
hearing, since, in order to have continued confidence in the 
integrity of our democratic process, we have to ensure that the 
elections that we all cherish and recognize are at the heart of 
what we do as a Nation be preserved, and that their integrity 
be enhanced.
    Mr. Chairman, thank you for the opportunity.
    [The prepared statement of Henderson follows:]

 Prepared Statement of Wade Henderson, Executive Director, Leadership 
                       Conference on Civil Rights

    Mr. Chairman and Members of the Committee: I am Wade Henderson, 
Executive Director of the Leadership Conference on Civil Rights. I am 
pleased to appear before you today on behalf of the Leadership 
Conference to discuss the need to ensure that all Americans have equal 
access to the right to cast their ballots--and to have their votes, 
once cast, accurately counted.
    The Leadership Conference on Civil Rights (LCCR) is the nation's 
oldest and most diverse coalition of civil rights organizations. 
Founded in 1950 by Arnold Aronson, A. Phillip Randolph, and Roy 
Wilkins, LCCR works in support of policies that further the goal of 
equality under law. To that end, we promote the enactment, and monitor 
the enforcement, of our nation's landmark civil rights laws. Today the 
LCCR consists of over 180 organizations representing persons of color, 
women, children, organized labor, persons with disabilities, the 
elderly, gays and lesbians, and major religious groups. It is a 
privilege to represent the civil and human rights community in 
addressing the Committee today.
    More than 35 years have passed since the enactment of the Voting 
Rights Act in 1965. In that time, we have made significant progress in 
making that Act's promise of ``one person, one vote'' a reality for all 
Americans. The serious and extensive irregularities reported last 
November, however, make clear that we still have a long way to go. 
While yesterday's poll taxes and literacy tests are long gone, they 
have been replaced by punch-card machines and inaccurate voting list 
purges as barriers to minority enfranchisement.
    The need for today's discussion should be apparent to all. The 
right to vote is among the most fundamental of freedoms guaranteed the 
American people. Without it, we are not a republic, not a democracy. 
For this reason, reports of voting irregularities in Florida have 
captured widespread attention. Barriers to minority voting 
participation, however, are by no means limited to Florida. Because the 
need to ensure the integrity of our democratic processes is national in 
scope, federal attention and action are both appropriate and necessary.
    In my testimony today, I will first review some of the problems 
that make clear the pressing need for action. I will then identify some 
fundamental principles that must be included in any effective reform 
proposal.

Overview of Voting Irregularities in the 2000 Election
    Across America, voters--especially minority voters--were 
effectively denied the franchise in a variety of ways:
    Minority voters often faced a significantly greater risk that their 
votes would not be counted accurately. In Cook County, Illinois, for 
example, an analysis by The Washington Post concluded that only 4.9 
percent of ballots were invalidated in precincts with a minority 
population of less than 30 percent, while the invalidation rate nearly 
doubled--to more than 9 percent--in precincts with a minority 
population of 90 percent or more.
    Similarly, a lawsuit recently filed in Georgia on behalf of African 
American voters in DeKalb, Fulton, and Cobb counties alleged that the 
punch-card machines used in predominantly African American counties had 
an error rate more than double that of optical scanning machines used 
elsewhere in Georgia.
    In Florida, too, punch-card balloting systems used in counties with 
substantial African American populations (such as Miami-Dade and 24 
other counties) are alleged to have a substantially higher error rate 
than other systems. Nearly four percent of ballots in Florida counties 
using punch-card systems were recorded as having no vote, while the no-
vote rate under the optical-scan systems used elsewhere in Florida was 
only 1.43 percent.
    Asian American, Haitian American, Latino, and other language 
minority voters were denied language assistance to which they were 
entitled. In many jurisdictions covered by Section 203 of the Voting 
Rights Act, language minority voters are entitled, upon request, to 
bilingual materials and/or the assistance of a bilingual poll worker. 
In New York City, however, Chinese-speaking voters reported that 
ballots at several polling sites inaccurately translated candidates' 
party identifications; others reported that absentee ballots contained 
mistakes in the Chinese-language instructions.
    Asian American Legal Defense and Education Fund monitors observed 
that some New York polling sites had no interpreters at all, prompting 
some voters to leave without casting a ballot due to the absence of 
language assistance; interpreters at other sites were observed to 
provide inaccurate or improper directions.
    And in some Florida counties, Haitian American and Latino voters 
reported that their requests for language assistance were denied.
    Eligible voters were wrongly ``purged'' from the rolls. Florida, 
for example, ordered the ``purging'' of ex-felons and other ineligible 
voters from official lists of eligible voters prior to the November 
election. During this process, however, many qualified voters were 
wrongly identified as ineligible to vote. For example, a number of 
African American voters reported that they were told by poll workers 
that they had been dropped from the rolls because they were ex-felons--
even though they had never been arrested, much less convicted, of any 
crime.
    Other eligible minority voters reported that they were provided no 
reason for their purging; they were simply turned away on the grounds 
that their names did not appear on the list of registered voters. 
Moreover, many of these purges occurred very late in the process--i.e., 
after the individuals purged had already voted in the September 
primary--thus offering little, if any, corrective opportunity.
    Eligible voters were wrongfully denied the opportunity to vote 
because voter registrations and change-of-address information were not 
processed in a timely and accurate manner. Asian American voters in New 
York reported that they completed their registration forms, but were 
never provided confirmation of their registration, nor information 
about the location of their polling places.
    Similarly, in Ohio, African American voters reported that they were 
not notified that their polling places had been changed; when they 
tried to vote at their old polling places, they were turned away and 
denied even the opportunity to cast provisional ballots.
    Minority voters in Florida and elsewhere have reported that they 
submitted timely and complete voter registration packages (or notices 
of change in address), only to be turned away at the polls because 
there was no record of their registration or move. As Fumiko Robinson 
testified before the NAACP in explaining her feelings while driving 
Florida voters to the polls on election day, only to have them turned 
away: ``[I]t was almost as if I brought people to the poll to be 
embarrassed.''
    Eligible voters were barred from voting because complete and 
accurate lists of eligible voters were not available at each polling 
place. The Kansas City Star reported that, in St. Louis, ``voters whose 
registration was not on record at their polling places had to travel to 
the election board's downtown office, where several hundred people 
waited up to three hours just to confirm their registration.''
    In some Florida counties, certain registered voters were placed on 
an ``inactive'' list and were not included on their respective 
precincts' lists of voters. These unlisted voters were able to vote 
only if their precinct polling official contacted the central county 
office to confirm eligibility. Many of the telephone lines were busy 
for extended periods of time, however, thus thwarting eligibility 
verification. And while some precincts were apparently provided with 
laptop computers to enable pollworkers to access directly the list of 
inactive-yet-eligible voters, observers reported that few, if any, 
laptops were assigned to majority black precincts.
    Voters who realized that they had inaccurately marked their ballots 
before casting them were wrongfully denied the opportunity to correct 
them. When voters realize that they have inaccurately marked their 
ballots before submitting them, the law entitles them to a second--and 
even a third--ballot to correct any such errors. However, numerous 
Florida voters have reported that their requests for new ballots were 
denied.
    Many voting systems are inaccessible for persons with disabilities 
and do not allow many voters with disabilities to cast a secret ballot. 
According to the Federal Election Commission, there are at least 20,000 
polling places across the country that are physically inaccessible to 
voters with disabilities. Moreover, punch-card machines are 
particularly difficult for persons with vision impairments or arm or 
hand mobility impairments.
    The list goes on and on. Voters who did not have identification or 
who did not appear on eligible lists were improperly denied the 
opportunity to vote by affirmation or affidavit. Voters already in line 
when polling places closed were denied the opportunity to cast their 
ballots. Unfortunately, time permits only a partial listing of the 
reported irregularities. But even this incomplete discussion 
demonstrates the extent and severity of the problem--and the need for 
reform.
    Such barriers to voting inflict double pain. First, they 
effectively disenfranchise a significant number of eligible voters. 
Second, they fuel the perception that minority voters and voters with 
disabilities are not really welcome to participate fully in our 
nation's democratic institutions. A system riddled with such 
irregularities fosters cynicism about our nation's commitment to its 
professed ideal that every vote counts. As a result, many minority 
voters concluded that some votes matter more--or less--than others; 
that every vote does NOT count; that the system does NOT work. As 
Donnise DeSouza, who was denied access to the polls on Election Day, 
described her feelings in testimony before the NAACP: ``I felt very 
outraged. I felt I had been stripped of something important and 
personal to me and I felt violated. . . .''

Principles for Meaningful Reform
    Because the need to ensure the integrity of our democratic 
processes is of national significance, these reports make clear the 
need for Congressional action. While we are mindful of concerns 
regarding federalism and the appropriate balance of responsibility 
between the federal government and the states, we strongly believe that 
Congress has the authority--and the responsibility--to maintain the 
integrity of federal elections and ensure that states and localities 
have the resources to improve election technology and administration 
procedures. To this end, we urge the enactment of legislation that 
would encourage the adoption of upgraded, accurate equipment and 
uniform, nondiscriminatory standards for election administration in all 
federal elections.
    We are aware that several legislative proposals to remedy the 
problems of Election 2000 are already under discussion, with more on 
the horizon. We welcome the opportunity to work together with this 
Committee and others in Congress on the specific details of these 
efforts.
    We note at the outset, however, that the issue of election reform 
must be considered separately from any other legislative issue. Some 
have suggested that Congress should consider election reform in 
combination with the issue of campaign finance reform, which will come 
to the Senate floor in the next few weeks. While the Leadership 
Conference has taken no position on campaign finance legislation, we 
strongly believe that the issue of election reform is of such critical 
importance that it requires full and fair evaluation on its own merits, 
apart from any other proposal.
    As these important discussions move forward, let me identify some 
fundamental principles that must be included in any meaningful reform 
proposal:
    First, any comprehensive election reform proposal must be in place 
in time for the 2002 elections. We must ensure that we learn from and 
act upon--rather than repeat--the painful lessons learned in 2000. To 
this end, the federal government must supply adequate resources on the 
front end to permit states and localities to make the upgrades and 
changes necessary to ensure that all Americans have equal and 
meaningful access to the right to vote in the 2002 elections.
    Second, any reform proposal must adhere to the principle of ``one 
person, one vote.'' The right to vote is a right guaranteed to all 
Americans, regardless of their race, their neighborhood, their income, 
or their level of education. This applies both to the right to cast 
one's ballot and the right to have that vote, once cast, counted 
accurately. We must acknowledge and address widespread evidence that 
punch-card machines and certain other voting systems carry 
disproportionately--and unacceptably--high error rates. Federal funding 
should be made available to encourage state and local jurisdictions to 
upgrade election equipment to ensure that all votes are counted 
accurately and equally. For example, federal efforts should encourage 
states and localities to adopt election technology that produces no 
more than a 1 percent error rate.
    Third, any reform proposal must address procedural as well as 
technological obstacles to voting. Minority voters faced at least three 
types of barriers to full and equal voting participation this past 
November: (1) the use of outdated voting equipment with significant 
failure rates; (2) inadequate (and often discriminatory) voter 
registration and purging practices; and (3) human factors that led ill-
prepared and overburdened poll workers to inappropriately turn away 
qualified voters. We must both modernize the machinery of voting and 
improve procedures for the administration of elections. Both of these 
issues deserve significant attention and funding at the federal level.
    Fourth, any reform proposal must not limit or conflict with the 
Voting Rights Act and the National Voter Registration Act, nor any 
other existing civil and voting rights statute, such as the Americans 
with Disabilities Act and the Voting Accessibility for the Elderly and 
the Handicapped Act. Indeed, any effective reform proposal must include 
a commitment to and investment in full and vigorous enforcement of 
these laws--for example, ensuring that minority language voters and 
voters with disabilities receive the assistance to which they are 
entitled. In addition, funds distributed by the federal government for 
election reform must be considered federal financial assistance for the 
purposes of applying the prohibition against discrimination on the 
basis of race, color, or national origin under Title VI of the Civil 
Rights Act of 1964.
    With these baseline principles in mind, a number of more specific 
measures deserve careful consideration as we explore ways to encourage 
the development of uniform, nondiscriminatory procedures for election 
administration:

  <bullet> Registering to vote should be simple and easy. Current 
        registration procedures too often discourage, rather than 
        encourage, voting. For example, under current practice, voter 
        registration often closes 30 days before the election. 
        Providing for same-day registration or otherwise shortening 
        registration deadlines (i.e., keeping registration open until 
        shortly before Election Day) would encourage voter 
        registration. Procedures better facilitating change-in-address 
        notification (e.g., by allowing voters who change addresses 
        within the same state to file a change-of-address and vote on 
        Election Day without re-registering) would further ease 
        registration difficulties.

  <bullet> Voting itself should be as simple and easy as possible. 
        Voters should be made aware of their rights to request 
        assistance, to correct their ballots if they believe they have 
        made an error, and to alternative identification procedures if 
        they do not have a photo identification.

  <bullet> To encourage full civic participation, we should support 
        changes designed to ease long lines and other time pressures on 
        voters (e.g., making Election Day a federal holiday, ensuring 
        that anyone in line at closing time is allowed to vote, 
        extending voting hours, holding multi-day and/or weekend 
        elections).

  <bullet> In light of last fall's extensive reports of inaccurate and/
        or incomplete voter lists, federal legislation should encourage 
        the development of uniform mechanisms to ensure that persons 
        whose names do not appear on the list of registered voters at 
        the polling place may still cast a provisional ballot without 
        undue delay--subject to challenge if they are shown to be 
        ineligible to vote.

  <bullet> Federal legislation should encourage development of 
        standards to ensure that decisions to purge certain voters from 
        the rolls are carefully verified. For example, the National 
        Voter Registration Act prohibits certain types of purges--i.e., 
        those needed to verify addresses--within 90 days of an 
        election. The same 90-day rule could be applied to all types of 
        purges, including those for ex-felons. Moreover, state or local 
        governments are better equipped to carry the burden of 
        verifying that registered voters are actually not entitled to 
        vote before purging--rather than placing the burden on the 
        voter to establish his or her eligibility.

  <bullet> The practice of ex-felon disenfranchisement should be 
        eliminated. Not only is the disenfranchisement of those who 
        have completed their sentences inconsistent with basic 
        democratic principles, it disproportionately harms minorities 
        and thus dilutes the gains of the Voting Rights Act. Moreover, 
        the Florida experience helps demonstrate that restoring the 
        franchise to ex-felons who have served their time will also 
        eliminate the significant number of ``false positives'' that 
        wrongly denied the vote to individuals who were not ex-felons, 
        as well as save millions of dollars in administrative costs.

    Finally, we recognize that we have not addressed issues related to 
voting over the Internet, even as states and localities are 
increasingly likely to turn to high-tech solutions to election 
challenges. We note that while such technology offers significant 
opportunities to eliminate certain voting irregularities, we must also 
be mindful of possible racial, ethnic or income disparities in voter 
access commonly characterized as aspects of the digital divide. We are 
also concerned with the security and integrity of election systems with 
Internet voting, a concern highlighted in a recently released study 
commissioned by the National Science Foundation.\1\ The Leadership 
Conference is currently studying this issue, and plans to share our 
observations and recommendations in the near future.
---------------------------------------------------------------------------
    \1\ ``Report of the National Workshop on Internet Voting: Issues 
and Research Agenda''. A report commissioned by the National Science 
Foundation on a workshop October 11-12, 2000 by the Internet Policy 
Institute.
---------------------------------------------------------------------------
Conclusion
    The Leadership Conference on Civil Rights welcomes the opportunity 
to work with this Committee and others in Congress on election reform 
consistent with the principles we have outlined. It is impossible to 
overstate the importance of this endeavor, since continued confidence 
in the integrity of our democratic processes will hinge on our success 
or failure. Together, we must ensure that the painful lessons learned 
in 2000 are not forgotten, and that the ideals of 1965 are not 
abandoned.

    The Chairman. Thank you very much.
    Ms. O'Gara.

       STATEMENT OF MARY JANE O'GARA, BOARD MEMBER, AARP

    Ms. O'Gara. Mr. Chairman, my name is Mary Jane O'Gara. I am 
a member of the board of directors of AARP. On behalf of the 
association, I thank you for inviting AARP to offer its views 
regarding the use of technology to address some of the major 
issues related to voting and election reform legislation.
    The right to vote is the most basic of all political 
rights. The recent presidential election illustrated the many 
inconsistencies that threaten the integrity of the election 
process at all levels of government. While all of the problems 
revealed cannot be addressed in today's hearing, many can be 
ameliorated. It is important, however, that fair, bipartisan 
policy solutions in related areas be devised to accompany any 
technological innovations.
    Examples of related areas are discrimination in the 
registration and voting process, inconsistent interpretation 
and application of regulations, varying hours of operation and 
access, variances in notification about voting status and local 
polling sites, accessibility and user friendliness of 
registration and polling sites and equipment.
    The effectiveness of each of the federal statutes governing 
voting in this country can be improved through technological 
innovations. Technology can enhance the fairness of statutory 
implementation and enforcement. Still, issues like access and 
the climate of both registration and polling sites are 
precursory concerns. Voting and registration procedures should 
be as user-friendly as possible for all Americans. In that 
regard, Congress must ensure that such procedures are fair, 
acceptably uniform, accessible, and protected against fraud and 
preventable mistakes.
    Under the NVRA, states must allow individuals to register 
to vote at a variety of state agency locations such as the 
Department of Motor Vehicles, and through the mail. Based on 
available data, lower increases in registration rates can be 
attributed to less aggressive implementation of the law for 
various reasons.
    Technology could improve processing, verifying and sharing 
of registration information among various agencies. These 
benefits, however, would be nullified if the atmosphere 
discourages or frustrates applicants. Misinformation, lack of 
information, and/or confusing and inconsistent information 
foster a discouraging atmosphere.
    That said, AARP believes that technology can make the most 
significant and immediate contribution to voting and election 
reform in the area of balloting and verification of voter 
registration. With respect to balloting, technical innovations 
could make ballots and voting systems more accessible, and 
their use more easily understood by voters. Specific assistive 
devices, telecommunication devices for the deaf and large type 
instructions could be integrated to assist people with 
disabilities, and compensate for barriers to participation. 
Equipment design could help with dexterity problems, so common 
among older persons.
    Ballots and voting systems should minimize human and 
mechanical errors and allow for effective monitoring. While 
systems improved by technology, such as Internet voting, 
optical scanners, and touch-screen technology, are less 
vulnerable to manual fraud, they must be protected from 
internal and external tampering. Objective monitoring to detect 
tampering is essential.
    Voters can and should be more thoroughly informed about the 
mechanics of voting. Internet and on-site training tools are 
existing technologies that can be used to this end. Investment 
in public education could also decrease the likelihood of voter 
error, especially if voters are given the opportunity for a 
``dry run'' before actually casting a ballot. Voter turnout 
might even increase as a result.
    Finally, in the area of voter registration, strong 
protections against fraud and bias can be established through 
technology that permits instant voter verification of 
registration status. Systems that permit voters to verify 
registration, polling and registration sites, and hours of 
operation could virtually eliminate most human discrimination 
factors that impede some voters.
    Because technological innovations can be costly, the 
federal government can play a role in financing needed 
innovations. Any federal funding for voting and election 
reforms should be conditioned upon satisfying specific 
procedural standards, best practices in election 
administration, and the elimination of practices that suppress 
voter participation. Further, it is important that 
technological and administrative initiatives to reform 
registration and voting processes be equitable in their impact 
on all classes of potential voters.
    AARP understands that technology is not the only solution 
to the problem of voting and election reform, but it could make 
a significant difference.
    We appreciate this opportunity to offer our views on this 
potential improvement, Mr. Chairman. This concludes my remarks, 
and I would be happy to respond to questions if you have any.
    [The prepared statement of Ms. O'Gara follows:]

       Prepared Statement of Mary Jane O'Gara, Board Member, AARP

    Mr. Chairman and Members of the Committee:
    My name is Mary Jane O'Gara and I am a member of the Board of 
Directors of AARP. On behalf of the Association, I thank you for 
inviting AARP to offer its views regarding the use of technology to 
address some of the major issues related to voting and elections reform 
legislation.
    The right to vote is the most basic of all political rights. The 
recent Presidential election of 2000 has brought to the forefront of 
the public's attention the many inconsistencies that presently exist in 
the voting systems throughout the nation at all levels of government. 
These inconsistencies threaten the integrity of the election process. 
While all of the problems and inconsistencies revealed in the recent 
elections cannot be addressed within the scope of today's hearing on 
technology solutions, many can be ameliorated. However, it is important 
that fair, bipartisan policy solutions in related areas be devised to 
accompany any technological innovations. Examples of related areas are:

  <bullet> discrimination in the registration and voting process,

  <bullet> inconsistent interpretation and application of regulations;

  <bullet> varying hours of operation and access;

  <bullet> variances in notification about voting status and local 
        polling sites;

  <bullet> accessibility and user-friendliness of registration and 
        polling sites and equipment;

  <bullet> varying guidelines and criteria for mail-in and in-person 
        registration and voting; and,

  <bullet> differing circumstances about when verification is essential 
        to register or vote.

    Technological innovations are likely to be costly for most 
jurisdictions. AARP believes the federal government has a role to play 
in financing needed innovations. Any federal funding for voting and 
election reform should be conditioned upon satisfying specific 
procedural standards (``best practices'') in election administration 
and the elimination of practices that suppress voter participation, 
including but not limited to areas mentioned above.
    AARP would like to lay out the principal policy areas that we see 
as needing reform, and proceed to address how technology might address 
some of those. The major federal statutes governing voting in this 
country such as the Voting Rights Act (VRA), the Voting Accessibility 
for the Elderly and Handicapped Act of 1984, the Americans with 
Disabilities Act (ADA) and the National Voter Registration Act (NVRA) 
establish voting rights and registration policy. While these statutes 
do not address questions of technology, technological innovations could 
have a tremendous impact on the fairness of how those statutory 
policies are implemented or enforced. Critical issues such as access to 
and the climate of both registration and polling sites are precursory 
concerns that are directly related to the utility of any voting 
technology innovation. In that regard, we believe Congress must take 
steps to ensure that voting and registration processes are:

  <bullet> Fair (non-discriminatory and equitably interpreted, applied 
        and enforced);

  <bullet> Acceptably uniform (based on reasonably consistent, 
        mandatory guidelines within constitutional limits);

  <bullet> Accessible (such that persons with physical or other 
        limitations are not discouraged from participating); and

  <bullet> Protected against fraud (deliberate manipulation) and 
        preventable mistakes (e.g. design flaws).

    The recent election brought to light the fact that voting 
mechanisms lack uniform standards and in many locations have failed to 
keep pace with new technologies. Further, registration difficulties, 
physical barriers and other problems often disproportionately prevent 
minorities, the frail elderly and persons with disabilities from voting 
or from having that vote counted. Voting and registration procedures 
should be as user-friendly as possible, especially to accommodate the 
large number of Americans that move or temporarily relocate each year.
    Since the NVRA became effective in 1995, states have been required 
to allow individuals to register to vote when they apply for a driver's 
license or other type of permit and to make registration forms 
available at a variety of state offices as well as through the mail. 
Preliminary studies on the law's impact suggest that registration rates 
have risen 3 to 13 times higher than in previous years. In states where 
the rise is relatively low, much of the variance can be attributed to 
some states having been less aggressive in implementing the law. While 
technology could improve the systems by which information about 
registration applicants could be shared among various agencies, 
processed and verified, those benefits are likely to be nullified if 
the atmosphere discourages or frustrates applicants. Such an atmosphere 
may be fostered through misinformation, lack of information or 
confusing and inconsistent information. One common example of practices 
that discourage voter participation is varying the hours and location 
of registration and polling sites without sufficient public notice.
    Another area of law that could benefit from improved technology 
would be the Voting Accessibility for the Elderly and Handicapped Act. 
The statute's voluntary state reporting guidelines remain although 
mandated reporting sunset in 1995. Thus, the Federal Election 
Commission (FEC) can no longer require reporting. Technology could make 
such reporting requirements simple and easy to share within and across 
jurisdictions, enabling voters to be directed to alternative accessible 
sites. Unfortunately, lack of a mandate or resources to encourage 
states present a barrier. In the 1992 general elections, the last 
elections for which the law required an FEC report to Congress, 42 of 
52 states and other electoral jurisdictions evaluated the accessibility 
of polling places using FEC criteria or criteria sufficiently similar 
to permit cross-state comparisons. Of the polling places evaluated, 14 
percent were reported inaccessible, compared with 16 percent in 1990, 
21 percent in 1988 and 27 percent in 1986. Stairs without ramps remain 
the greatest physical obstacle. And while we expect the percentage of 
inaccessible sites to continue to drop as a result of the ADA, 
technology could play an invaluable role in facilitating the collection 
and sharing of this information, leading to increased voting 
participation among the millions of older and disabled persons who face 
these barriers.
    Having said that, AARP believes that the most significant and 
immediate contribution that technology can make to reform of the voting 
and election process is in the area of balloting and verification of 
voter registration. With respect to balloting, technology can afford 
all Americans the ability to express their electoral preference through 
the following types of improvements:

  <bullet> Ballots and voting systems can be made more accessible to 
        and easily understood by the voters. Extra efforts, such as 
        equipping polling places and balloting devices with large-type 
        instructions and telecommunications devices for the deaf, may 
        be necessary to assist people with disabilities. Similarly, 
        technological innovations should be designed to compensate for 
        barriers to access by persons with visual and other 
        disabilities, such as the problems of dexterity that are so 
        common among older people.

  <bullet> Voting systems can and should be instituted that minimize 
        human and mechanical errors while allowing for effective 
        monitoring. The current manual systems afford many 
        opportunities for intentional and unintentional human 
        interventions that can result in unlawful or invalidated 
        ballots. Systems improved by technology (such as internet 
        voting, optical scanners, and touch screen technology) are less 
        vulnerable to manual fraud. They must, however, be protected 
        from internal tampering (programmer manipulation) and external 
        tampering (hackers). This makes it essential that such 
        innovations be built with the capacity for objective monitoring 
        to ensure that any tampering will be detected. Such monitoring 
        results must be officially witnessed, certified and made 
        publicly available. Similarly, technology such as optical 
        scanners already exists to minimize human error in expressing 
        one's voting preference. AARP does not endorse any specific 
        technology for eliminating human error; there are a variety of 
        applications that permit the development of systems that are 
        sensitive to physical and other human limitations.

  <bullet> Voters can and should be more thoroughly informed about the 
        mechanics of voting. The capacity already exists for technology 
        to provide advance information via the Internet or even on-site 
        training through special modules. Access to such training could 
        be provided through a wide variety of public and community 
        based agencies. Indeed, education and training innovations 
        could effectively address other sensitive voting rights issues, 
        such as language barriers. Investment in such public education 
        would not only provide direct education to the voter, it would 
        also decrease the likelihood of voter error--especially if 
        voters were given the opportunity to do a ``dry run'' before 
        actually casting a ballot. Indeed, such voter education might 
        increase voter turnout.

    Finally, in the area of voter registration, strong protections 
against fraud and bias can be established through technology that 
permits instant verification of registration status. For example, 
dispensing protected codes on stickers for all new registrants that can 
be verified could reduce the number of eligible voters being refused 
the right to vote. Systems that permit voters to verify their 
registration status along with the location and hours of both central 
registration sites and assigned polling sites could virtually eliminate 
most human discrimination factors that impede some voters from 
exercising their franchise rights.
    While AARP understands that technology is not the only solution to 
the major problems of voting and election reform in this country, it 
clearly could make a significant difference. However, federal funding 
will be essential in making it possible to implement any technological 
or other reforms that may become law. AARP believes that those areas 
with the most significant demonstrated problems receive priority for 
any funds available for making system and guideline changes. Finally, 
initiatives to reform registration or voting processes must be 
equitable in their impact on all classes of citizens who are either 
voters or potential voters.
    This concludes my remarks. AARP stands ready to work with Congress, 
the Administration and state governments to reform our voting and 
elections systems so that all Americans can have confidence that they 
can participate in the vote and have their preferences in elections 
accurately counted. I would be happy to respond to any questions that 
you may have.

    The Chairman. Thank you very much, Ms. O'Gara. Thank you 
for being here.
    Last, and certainly not least, my old friend Raul 
Yzaguirre. Welcome.

                 STATEMENT OF RAUL YZAGUIRRE, 
             PRESIDENT, NATIONAL COUNCIL OF LA RAZA

    Mr. Yzaguirre. Thank you, Mr. Chairman, for the opportunity 
to present our comments. I ask that the full text of my 
testimony be entered into the record.
    The Chairman. Without objection.
    Mr. Yzaguirre. I appreciate the opportunity to appear 
before you today to support a thorough revision of the voting 
process. The right to vote is fundamental civil right for all 
Americans. The National Council of La Raza supports efforts to 
remove barriers that inhibit Americans, especially the more 
vulnerable in our society, from exercising the right to vote. 
We believe that the discrepancies observed in Florida were not 
limited to that state.
    Many other states with close elections, New Mexico, for 
example, have some jurisdictions that use voting machines and 
procedures similar to those found in Florida. Furthermore, we 
have received evidence of irregularities found in other states 
like New York, which disproportionately affected language 
minority voters. We suspect that these irregularities represent 
the proverbial tip of the iceberg waiting to be uncovered in 
subsequent close elections, unless they are addressed now.
    The right to vote is guaranteed to all United States 
citizens by the Fifteenth Amendment to the United States 
Constitution. This right is extended to all people, including 
those for whom English is not their mother tongue. Despite 
these provisions of current law, there is evidence that some 
jurisdictions do not comply with federal language assistance 
provisions.
    For example, in testimony before the United States 
Commission on Civil Rights, the Puerto Rico Legal Defense and 
Education Fund reported that many registered Latino voters who 
had voted in immediate past elections went to the polls and 
were told their names could not be found on the rolls. Many 
voters not found on the rolls were not able to cast their 
votes. In violation of both federal and Florida laws, election 
poll workers often did not offer the use of alternative method 
of voting, i.e., the paper affirmation ballot.
    Some registered Latino voters went to their usual voting 
poll sites, only to be told that their names were not found. 
They were sent to other polling sites miles away, where again 
their names did not appear on the rolls. Many new Latino voters 
who had registered in a timely manner were not processed by 
government agencies. Because they did not receive their voter 
identity cards, they were not given an assignment of a poll 
site. They could not vote.
    Spanish-speaking Latino voters received no bilingual 
assistance at most polling sites. In most precincts, the entire 
election staff spoke English only and could not assist 
language-minority voters. In certain precincts, election staff 
told Latino voters to present more pieces of photo 
identification than non-Hispanics, even though no such legal 
requirement exists under Florida or federal law.
    Mr. Chairman, these kinds of problems were not just limited 
to Latinos in that state. Other language minorities, including 
Haitian Americans for whom language assistance is authorized in 
several jurisdictions under state law face serious barriers to 
voting. Testimony by Marleine Bastien before the NAACP 
describes lack of language assistance, other irregularities. 
Overall, Ms. Bastien described an atmosphere of intimidation 
which generally discouraged Haitian Americans from casting 
their vote.
    Nor were such irregularities limited to the State of 
Florida. A report presented on December 22 of the year 2000 to 
the New York Board of Elections by the Asian American Legal 
Defense and Education Fund observed inaccurate translations, 
lack of Chinese interpreters, Chinese characters on the ballot 
too small to read, problems processing voter registration 
forms, and lack of bilingual materials.
    The National Council of La Raza supports prudent, 
bipartisan election reform legislation that will: (1) create a 
substantial multiyear federal grants program to upgrade 
election technologies, (2) protect the voting Rights Act and 
National Voter Registration Act while ensuring that any 
activities under the new legislation are consistent with these 
existing laws, (3) set federally approved best practices for 
grant-eligible technologies, which includes standards to ensure 
accessibility, accuracy, and nondiscrimination, (4) structure 
priorities setting criteria to assure that jurisdictions with 
the most significant problems receive needed funding.
    NCLR is eager to see election reform that secures the right 
of all Americans to vote. Election reform should be guided by 
current law, ensuring access to the language-minority voters. 
It should not become a vehicle for adding barriers to any part 
of the voting process, whether it is voter education, 
registration, or casting a vote. We urge you to ensure 
additional unnecessary measures to, quote, confirm, or, quote, 
verify the eligibility of voters which have a clear disparate 
impact on Latinos or language minorities not be imposed.
    Mr. Chairman, I thank you for your leadership on this 
issue, and for your valiant work in electoral reform.
    [The prepared statement of Mr. Yzaguirre follows:]

           Prepared Statement of Raul Yzaguirre, President, 
                      National Council of La Raza
I. Introduction
    Chairman McCain, Ranking Minority Member Hollings, and the 
Committee, on behalf of the National Council of La Raza (NCLR), thank 
you for holding this hearing on an issue that is very important to the 
Latino community. NCLR is the nation's largest national Latino civil 
rights organization, which is an ``umbrella organization'' for more 
than 250 local affiliated community-based organizations (CBOs) and 
about 30,000 individual associate members. In addition to providing 
capacity-building assistance to our affiliates and essential 
information to our individual associates, NCLR serves as a voice for 
all Hispanic subgroups in all regions of the country.
    I appreciate the opportunity to appear before you today to support 
a thorough revision of the voting process. The right to vote is a 
fundamental civil right for all Americans, and NCLR supports efforts to 
remove barriers that inhibit Americans, especially the most vulnerable 
in our society, from exercising their right to vote.
    All Americans are concerned about the election irregularities 
observed during the 2000 presidential election. Hispanic Americans 
share these concerns. Although they have not been as widely-publicized 
as the experiences of some communities, we believe that too many 
Latinos were unfairly denied the opportunity to vote, or had their 
votes discarded, through no fault of their own. Since the media 
spotlight was cast on Florida's electoral process, we have learned 
about outdated voting machines, understaffed polling places, 
inexperienced poll workers, and confusion that left some registered 
voters' names off the books. We learned about polling places that moved 
without adequate notice--literally in the middle of the night--leaving 
hundreds of voters without knowledge of where to go to cast their vote. 
Some duly registered voters whose names were improperly purged from the 
rolls were denied an affidavit, or they were not offered one, and thus 
were unfairly excluded from the process.
    Language minority voters who requested the assistance of a 
bilingual volunteer or materials at the polls, as is their right in 
many jurisdictions, were denied such assistance. Reports indicate that 
in some counties, minority voters were asked for photo identification 
while White voters were not required to show any form of ID. Many polls 
in disproportionately minority precincts were closed even though voters 
were still in line; other polls had lines so long that some voters left 
the polling places without casting their vote.
    Moreover, we believe that the discrepancies observed in Florida 
were not limited to that state. Many other states with close elections, 
New Mexico for example, have some jurisdictions that use voting 
machines and procedures similar to those found wanting in Florida. 
Furthermore, we have reviewed evidence of irregularities found in other 
states, like New York, which disproportionately affected language 
minority voters. We suspect that these irregularities represent the 
proverbial ``tip of the iceberg,'' waiting to be uncovered in 
subsequent close elections unless they are addressed now.\1\
---------------------------------------------------------------------------
    \1\ NCLR is grateful for the assistance of the Asian American Legal 
Defense Education Fund (AALDEF), the Puerto Rican Legal Defense and 
Education Fund (PRLDEF), and the U.S. Commission on Civil Rights in 
preparing this testimony. NCLR is working in coalition with AALDEF, 
PRLDEF, the Mexican American Legal Defense and Educational Fund 
(MALDEF), the National Asian Pacific American Legal Consortium 
(NAPALC), the National Association of Latino Elected and Appointed 
Officials, the Asian Law Caucus, the League of United Latin American 
Citizens, the National Puerto Rican Coalition, the Asian Pacific 
American Legal Center of Southern California, and other organizations 
to monitor developments on election reform. The views cited herein are 
those only of NCLR, and may not represent the opinions of other 
organizations.
---------------------------------------------------------------------------
II. Hispanic and Language Minority Concerns with the 2000 Election
    The right to vote is guaranteed to all U.S. citizens by the 
Fifteenth Amendment to the U.S. Constitution. Every voter has the right 
to cast an informed and effective vote. This right is extended to all 
people including those for whom English is not their mother tongue. 
Language minorities are ensured protection and full participation in 
the electoral process by two separate provisions of the Voting Rights 
Act of 1965--Section 203 and Section 4(f)(4).\2\ Despite these 
provisions of current law, there is evidence that some jurisdictions do 
not comply with federal language assistance provisions. The following 
selected examples illustrate the pervasiveness of the lack of 
compliance with the language assistance provisions of the Voting Rights 
Act.
---------------------------------------------------------------------------
    \2\ In 1975 Congress added minority language provisions to the 
Voting Rights Act, and recognized that large numbers of American 
citizens who primarily spoke language other than English had been 
effectively excluded from participation in the electoral process. The 
denial of the right to vote among language minority citizens was 
``directly related to the unequal educational opportunities afforded 
them, resulting in high illiteracy and low voting participation.'' 42 
U.S.C. Sec. 1973aa-1(a).
---------------------------------------------------------------------------
    In testimony before the U.S. Commission on Civil Rights in January 
2001, the Puerto Rican Legal Defense and Education Fund reported the 
results of its investigation in Florida; specifically, it found that:

  <bullet> Many registered Latino voters who had voted in immediate 
        past elections went to the polls and were told their names 
        could not be found on the rolls. Consequently, they were not 
        allowed to vote, were sent home, or were required to wait many 
        hours while election poll workers sought unsuccessfully to 
        contact supervisors for approval to allow these voters to cast 
        their votes. In other cases, their grievances were ignored.

  <bullet> Many voters not found on the rolls were not able to cast 
        their vote. In violation of both federal and Florida laws, 
        election poll workers often did not offer the use of the 
        alternative method of voting the paper affirmation ballot.

  <bullet> Some registered Latino voters went to their usual voting 
        poll sites only to be told that their names were not found. 
        They were sent to other polling sites miles away, where again, 
        their names did not appear on the rolls. Voters became 
        frustrated, confused, and gave up--leaving without voting.

  <bullet> Many new Latino voters who had registered in a timely manner 
        were not processed by government agencies. Because they did not 
        receive their voter registration identity cards and were not 
        given an assignment of a voting poll site, they could not vote.

  <bullet> Latino voters who went to the polls after work and arrived 
        between 15 and 25 minutes before the official closing hour were 
        told they could not vote and were turned away.

  <bullet> Spanish-speaking Latino voters received no bilingual 
        assistance at most polling sites. In most precincts, the entire 
        election staff spoke English only, and could not assist 
        language minority voters.

  <bullet> At certain precincts, election staff told Latino voters to 
        present more pieces of photo identification than non-Hispanics, 
        even though no such legal requirement exists under Florida or 
        federal law.\3\
---------------------------------------------------------------------------
    \3\ Testimony of Mr. Jackson Chin, Puerto Rican Legal Defense and 
Education Fund, before the U.S. Commission on Civil Rights, January 11, 
2001.

    Mr. Chairman, these kinds of problems were not just limited to 
Latinos in that state. Other language minorities, including Haitian 
Americans for whom language assistance is authorized in several 
jurisdictions under state law, faced serious barriers to voting. 
Testimony by Marleine Bastien before the NAACP on November 11, 2000, in 
Florida, describes in great detail the hardship experienced on Election 
Day by the Haitian American community. Ms. Bastien, a Haitian American 
community leader in South Florida, spent part of her day on Election 
Day at a Creole radio station receiving calls from Haitian American 
voters who called complaining about the treatment they encountered at 
polling places. Later, Ms. Bastien went to one of the polling places 
voters complained most about and witnessed the experiences of Haitian 
---------------------------------------------------------------------------
American voters; she testified that:

  <bullet> Lack of language assistance: There were forty-seven 
        precincts located in areas where the majority of the population 
        is Haitian or of Haitian descent, for whom Creole is their 
        native language. State law mandated that ballots be printed in 
        Creole to serve the Haitian American community living in those 
        forty-seven precincts. At the precinct she visited, Ms. Bastien 
        indicated that many Haitian American voters left without voting 
        because the ballots confused them and there was no one to 
        assist them. Even though there was a Creole-speaking volunteer 
        willing to assist Haitian American voters, the polling place 
        supervisor denied assistance to the voters, claiming that none 
        were entitled to special treatment. Ms. Bastien showed the 
        polling place supervisor a pamphlet printed by the Florida 
        Department of Elections, which authorized a procedure to secure 
        volunteer language assistance to people who needed it, but even 
        then, Haitian American voters were denied assistance.

  <bullet> Other irregularities:  Many Haitian Americans voted, or 
        tried to vote, for the first time last year. Many were turned 
        away from polling places because they did not have their voting 
        card. They were asked to show identification documents even 
        though they were registered to vote. Other Haitian American 
        voters were unable to vote because they stepped out of line and 
        they were told they had lost their chance to vote. Many voters 
        were denied their right to vote because their polling place 
        closed earlier than 7:00 p.m., the official closing time. Some 
        Haitian American voters who were able to vote reported that 
        poll workers collected their voting cards instead of 
        instructing them to put the voting cards in the box. People 
        were left to wonder whether their voting cards were discarded. 
        Overall, Ms. Bastien described an atmosphere of intimidation, 
        which greatly discouraged Haitian Americans from casting their 
        vote.\4\
---------------------------------------------------------------------------
    \4\ Testimony of Ms. Marleine Bastien, before the NAACP, November 
11, 2000.

    Nor were such irregularities limited to the State of Florida. A 
report presented on December 22, 2000 to the New York Board of 
Elections by the Asian American Legal Defense and Education Fund 
(AALDEF), found that the failure of the Board of Elections to prepare 
adequately for heavy turnout city-wide created severe problems for 
Asian-language voters. On November 7, 2000, AALDEF attorneys and 
---------------------------------------------------------------------------
volunteers monitored 20 polling sites in New York City; they observed:

  <bullet> Inaccurate translations. The Chinese translation for 
        ``Democrat'' and ``Republican'' were reversed. Paper ballot 
        requested by absentee voters also contained mistakes in the 
        Chinese-language instructions.

  <bullet> Lack of Chinese interpreters. At polling sites across the 
        city, particularly those places with dense Asian populations, 
        there were insufficient numbers of interpreters to serve 
        Chinese-speaking voters.

  <bullet> Chinese characters on the ballot too small to read. 
        Obviously, the fundamental purpose of language translations is 
        undermined when the characters are unreadable on the machine 
        ballot.

  <bullet> Problems processing voter registration forms. Asian 
        Americans experienced many problems in registering to vote. 
        Many newly-naturalized citizens never received a voter 
        confirmation postcard from the Board of Elections. Thus, they 
        did not know the location of their polling sites. In 
        registering to vote, a number of Asian American voters 
        complained that they were asked to show proof of U.S. 
        citizenship before their voter registration forms would be 
        processed, even though White registrants were not asked for 
        such proof.

  <bullet> Lack of bilingual materials. A number of polling sites and 
        election districts did not have Chinese language materials or 
        did not use them effectively, as mandated by Section 203 of the 
        Voting Rights Act.\5\
---------------------------------------------------------------------------
    \5\ Letter from AALDEF to Mr. Daniel DeFrancesco, New York Board of 
Elections, December 22, 2000.

    These are clear examples of the lack of compliance of some 
jurisdictions with the language assistance provisions and other 
protections of the Voting Rights Act or state law. We believe they are 
no less important than the irregularities experienced by other 
Americans in the 2000 election, and we expect that any election reform 
legislation considered by the Congress should address them.
III. Election Reform
    The National Council of La Raza supports prudent, bipartisan 
election reform legislation. NCLR has been working in concert with the 
League of Women Voters and a broad coalition of civil rights 
organizations interested in improving the electoral process. We believe 
that several key elements must be included in an election reform bill, 
which would guarantee that the voting process is accessible to all 
eligible citizens. These key elements are as follows:

    1.  Create a substantial, multiyear federal grants program to 
upgrade election technologies, including:

    <bullet> Improved voting equipment and associated counting 
        mechanism

    <bullet> State-wide technologies on a uniform basis, such as 
        computerized voter registration lists
    2.  Protect the Voting Rights Act and the National Voter 
Registration Act, while ensuring that any activities under the new 
legislation are consistent with these existing laws.

    3.  Set federally-approved ``best practices'' for grant-eligible 
technologies which include standards to ensure:

    <bullet> Accessibility and convenience for the voter, including 
        voters with disabilities

    <bullet> Accuracy, including safeguards for maintaining voter rolls

    <bullet> Nondiscrimination, including full participation of 
        language minorities, racial and ethnic minorities, and people 
        with disabilities

    4.  Structure priority-setting criteria to ensure that 
jurisdictions with the most significant problems receive needed 
funding.
IV. Recommendations
    Consistent with these principles, and speaking from the perspective 
of the Latino and language minority community, NCLR urges the enactment 
of legislation that:

    1.  Fully protects and compliance with existing civil rights laws, 
including the Voting Rights Act and the National Voter Registration 
Act.

    2.  Encourages the compliance and implementation of language 
minority assistance provisions of the Voting Rights Act.

    3.  Provides statewide multiyear federal funding for program to 
upgrade election technologies, including improvement of voting 
equipment and associated counting mechanism, and technologies on a 
uniform basis, such as computerized voter registration lists.

    4.  Does not impose additional, unnecessary barriers to voting.

    NCLR is eager to see election reform that secures the right of all 
Americans to vote. Election reform should be guided by current law 
ensuring access to language minority voters. It should not become a 
vehicle for adding barriers to any part of the voting process, whether 
it is voter education, registration, or casting a vote. We urge you to 
ensure that additional, unnecessary measures to ``confirm'' or 
``verify'' the eligibility of voters--which have a clear, disparate 
impact on Latinos or language minorities--are not imposed.
    In the past we have seen legislation that attempts to cross-
reference the citizenship of registered voters and voter registration 
applicants against Social Security Administration and Immigration and 
Naturalization Services databases. Because of the well-documented 
inaccuracies with such databases, reliance on these systems for 
verification of citizenship will result in massive numbers of ``false 
negatives,'' i.e., legitimate U.S. citizens whose status may not be 
verifiable through computer matches. These systems lack the capacity to 
confirm the status of significant categories of both native-born and 
naturalized U.S. citizens. Other proposals would authorize registrars 
or poll workers to challenge the identity or citizenship status of 
persons seeking to register or vote, based on the mere suspicion that 
such persons may be ineligible. Mr. Chairman and Members of the 
Committee, such proposals would inevitably thwart the fundamental 
purpose of the election reform effort, which should be focused on 
expanding--and not further limiting--the ability of all Americans to 
participate fairly and equally in the electoral process.
    I thank the Chairman, the Ranking Member, and the Committee once 
again for providing NCLR an opportunity to share its views on election 
reform.

    The Chairman. I thank you, and the witnesses. I want to 
apologize for the lateness of your appearance, because you 
represent those who are in most danger of losing the ability to 
exercise our most precious right. Your testimony is important.
    As you know, this is the first in a series of hearings to 
be held by the Commerce Committee. The Rules Committee will 
also hold hearings. I want to comment to you that I believe 
that the concerns expressed by this panel should be given the 
highest priority as we consider the much-needed electoral 
reform. Mr. Henderson, I do take your recommendation and that 
of other members and witnesses very seriously. We need to 
implement these reforms by the 2002 election.
    At the same time, I believe that the testimony presented 
this morning concerning optical scanning has indicated to us 
that perhaps the readily apparent solutions are not, indeed, 
readily apparent. Reforming this process will require a full 
and in-depth study of the problems and the results of the last 
election.
    I think that all members of this panel can play a vital 
role in helping to shape legislation that will be necessary to 
cure the obvious ills of this system. The bad news is, those 
ills have been there for a long time. It is unfortunate that it 
took this kind of publicity to goad the Congress and the 
American people in to action. The good news is, I believe we 
will act. But I do not believe we can act to ensure fairness to 
all unless you are intimately involved in the process as we 
shape legislation.
    Finally, could I just mention the military ballot. As Mr. 
Henderson and Mr. Yzaguirre certainly understand, a very large 
percentage of our military happen to be Hispanic and African 
American. We want to make sure that they are adequately 
informed, and that the procedures enabling them to vote are 
streamlined in whatever way possible.
    The fact that an American happens to be in Saudi Arabia, or 
on an aircraft carrier in the middle of the Pacific Ocean, 
should not be a reason why they should not vote, rather a 
reason for us to take extra steps to ensure that they are able 
to vote. These Americans are out there defending the rest of 
us.
    If there are any final comments, we would like to start 
with you, Mr. Bollinger.
    Mr. Bollinger. Thank you, Mr. Chairman. Again, thanks for 
having this hearing, and thanks for having us testify today. I 
guess my only parting comment would be, with at least four laws 
on the books now addressing to some degree voting rights for 
people with disabilities, and a lot of good intentions, we 
still have a long way to go, and we look forward to playing a 
role with you as you create legislation, and wish you well, and 
hope that we can accomplish quite a bit between now and the 
next election.
    The Chairman. Thank you. Mr. Henderson.
    Mr. Henderson. Yes, Mr. Chairman. First of all, thank you 
again for the hearing, and thank you for your comments about 
your commitment to proceed expeditiously to try to address 
these problems.
    Third, I think your point about the military is absolutely 
on target and, indeed, including a streamlining of the military 
vote procedure is an important part of protecting the civil 
rights of all Americans.
    Then last, my written testimony addresses this issue, but I 
did not mention it in my oral summary, and that is the issue of 
Internet voting. I heard this morning with other panels, 
Members of the Committee, of course, encouraging review of 
Internet voting and the possible development of Internet 
voting, and certainly while the use of technology to improve 
our lives and to improve the process of voting is important, I 
have to take note of the National Science Foundation study 
which was noted yesterday, which suggests proceeding down this 
area with some caution.
    And while the National Science Foundation did not mention 
this, certainly we are aware of existing disparities in the use 
of Internet and other computer-based technology in ways that 
trouble us, that pursuing Internet voting as an exclusive 
alternative to some of the problems that we have identified 
may, in fact, exacerbate those disparities among people of 
racial and linguistic minorities, and also of persons because 
of their income or class who have not had as much full 
participation in the use of Internet technology, so we are 
concerned about the issues of the digital divide and how they 
could have impact in this area.
    The Chairman. Thank you.
    Ms. O'Gara.
    Ms. O'Gara. I think the question of fairness is critical as 
we go ahead in looking at technological change. I was very 
disturbed this morning to hear that the disenfranchisement that 
occurred using technological innovations in Georgia, especially 
as they relate to minority voters. Was there not a chance 
provided to educate and inform them prior to the election? It 
would seem to me that possibly many of those people did not 
know how to use the machines. I do not know; that is just my 
feeling. But I was worried about that.
    The Chairman. Thank you, and we learned a lot from that 
panel.
    Mr. Yzaguirre.
    Mr. Yzaguirre. Thank you, Senator. Two points.
    I want to stress how important an issue this is for our 
community. We are the least-represented, politically speaking, 
community in this country, and so if we are going to become 
part of this society as now perhaps the largest minority in 
this nation, we need access to the voting process, and your 
presence here emboldens me to say something that I probably 
should not be saying, but I want to make a comment.
    Speaking as somebody who served in the Armed Forces for 4 
years, in the Air Force, and proud of my record, and proud of 
my involvement, I thoroughly agree with you that we need to 
protect the voting rights of our military, but there seems to 
be a subtext that somehow those votes are more important than 
other votes, and I just want to make sure that, you know, 
whether you are in the Armed Forces or in a ghetto or working 
the fields, your vote is equally important, so I want to make 
sure that we consider all populations as equally important in 
the voting process.
    The Chairman. I am glad you made that point. As we 
encourage their participation, we also need to take the same 
measures to prevent the abuse of any voting procedures. Because 
an abused vote or a vote fraud, no matter where it occurs, is 
unacceptable.
    I appreciate your making that point, and in our zeal to 
make sure that members of the Armed Forces are given every 
opportunity to vote, we must also guard against any fraudulent 
practice, and I thank you for making that point.
    I thank the panel. Thank you for your patience and thank 
you for your participation. I believe that this will be the 
first of many instances of your involvement in this very 
important issue. I thank you. This hearing is adjourned.
    [Whereupon, at 12:25 p.m., the Committee adjourned.]

                                APPENDIX

    Response to Written Questions Submitted by Hon. John McCain to 
                             Bill Bradbury

    Question 1. Oregon's Vote-by-Mail approach is very impressive, 
particularly in its ability to increase voter turnout and to improve 
accessibility for Americans with disabilities. However, problems still 
persist with the use of punch-card machines. What machines would you 
encourage the state to buy if money was not a concern?
    Answer. We are strongly supporting legislation now moving through 
our Legislature that would require counties to replace punch-card 
systems prior to the 2004 election cycle. That legislation does not 
mandate the use of any specific technology. However, the other 29 
counties in Oregon currently use optical scan technology and we believe 
that the clerks in punch card counties would opt for that technology as 
well.

    Question 2. How will Oregon approach election modernization should 
federal funds not be made available before the 2002 and 2004 elections?
    Answer. Given the fiscal realities currently being faced by the 
Oregon Legislature, I do not anticipate that they will appropriate 
sufficient funding to replace punch cards during the current 
Legislature. However, at least one of the punch-card counties in Oregon 
had planned to replace their equipment prior to 2004 even before 
national attention was focused on its shortcomings. Absent significant 
federal dollars becoming available, I would anticipate that most of the 
seven punch-card counties in 2000 would still be using the technology 
in 2004.

    Question 3. Beyond simply providing funding, what role do you 
believe the federal government should play in this modernization 
process? What do you think would be most helpful to states?
    Answer. Clearly federal funding is critical to our ability to 
replace punch cards. I want to ensure that the federal government 
continues to recognize the important differences among the states, such 
as vote-by-mail, and ensure that any federal solution does not trample 
on innovation in the states.

    Question 4. You mentioned that when a voter makes a mistake using a 
punch card, under Oregon's Vote-By-Mail system, that he or she must 
write the county's elections office or travel to that office to request 
a new ballot. How are requests handled if they are received after 
election day?
    Answer. By law, all ballots must be received by an elections 
official prior to 8:00 p.m. on election day to be counted. Therefore, 
any request for a new ballot coming after the deadline would be denied.

    Question 5. While a centralized voter registration system would 
clearly be beneficial to your state, what measures are currently in 
place to reduce the likelihood that voters will vote multiple times in 
several counties?
    Answer. We provide a strong legal deterrent, in that voting more 
than once is a class C felony punishable by up to five years in prison 
and a $10,000 fine. Enforcement is made more difficult by the lack of a 
centralized system. That is why the adoption of a centralized voter 
registration system is my highest legislative priority.

    Question 6. Have you made any overtures to advise states interested 
in adopting a system similar to Oregon's Vote-by-Mail system? Have any 
expressed interest?
    Answer. We have received inquiries from all over the country about 
our vote-by-mail system. We are quick to point out to those who are 
interested in such a system, that we had twenty years of experience 
with vote-by-mail in local elections prior to its adoption in 1998 for 
all elections. We strongly recommend against a complete change from 
polling places to vote-by-mail without a transition period of several 
election cycles.

    Question 7. Several witnesses from our second panel testified that 
millions of Americans were disenfranchised for reasons based upon the 
color of their skin or their physical disabilities. Does your state 
have systems in place to assess the needs of minority voters, bilingual 
voters, or voters with disabilities? Do you have adequate numbers of 
trained poll workers to address the varied needs of these voters?
    Answer. There is no prohibition of any voter receiving assistance 
in completing their ballot by anyone. Additionally, there is a 
provision in law (Oregon Revised Statutes 254.445) that requires a 
county clerk to provide to any voter unable to complete the ballot the 
assistance of two people (one form each of the major political parties) 
to assist in completing the ballot. For those individuals who are 
unable to leave home, that assistance is provided at their home. The 
counties have not experienced widespread difficulties in finding and 
training people to assist voters.

    Question 8. A bipartisan task force in Florida has recommended both 
a uniform statewide system and spending $20 million to lease equipment 
in time for the 2002 election. Would you please comment on the task 
force's recommendation and how similar actions would impact your 
respective states?
    Answer. While I believe that there would be benefit to having a 
uniform statewide voting system, I do not believe that the costs 
outweigh the benefits. I commissioned, jointly with the Oregon 
Association of County Clerks, a task force to study the 2000 General 
Election and make recommendations. A copy of the Oregon Elections Task 
Force Report can be found on the Oregon Secretary of State Elections 
Division web page at http://www.sos.state.or.us. The task force 
concluded that further study of a uniform vote tally system was needed. 
I would rank moving to a uniform system well below the need for a 
centralized voter registration system and the need to replace punch 
cards.
    Question 9. Have you studied the impact of using optical-scanning 
equipment on site, accessible to your voters, to allow them to correct 
mistakenly filled-out ballots? Does this provide an effective 
alternative to simple punch-card systems, at a lower cost than other 
equipment?
    Answer. Since we vote-by-mail, there is not a ``site'' for the vast 
majority of voters. Although we do provide drop sites for ballots, many 
of those are unstaffed receptacles similar to a blue street-corner 
mailbox. There is an additional logistical problem in moving away from 
centralized counting. The law requires the clerks to verify each 
signature on the ballot envelope prior to opening and counting the 
ballot. Decentralizing the counting of ballots would significantly 
complicate the verification of signatures and ensuring that the voter 
casts only one ballot.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                             Ron Thornburgh

    Question 1. How do you intend to develop the type of vote counting 
system mentioned in your testimony, at the state level? Would you like 
to see vote counting added to a list of voluntary national standards, 
established at the national level?
    Answer.
        a.  I have introduced legislation in the Kansas Legislature to 
        improve the vote counting process, particularly in promoting 
        uniformity in procedures among the counties.
        b.  I have developed a plan and am seeking state funding to 
        improve training of county election officers and county boards 
        of canvassers to promote uniformity in ballot distribution and 
        tabulation and to reduce errors in these processes.
        c.  I am developing printed guides to enhance uniform 
        compliance with existing state laws on vote tabulation, 
        recounts and election contests.
    Some general guidelines at the national level for vote counting 
could be useful, but specific rules must be made by states, taking into 
account the voting systems used and existing state laws governing the 
electoral process.

    Question 2. How has Kansas addressed the need for increased funding 
for poll worker and voter education, as part of its effort to improve 
the election process?
    Answer. I have developed a ``Six-Point Plan for Election 
Improvement'' in Kansas. I am seeking a modest legislative 
appropriation to cover the costs. The Plan includes development of 
guides for vote tabulation, training sessions for county election 
officers, a four-state Midwest Election Officials Conference (with 
Missouri, Iowa and Nebraska), and a technology exposition to 
familiarize county election officers with the latest technology 
available.

    Question 3. In your testimony you mentioned the importance of 
ensuring ``equal protection.'' What specific measures have you taken in 
Kansas to achieve this goal? And how do you propose other states work 
to provide all of their citizens with ``absolute and unobstructed 
access to the voting process?''
    Answer. When we receive reports that someone has been illegally 
denied access to the ballot, my office works with local officials to 
investigate those matters and to provide information to local 
prosecutors.
    When considering new voting equipment for certification, one 
consideration is its accessibility. In my experience nearly all the 
voting equipment brought to me for certification in Kansas in recent 
years has been designed to enhance accessibility for disabled persons. 
There has been much improvement in this area in recent years. When 
counties consider adopting and purchasing new equipment, my office 
emphasizes to them the importance of accessibility in making their 
decisions.
    I think all states should cooperate with the Federal Election 
Commission in the updating of the voting equipment standards. States 
must work with various private associations that promote access for 
disabled persons to constantly improve access and meet the needs of 
disabled persons within the limits of local budgetary concerns.
    States must work with their respective local election officers to 
continually review their polling sites for accessibility.

    Question 4. Would you address the need for a uniform statewide 
voting technology, similar to that proposed by Secretaries Cox and 
Harris, to ensure equal protection under the Constitution?
    Answer. As I stated in my testimony before your Committee, I do not 
favor a uniform, one-size-fits-all voting system for the entire nation 
or even for the entire state of Kansas. I support the development of 
voluntary national standards. Many different voting systems can exist 
within a given set of standards, each system complying with those 
standards and also meeting the requirements of the respective state 
laws.
    I support the right of a given locality to choose the system that's 
right for that locality from a list of available, certified voting 
systems. Each locality is the best judge of its own demographic and 
budgetary realities that dictate their decisions.

    Question 5. Several witnesses from our second panel testified that 
millions of Americans were disenfranchised for reasons such as the 
color of their skin or their physical disabilities. Does your state 
have systems in place to assess the needs of minority voters, bilingual 
voters, or voters with disabilities? Do you have adequate numbers of 
trained poll workers to address the varied needs of voters?
    Answer. Kansas has specific laws requiring the accommodation of 
disabled voters. We do not have specific laws regarding minority voters 
or bilingual voters.
    Voters do not register their racial or ethnic characteristics or 
their disabilities during the voter registration process. Special needs 
are assessed at the point where the ballot is requested, either at the 
polling place or during the absentee/early voting process. Voters 
needing assistance may request it from a poll worker or another person 
of the voter's choice.
    Kansas has no special rules governing bilingual ballots. We are 
subject to federal regulations on this, and to my knowledge no 
jurisdictions in Kansas have met the qualifications to require 
bilingual ballots.
    Our local election offices have adequate numbers of poll workers to 
address the varied needs of voters.

    Question 6. Have you studied the impact of using optical-scanning 
equipment, on site, to allow voters to correct mistakenly filled out 
ballots? Does this provide an effective alternative to simple punch-
card systems, at a lower cost than other equipment?
    Answer. In Kansas, 81 of 105 counties use optical scanning ballot 
systems. Some of them use a central-count system and some use a 
precinct-count system. I have thought for years that optical scan 
systems are an effective alternative to punch cards. As stated earlier, 
we have had no punch card systems in use in Kansas for many years.
    Precinct scanning systems do have an advantage of identifying a 
mismarked ballot and enabling the voter to correct it. However, a 
disadvantage is that such systems require more scanning hardware and 
thus have a much higher implementation cost.
    The cost of systems is relative to the number of units required, 
the number of precincts, and the number of voters per precinct. I am 
not aware that optical scan systems are more expensive than punch card 
systems.

    Question 7. A bipartisan task force in Florida has recommended both 
a uniform statewide system and spending $20 million to lease equipment 
in time for the 2002 election. Would you please comment on the task 
force's recommendation and on how similar actions would impact your 
state?
    Answer. State laws would have to be changed in Kansas to provide 
for a uniform state voting system because current law authorizes the 
county to make this decision for itself.
    Further, as stated in my testimony I do not support imposing the 
same voting system on each state or even on each county and locality 
within a state.
    A uniform system might be right for Florida; it appears from the 
2000 election experience that Florida had less uniformity in voting and 
tabulating procedures than did some states.

    Question 8. You expressed the need for improved voting equipment 
and technology. Is it likely that states will be able to install new 
equipment and technology in time for the 2002 or 2004 elections, even 
if federal matching funds are made available?
    Answer. It is possible to purchase and install new equipment in a 
given locality in time for the 2002 election, but we must act now. As a 
practical matter, it might make more sense to wait until 2004, 
especially in areas which have not experienced serious problems 
recently.

    Question 9. Beyond simply providing funding, what role do you 
believe the federal government should play in this modernization 
process? What do you think would be most helpful to states?
    Answer. Beyond providing funding, the federal government can 
commission ad hoc studies to identify the problems and propose 
solutions and can authorize permanent agencies, such as the Federal 
Election Commission and the Federal Voting Assistance Program, to 
oversee disbursement of funds.
    Further, these permanent agencies can update standards for voting 
equipment and procedures.
    The most helpful type of federal involvement would be to: (1) 
provide funds on an ongoing basis with few strings attached, and (2) 
consult with state and local election officials to identify needs and 
solutions.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                               Cathy Cox

    Question 1. Many states, including Florida would like to shift to a 
uniform electronic voting system.

        (a) What evaluation process are you using to determine which 
        technology is most suitable for your state?

        Answer. There are a number of ways we have begun to evaluate 
        the performance of various election systems, both those 
        currently in use in Georgia and systems we may wish to deploy 
        in the future. As mentioned in my testimony, we have spent a 
        good deal of time evaluating the performance of the four 
        systems currently in use in Georgia--punch card, opti-scan, 
        lever machine and paper ballot--and have looked closely at the 
        question of how likely voters are to cast an accurate ballot 
        when using the various equipment types. We also have 
        scrutinized precinct level data to see if we can find patterns 
        in undervoting by race or geographic region.
        Our analysis has also included extensive discussion with county 
        election officials and others involved in the elections process 
        and information sharing with other states and counties about 
        their experience with equipment types. Our conclusion is that 
        Georgia should adopt a uniform electronic voting system because 
        we believe it offers the best opportunity to minimize voter 
        confusion and errors in the computation of votes.
        Our election reform legislation, SB 213, which passed the 
        General Assembly last week, establishes a mandate for uniform 
        voting equipment by 2004, authorizes a pilot project to field 
        test different types of equipment in municipal elections this 
        fall and establishes a 21st Century Voting Commission, a 
        bipartisan group to assist our office in evaluating the 
        strengths and weaknesses of machinery from several different 
        suppliers.

        (b) Will you establish minimum performance standards for voting 
        machines before you purchase them?

        Answer. Clearly, any equipment we consider for lease or 
        purchase must meet certification standards at both the state 
        and federal level. We also believe, and have written into our 
        new reform bill, that any new electronic systems we deploy must 
        have an independent audit trail--a manual printout of voter 
        choices which will provide a back-up in case of equipment 
        failure, election contest or recount, etc.

        (c) How will you prioritize the order in which precincts 
        receive new or refurbished machines?

        Answer. The order and speed of equipment replacement will be 
        extremely dependent on the status of state and federal funding. 
        While we will ask the new Voting Commission to examine this 
        question, we anticipate that top priority will be given to 
        counties that currently use punch card ballots.

        (d) What is the projected total cost to the State of Georgia?

        Answer. Cost estimates for the purchase of equipment statewide 
        have ranged from $20 to $200 million. In a leasing arrangement 
        the cost structure would vary considerably. Our new reform 
        package provides that the state will acquire equipment, but 
        counties and municipalities will be responsible for certain 
        infrastructure expenditures (electricity, phone lines, etc.) to 
        effectively deploy the equipment we acquire.

    Question 2. Have you studied the benefits of using optical-scanning 
equipment on site, to allow voters to correct mistakenly filled-out 
ballots? Does this provide an effective alternative to simple punch-
card systems, at a lower cost than other equipment? How does having 
opti-scan machines on-site affect the undervotes percentage rates?
    Answer. While many of the counties that operate precinct-based 
optical scan equipment have the capability to program their machines to 
reject overvoted ballots, in practice few, if any, counties actually do 
so. County election officials have indicated they believe such a 
practice would create delay and confusion, with electors being put back 
into lines for ballots in an already crowded precinct. Such ballot 
``kick out'' capabilities, even if utilized, do not allow an elector to 
correct an accidentally undervoted ballot.
    In Georgia, we have found that the alleged benefits of the ballot 
rejection feature of precinct scanners are not typically realized in 
the real world of elections. This practice also presents significant 
problems for the secrecy of the ballot selection, since a poll worker 
will nearly always need to examine the ballot to be able to describe to 
the voter what caused the ballot to be kicked out. It is simply not a 
practical solution to tell an elector--``Your ballot was rejected, I 
cannot tell you why, you need to start over with your voting.''
    All optiscan equipment, however it may be configured, lacks two 
capabilities of the electronic equipment we prefer. It does not 
prohibit overvoting at the time the choices are being made, and it does 
not provide feedback to the voter, with confirmation screens to verify 
choices, during the voting process. No opti-scan equipment in use in 
Georgia will indicate to the voter that they cast an accidental 
undervote.
    The presidential undervote percentages for the two types of 
optiscan systems in Georgia are as follows:

        Central Count Optiscan--46 counties
        Absolute average: 3.5 percent
        Mean average: 4.2 percent
        Precinct Count Optiscan--21 counties
        Absolute average: 2.1 percent
        Mean average: 5.2 percent

    While the absolute percentage of undervote is lower in precinct 
count locations, there is wide variation in performance from county to 
county. In fact, 9 of the 21 precinct count optiscan counties had 
undervote rates of 5 percent or higher, including rates of 6.2 percent, 
6.4 percent, 7.7 percent, 9.1 percent and 15 percent in five respective 
counties.

    Question 3. You expressed the need for improved voting equipment 
and technology. Is it likely that states will be able to install new 
equipment and technology in time for the 2002 or 2004 elections, even 
if federal matching funds are made available?
    Answer. With federal matching funds in hand, we believe it is 
feasible to begin deployment of new equipment in some counties by 2002, 
but we certainly do not expect the process to be completed that soon. 
The legislation recently enacted sets as our goal full deployment, in 
all 159 counties, by July of 2004. That is an ambitious goal, but one 
we believe can be achieved if budget dollars are made available.

    Question 4. Beyond simply providing funding, what role do you 
believe the federal government should play in this modernization 
process? What do you think would be most helpful to states?
    Answer. The federal government can play a valuable role in 
assisting states in the testing and evaluation of equipment--that which 
is currently available on the market and that which will be entering 
the marketplace in the future. Our admittedly limited analysis of the 
racial disparities in undervoting, (although we believe more 
comprehensive than that performed by any other state election official) 
and the influence that voting equipment has on those variations, points 
to the need for a much more comprehensive national evaluation of the 
impact of equipment on successful voter participation. This component 
of Senator McCain's bill would be especially helpful going forward. We 
need to apply the Nation's best, most sophisticated analytical 
resources to study not only issues of speed, accuracy and ballot 
security, but also how the voter interface impacts different 
populations of voters.

    Question 5. While you spoke at length about the need for improved 
technology, you did not mention the need for improved voter and poll 
worker education. Is this a concern in Georgia? What steps are you 
taking to address this need?
    Answer. Although my testimony did not touch on this issue, please 
note that our January 2001 report, The 2000 Election: A Wake-Up Call 
For Reform and Change, which was submitted to the Committee, discusses 
these issues at considerable length. Technology alone will not produce 
the more fair and more accurate elections we desire. In Georgia, as in 
most states, serious problems exist with the recruitment, training and 
retention of poll workers. Our report, while offering no ``magic 
bullet,'' offers several suggestions to strengthen the ``people side'' 
of elections--from recruiting teachers and high school students to work 
at the polls, to mandating training for poll workers and producing 
standardized training materials to better prepare them for the demands 
of election day, to expanding outreach efforts and encouraging more 
participation by statewide associations, civic clubs and youth groups. 
Additionally, the Georgia General Assembly just passed legislation that 
we sponsored to increase the training requirement for election 
officials from 12 hours biennially to 12 hours annually. Increased 
training is also set forthestablished for poll workers and deputy 
registrars.
    Much more also must be done to educate electors on how to vote a 
valid and accurate ballot. Today, such efforts are nearly impossible 
because of the crazy quilt of differing voting systems deployed in 
Georgia's 159 counties. One of the greatest virtues of a new uniform 
system will be our ability to broadly and clearly communicate to 
voters, well before election day, exactly how the equipment works, what 
they will be asked to do when they arrive at the polling place and how 
they can be sure their electoral choice is accurately tabulated.

    Question 6. You mentioned that it doesn't take an election expert 
to know that when you have more than 1 in 10 ballots register no 
choice, something is seriously wrong with the system. Did Georgia have 
similar high numbers of undervotes in previous elections? What was done 
to address the problem?
    Answer. We arrive at our presidential undervote numbers by 
subtracting the total number of votes cast in that race in a county or 
precinct from the total number of ballots issued in that county or 
precinct. The ``apples to apples'' comparison to assess whether 
undervote rates were higher, lower or the same in previous elections 
would be 1996. Unfortunately, the statewide ``ballots issued'' data was 
not compiled until 1998, so we simply cannot say how the 2000 election 
experience compares with previous presidential years. It is certainly 
our belief that the problem of unacceptably high undervoting is not 
new, but we do not have the data to confirm that belief.

    Question 7. Several witnesses from our second panel testified that 
millions of Americans were disenfranchised for reasons based on the 
color of their skin or their physical disabilities. Does your state 
have systems in place to assess the needs of voters from minority, 
bilingual, or disabled communities? Do you have adequate numbers of 
trained poll workers to address the varied needs of voters?
    Answer. As I noted in my testimony, our data indicates that 
undervoting is more common in predominantly African-American precincts. 
However, the data does not bear out the claim made by some that only 
areas of high minority population have severe problems with casting 
accurate ballots. In Georgia we saw very high undervoting rates in 
areas with very small minority populations as well as counties with 
more diverse populations.
    One of the mandates for the new 21st Century Voting Commission will 
be to assess the impact of elections systems on all of the communities 
referenced in your question. We do not have enough trained poll workers 
today to address the varied needs of voters. We also do not have 
systems that can be easily configured to accommodate the needs of the 
disabled and those who do not read English well. We believe the 
electronic equipment, or DRE's, we plan to deploy provide much more 
attractive options to accommodate the needs of the disabled and 
language minorities.

    Question 8. A bipartisan task force in Florida has recommended both 
a uniform statewide system and spending $20 million to lease equipment 
in time for the 2002 election. Would you please comment on the task 
force's recommendation and how similar actions would impact your state?
    Answer. As a fundamental principle I think the people of Florida 
should craft solutions that best meet the needs of their state, and 
Georgia should do the same. For our state, I believe an interim measure 
that would adopt optiscan as a temporary uniform solution would be 
unwise, because of the high error rates experienced in many current 
optiscan counties and the higher undervote gap between black and white 
voters in these areas. A uniform statewide system is not just 
desirable, it is mandatory, and with the passage of our reform package 
Georgia may be the first state in the nation to enact legislation that 
mandates a uniform system by 2004. We also hope to move toward a new 
system of voting equipment only once--i.e., we do not wish to educate 
Georgia's four million voters about one type of equipment in one 
election, and then do so again two years later for another type of 
equipment.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                             John Bollinger

    Question 1. Last summer Senator Harkin and I requested that GAO 
conduct a study to determine the number of disabled Americans who were 
disenfranchised during the November 2000 election. Although the results 
from that study will not be released until this spring, I am interested 
to learn if PVA or the National Organization on Disability conducted 
their own review?
    Answer. PVA did not do an independent study of its members after 
the election. The National Organization on Disability did sponsor a 
poll conducted by Lou Harris after the election. That poll found that 
during the 2000 election, only 14 million of the 35 million people with 
disabilities of voting age voted. Only 62 percent of eligible people 
with disabilities are registered to vote, as opposed to 78 percent of 
the general population.

    Question 2. Would you describe the typical voting experience of 
Americans with physical disabilities? How is the process different for 
visually impaired voters? Do all disabled voters receive the same 
protection under the law?
    Answer. The voting experience for Americans with physical 
disabilities can be quite challenging. If there are no physical 
barriers to entry such as lack of accessible parking, accessible 
signage, unramped stairs, or raised thresholds, the person could enter 
the polling place. The ability to cast a ballot independently often 
depends on the person's disability and/or the voting mechanism. People 
with severe upper body or extremity limitations may have difficulty 
reaching and operating a ballot machine. Flat surfaces for writing or 
filling out forms may be too high for voters using wheelchairs. Blind 
and visually impaired voters rarely have audio descriptions of the 
ballot and/or machine. Without this guidance, the voter must rely on 
the assistance of others, a companion, poll worker or stranger. There 
is no guarantee that the vote has been cast as per the voter's 
instruction.
    Furthermore poll workers sometimes draw attention to the voter with 
a disability by trying to provide special assistance. Escorting voters 
with any disability to the front of the line or to the voting booth is 
not uncommon. Loud or unnecessary explanations may be well intentioned, 
but bring unwanted focus to the voter. And oral repetition of the 
directions of a voter who needs assistance eliminates any possibility 
of privacy.
    Under current law, only those with physical disabilities have a 
limited course of action under the Voting Accessibility for the Elderly 
and Handicapped Act of 1984 (VAEHA). Section 504 of the Rehabilitation 
Act would apply in any election operated with the assistance of federal 
funds, and Title II of the ADA applies to state and local elections. 
These latter two laws have ``program access'' as a standard. This has 
been open to interpretation and could still allow such practices as 
curbside voting and poll worker assistance.

    Question 3. Would you explain the advantages of Oregon's vote-by-
mail system for citizens with physical disabilities? What other states 
serve as good role models? What types of voting technologies are most 
effective for your constituents?
    Answer. The primary advantage of a vote by mail system is that all 
voters are using the same method of casting their ballots. Everyone has 
the time to make their decisions and all ballots are cast in the 
location of the voter's choice. The downside of this system is that 
print or punch card ballots limit the ability of a voter with limited 
use of hands or a voter with a vision impairment to vote independently.
    In September, 1999, the Texas Election Code was amended by adding 
Section 81 .55--Adoption of Accessible Voting Systems. This section 
requires voting systems to comply with Section 504 of the 
Rehabilitation Act of 1973 and Title II of the Americans with 
Disabilities Act. Other states recognize that they still have physical 
barriers at the polls. North Carolina, for instance, recognizes the 
importance of accessible polling places and has done much to educate 
their jurisdictions and poll workers.
    PVA does not endorse one voting system or another. We have not 
taken a survey of our members to determine which voting machine best 
suits our members. We do note that the ADA Accessibility Guidelines (28 
CFR Part 36, Appendix A) provides guidelines for accessibility, 
including reach ranges, operating mechanisms, clear floor space, etc.

    Question 4. You mentioned that many barriers for Americans with 
physical disabilities are not insurmountable. Do you have any specific 
thoughts or comments regarding how to lower the costs of ensuring that 
voting locations are compliant with ADA?
    Answer. Under the VAEHA, (sec. 3. (a)) . . . ``Each political 
subdivision responsible for conducting federal elections shall assure 
that all polling places are accessible to the elderly and 
handicapped.'' If the polling place has significant physical barriers, 
the polling place should be moved to an accessible facility. Relocating 
polls happens all the time for other reasons and can be done at no 
cost.
    However, if no accessible polling place is available, then the poll 
should remove barriers. According to the final FEC oversight report (9/
13/94), many of the barriers at the polls were unramped stairs and 
thresholds, lack of accessible parking and directional signage to the 
accessible entrance. Restriping parking lots, installing ramps and 
improving signage are simple, inexpensive solutions that the ADA 
requires of most places of public accommodation. The Department of 
Justice provides technical assistance; this is available on their 
website at http://www.usdoj.gov/crt/ada/publicat.htm. Publications 
specifically on barrier removal, parking spaces, small businesses and 
small towns, and tax incentives, provide information on compliance with 
the ADA. The Job Accommodation Network (800-526-7234) also provides 
advice on simple solutions for barrier removal. Though the Job 
Accommodation Network is geared towards employment of people with 
disabilities, it has a wealth of information on general and specific 
accommodations. Information can be found at http://
janweb.icdi.wvu.edu/.

    Question 5. You mentioned in your statement that legislation could 
not overcome ``attitudinal problems.'' How much of the overall voting 
challenges for physically disabled Americans can you attribute to 
attitudinal problems?
    Answer. Again, PVA has not formally studied the problems our 
members encounter in voting. Attitudinal problems affect people with 
disabilities in many situations. Most people with disabilities can 
relate stories of being spoken to loudly and slowly. Well-meaning 
people often talk to the companion of the individual with a disability, 
or will physically take hold of an individual. In voting, such actions 
isolate and draw attention to the voter who is trying to carry out an 
extremely private process.
    Failure to remove architectural barriers may be caused by attitudes 
and assumptions by election officers with decision-making authority. 
For instance, voters with disabilities are often encouraged to vote by 
absentee ballot or at curbside. A few steps may not be perceived to be 
a barrier if assistance is available to carry a voter up into the 
polling place. And if personal assistance is available to those unable 
to complete the voting process independently, efforts are not likely to 
be undertaken to find a solution that allows independent voting.
    These problems can most often be resolved by training that focuses 
on respect for the individual and his/her privacy in the voting 
process. Publications on disability etiquette are available at http://
www.jan.wvu.edu/media/etipresent.html and http://www.epva.org/
Videos_Publications/publication_tab.htm. Many local disability related 
organizations would be willing to assist in this training free of 
charge.
                                 ______
                                 
         Responses to Written Submitted by Hon. John McCain to 
                            Mary Jane O'Gara

    Question 1. In your prepared testimony, you refer to emerging 
technologies which can protect against fraud and bias by instantly 
verifying voter registration status. Is this technology currently 
available? If so, are any states employing it?
    Answer. The technology to verify voter registration currently 
exists and is used by several states, including Georgia, as was 
mentioned in the statement of the Georgia Secretary of State. AARP has 
not undertaken a formal study of how many states employ such 
technology. The same technology is commonly used by such enterprises as 
car washes where customers pay in advance and are given a printed code 
that is entered into a code box as verification of payment prior to 
moving their vehicles into the wash facility. Similarly, officially 
registered individuals could be assigned such codes to authenticate 
their registration, especially when recent registrants have not 
received registration cards through the mail.

    Question 2. Are you concerned that states may gradually adopt new 
voting machines with state-of-the-art technology which are not be user-
friendly to the elderly? What types of new technology would 
disadvantage your members?
    Answer. AARP is not overly concerned that state-of-the-art 
technology will be unfriendly for older voters, but we believe it 
important to remind innovators of the special requirements of older and 
disabled voters as they design new systems. Innovations should address 
problems related to print size, print contrast, and keyboard comfort, 
and polling stations should be adjustable for voters with vision, 
hearing and ambulatory impairments--or special stations to address 
these needs should be available.

    Question 3. What is your opinion of Oregon's Vote-by-Mail system? 
Were the ballots designed sufficiently for people with visual and other 
disabilities?
    Answer. AARP has not reviewed the Oregon Vote-by-Mail system. With 
regard to the ballot design, we have heard some complaints about the 
Oregon ballot posing difficulty for persons with both visual and 
physical impairments, but lacking a careful review, AARP does not have 
any recommendations or position at this time.

    Question 4. You expressed in your written testimony that the ``most 
significant demonstrated problems'' should receive priority for any 
available federal funds. How would you define the ``most significant 
demonstrated problems?''
    Answer. AARP has not specifically defined the most significant 
voting problems. Ideally, an objective, national body would be 
commissioned to study the problems we outlined on the first page of the 
AARP statement. That body should propose methods and procedures for 
measuring and weighting various impediments in the voting process. The 
commissioned body would be positioned to identify and suggest problems 
to be addressed with the federal funds available to states for state-
selected priorities.

    Question 5. You mentioned the need for ``objective monitoring'' of 
new voting technologies. Will this type of monitoring prevent 
programmer manipulation and hacking? Will it require extensive training 
of those responsible for monitoring the voting system? Will smaller and 
poorer voting areas be more vulnerable due to a lack of skilled 
personnel in those areas?
    Answer. Objective monitoring is critical to being able to ascertain 
whether any manipulation has occurred and address accusations of 
partisan or other special interest manipulation. Unfortunately, it is 
virtually impossible to design a system that cannot be manipulated or 
``hacked.'' Still, that should not be a deterrent to innovation. 
Although training would be required for a core cadre of professionals 
responsible for monitoring and evaluating the technology itself, those 
persons would not necessarily be the same as those responsible for 
monitoring and overseeing elections administration. Indeed, when the 
individuals responsible for maintaining and protecting the integrity of 
the technology are relatively objective technocrats, their services can 
be made available to any area or community regardless of the location 
or the voters' ethnicity, race, religion, language or education level. 
The need for technical expertise ought not be burdened with a residency 
requirement.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                             Raul Yzaguirre

    Question 1. What new technologies do you think offer the best 
approach for addressing the specific needs of bilingual and multi-
lingual communities?
    Answer. We do not claim expertise on this subject.

    Question 2. What role do you think improved voter and poll worker 
education plays in improving the access of minority communities to the 
election process?
    Answer. We believe education for both voters and poll workers is a 
key component to improve accessibility of minority voters to the 
election process. Education would benefit voters by reducing the 
likelihood of intimidation and encouraging participation. It also 
equips poll workers with voting rights knowledge that would facilitate 
their job on Election Day and prevent them from inadvertently engaging 
in unlawful discrimination. However, we also believe that vigorous 
enforcement is needed to punish violations of the Voting Rights Act.

    Question 3. In your testimony, you mentioned complications which 
may arise from cross referencing registered voters and voter 
registration applicants against Social Security and INS data bases. 
Would you suggest an alternative method, or methods, which you believe 
would be more effective?
    Answer. We are not persuaded that major new procedures are, in 
fact, needed to verify citizenship status. Current law authorizes any 
number of officials to challenge the eligibility of any voter, provided 
that the voter is allowed to use a provisional ballot and the question 
is resolved after-the-fact. This permits time, for example, for newly-
naturalized citizens to present their certificate of naturalization, or 
for native-born citizens to find and present their birth certificate. 
In addition, larger investigations are entirely appropriate where there 
is probable cause that widespread fraud may be taking place. The 
problem with attempts to authorize pre-voting verification systems is 
that well-documented errors and inconsistencies in these databases will 
inevitably bar eligible persons from voting. For example, an initial 
computer match of the INS database with Orange County's voter 
registration lists purportedly revealed ``tens of thousands'' of 
questionable voters, according to a widely-cited House Administration 
Committee press release. After the records were checked manually, it 
turned out that at worst a dozen or so citizens mistakenly registered 
to vote after they had completed the naturalization process but before 
they were sworn in. In the absence of a single study, or a single civil 
or criminal court proceeding, which has produced documented evidence of 
a major problem, and given the massive potential disenfranchisement 
inherent in pre-voting computer match schemes, we do not believe there 
is any rational basis for enacting any new ``ballot integrity'' 
proposal.

    Question 4. Are there any existing lawsuits filed by La Raza or 
other Latino organizations which challenge as individual state's 
compliance with the Fifteenth Amendment?
    Answer. We have not filed any lawsuits. We understand that the 
Puerto Rican Legal Defense and Education Fund (PRLDEF) is in the 
process of developing litigation in a number of counties in Florida 
which violated the Voting Rights Act, the National Voter Registration 
Act, and/or Florida state law. They are currently assisting individual 
voters with evaluating where to file complaints under the law.

    Question 5. Do you believe that Latino voters who were turned away 
at the polls this past November, when they arrived between 15 and 25 
minutes before official closing time, were singled out because of the 
color of their skin? Were Caucasians allowed to vote if they arrived at 
the same time? What evidence do you have to affirm this statement?
    Answer. We understand that PRLDEF is still compiling evidence in 
preparation for potential litigation. Based on the research and 
statements cited in our testimony, in at least some cases Latino and 
Asian voters were singled out for discrimination--not solely on skin 
color but also based on surnames and speech accents.

    Question 6. What do you believe is the largest impediment, for the 
Latino community, in the voting process?
    Answer. For those who already have obtained citizenship, the 
barriers experienced by Latinos are similar to other groups--poverty, 
education attainment, etc. For a significant number of Hispanic 
citizens whose first language is not English, lack of language-
accessible voter education, registration, and ballots deter many from 
casting their vote.

    Question 7. Beyond the specific examples cited from New York and 
Florida, in what other states have you received complaints from 
minority communities? Do New York and Florida appear to be the worst 
cases?
    Answer. We believe New York and Florida may be the worst cases 
based on the evidence we received, although as we noted in out 
statement, we suspect similarities in other states.

    Question 8. Are there currently any voting systems, across the 
country, which you would cite as model programs for the way in which 
they address the needs of the minority and minority language 
communities? If so, how do you think we can best implement those 
lessons elsewhere?
    Answer. We do not claim expertise on this subject.

    Question 9. During your testimony, you mentioned problems with 
language translation. Given the current discussion on establishing 
statewide uniform voting systems, how important is it the new systems 
are multi-lingual?
    Answer. Multilingual technology is essential in guaranteeing 
accessibility and participation of all language minority voters. We 
believe that any new technology should take into account the needs of 
limited-English-proficient citizens.
    In addition, it may be appropriate to discuss here the continuing 
need for language assistance in the electoral process. Some well-
intentioned but uninformed persons have questioned the need for such 
assistance, asserting that since the naturalization process requires 
foreign-born persons to demonstrate some level of proficiency in 
English, language assistance is unnecessary. They further assert that 
jurisdictions are incapable of providing appropriate assistance given 
the nation's increasing diversity. There are several problems with this 
line of argument. First, several categories of persons--including those 
persons over a certain age who have lived in the U.S. for a lengthy 
period--are exempt from the English language requirement. Second, 
current law specifically notes that naturalization applicants are 
expected to have a ``basic'' understanding of English and civics. Given 
the growing complexity of the language of ballot propositions in most 
jurisdictions, we believe it makes sense to have oral assistance and/or 
bilingual ballots to help assure that naturalized citizens fully 
understand the issues they are being asked to address. Similarly, many 
naturalized citizens have low levels of education and literacy, even in 
their native language; in these cases, the availability of oral 
assistance is essential. Finally, the Voting Rights Act and state-local 
laws authorizing language assistance do not create an individual voter 
entitlement to such assistance. Most such laws require language 
assistance only in jurisdictions with significant concentrations of 
language minorities, usually based on Census data. In other words, the 
law requires language assistance only where it is cost-effective. In 
this context, we believe it is vitally important the electoral reform 
supports, and does not undermine, the ability of citizens whose native 
language may not be English to participate in the voting process.

                                  <all>

</pre></body></html>
